                 U.S. Department of Agriculture

                    Office of Inspector General
                     Financial & IT Operations




       Audit Report

Commodity Credit Corporation’s
   Financial Statements for
  Fiscal Years 2008 and 2007




                       Report No. 06401-23-FM
                               November 2008
                      UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington D.C. 20250


November 13, 2008


REPLY TO
ATTN OF:      06401-23-FM

TO:           Board of Directors
              Commodity Credit Corporation

              Dennis Taitano, Controller
              Commodity Credit Corporation

ATTN:         T. Michael McCann, Director
              Operations Review and Analysis Staff
              Office of Business and Program Integration
              Farm Service Agency

FROM:         Robert W. Young             /s/
              Assistant Inspector General
               for Audit

SUBJECT:      Commodity Credit Corporation’s Financial Statements
              for Fiscal Years 2008 and 2007


This report presents the auditors’ opinion on the Commodity Credit Corporation’s (CCC)
consolidated financial statements for the fiscal years ending September 30, 2008, and 2007.
Reports on CCC’s internal control structure and its compliance with laws and regulations are
also provided.

KPMG LLP (KPMG) an independent certified public accounting firm, conducted the audits. In
connection with the contract, we reviewed KPMG’s report and related documentation and
inquired of its representatives. Our review, as differentiated from an audit in accordance with
Government Auditing Standards (issued by the Comptroller General of the United States), was
not intended to enable us to express, and we do not express, opinions on CCC’s financial
statements, internal control or on whether CCC’s financial management systems substantially
complied with the Federal Financial Management Improvement Act (FFMIA); or conclusions on
compliance with laws and regulations. KPMG is responsible for the attached auditor’s report,
dated November 10, 2008, and the conclusions expressed in the report. However, our review
disclosed no instances where KPMG did not comply, in all material respects, with Government
Auditing Standards and the Office of Management and Budget Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended.
Board of Directors et al.                                                                       2


It is the opinion of KPMG, that the financial statements present fairly, in all material respects,
CCC’s financial position as of September 30, 2008, and 2007; and its net costs, changes in net
position, and budgetary resources, in conformity with generally accepted accounting principles.

The KPMG report on CCC’s internal control structure over financial reporting identified five
significant deficiencies. Specifically, KPMG identified weaknesses in CCC’s:

   •   Financial system functionality and funds control;
   •   management’s review procedures over the cash flow models;
   •   management’s analysis of obligations and liabilities for the Direct and Countercyclical
       Payment Programs;
   •   information security controls; and
   •   monitoring of child agency financial information.


KPMG considered the first three significant deficiencies to be material weaknesses. The results
of KPMG’s tests of compliance with laws and regulations disclosed instances of noncompliance
with the Federal Information Security Management Act, FFMIA, and the Anti-Deficiency Act.

In accordance with Departmental Regulation 1720-1, please furnish a reply within 60 days
describing the corrective actions taken or planned, including the timeframes to address the
report’s recommendations. Please note the regulation requires a management decision to be
reached on all findings and recommendations within a maximum of 6 months from report
issuance.
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                            September 30, 2008


                                            Table of Contents



                                                                                              Page

Independent Auditors’ Report                                                                     1

Exhibit 1 – Material Weaknesses                                                                1–1

Exhibit 2 – Significant Deficiencies                                                           2–1

Exhibit 3 – Status of Prior Year Noncompliance and Other Matters                               3–1

Exhibit 4 – Status of Prior Year Findings                                                      4–1

Exhibit 5 – Management’s Response to Findings Contained in the Independent Auditors’ Report    5–1

Annual Report
INDEPENDENT AUDTIORS’ REPORT
                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036




                                           Independent Auditors’ Report


To the Inspector General,
U.S. Department of Agriculture:

To the Commodity Credit Corporation:

We have audited the accompanying consolidated balance sheets of the Commodity Credit Corporation
(CCC) as of September 30, 2008 and 2007, and the related consolidated statements of net cost, and changes
in net position, and combined statements of budgetary resources (hereinafter referred to as “consolidated
financial statements”) for the years then ended. The objective of our audits was to express an opinion on
the fair presentation of these consolidated financial statements. In connection with our fiscal year 2008
audit, we also considered CCC’s internal controls over financial reporting and tested CCC’s compliance
with certain provisions of applicable laws, regulations, contracts, and grant agreements that could have a
direct and material effect on these consolidated financial statements.

Summary
As stated in our opinion on the consolidated financial statements, we concluded that CCC’s consolidated
financial statements as of and for the years ended September 30, 2008 and 2007, are presented fairly, in all
material respects, in conformity with U.S. generally accepted accounting principles.

Our consideration of internal control over financial reporting resulted in the following conditions being
identified as significant deficiencies:

•   Improvement needed in financial system functionality and funds control

•   Improvement needed in management’s review procedures over its cash flow models
•   Improvements needed in management’s analysis of obligations and liabilities for the Direct and
    Countercyclical Payment Programs
•   Improvement needed in information security controls
•   Improvement needed in monitoring of child agency financial information
We consider the first three significant deficiencies above to be material weaknesses.

The results of our tests of compliance with certain provisions of laws, regulations, contracts, and grant
agreements disclosed the following instances of noncompliance that are required to be reported herein
under Government Auditing Standards, issued by the Comptroller General of the United States, and Office
of Management and Budget (OMB) Bulletin No. 07-04.

•   Federal Information Security Management Act (FISMA)
•   Anti-Deficiency Act (ADA).




                                  KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                  a member of KPMG International, a Swiss cooperative.
The results of our tests of FFMIA disclosed instances, described in more detail in Exhibit I, where CCC’s
financial management systems did not substantially comply with federal financial management systems
requirements.

The results of our tests of FFMIA disclosed no instances in which CCC did not substantially comply with
applicable federal accounting standards or the United States Government Standard General Ledger
(USSGL) at the transaction level.

The following sections discuss our opinion on CCC’s consolidated financial statements; our consideration
of CCC’s internal controls over financial reporting; our tests of CCC’s compliance with certain provisions
of applicable laws, regulations, contracts, and grant agreements; and management’s and our
responsibilities.

Opinion on the Consolidated Financial Statements
We have audited the accompanying consolidated balance sheets of CCC as of September 30, 2008 and
2007, and the related consolidated statements of net cost, and changes in net position, and the combined
statements of budgetary resources for the years then ended.

In our opinion, the consolidated financial statements referred to above present fairly, in all material
respects, the financial position of CCC as of September 30, 2008 and 2007, and its net costs, changes in net
position, and budgetary resources for the years then ended, in conformity with U.S. generally accepted
accounting principles.

The information in the Management’s Discussion and Analysis and Required Supplementary Information
sections is not a required part of the consolidated financial statements, but is supplementary information
required by U.S. generally accepted accounting principles. We have applied certain limited procedures,
which consisted principally of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and, accordingly, we express
no opinion on it.

The information in the Performance Section and Other Accompanying Information section is presented for
purposes of additional analysis and is not required as part of the consolidated financial statements. This
information has not been subjected to auditing procedures and, accordingly, we express no opinion on it.

Internal Control Over Financial Reporting
Our consideration of the internal control over financial reporting was for the limited purpose described in
the Responsibilities section of this report and would not necessarily identify all deficiencies in the internal
control over financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
that adversely affects CCC’s ability to initiate, authorize, record, process, or report financial data reliably in
accordance with U.S. generally accepted accounting principles such that there is more than a remote
likelihood that a misstatement of CCC’s consolidated financial statements that is more than
inconsequential will not be prevented or detected by CCC’s internal control. A material weakness is a
significant deficiency, or combination of significant deficiencies, that results in more than a remote
likelihood that a material misstatement of the financial statements will not be prevented or detected by
CCC’s internal control.




                                                        2
In our fiscal year 2008 audit, we consider the deficiencies, described in Exhibits 1 and 2, to be significant
deficiencies in internal control over financial reporting. However, of the significant deficiencies described
in Exhibits 1 and 2, we believe that the significant deficiencies presented in Exhibit 1 are material
weaknesses. A summary of the status of prior year noncompliance and other matters is presented in
Exhibit 3. Exhibit 4 presents the status of prior years’ material weaknesses and significant deficiencies.

We noted certain additional matters that we have reported to management of CCC in a separate letter dated
November 12, 2008.

Compliance and Other Matters
The results of certain of our tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in the Federal Financial Management Improvement Act of 1996 (FFMIA),
disclosed two instance of noncompliance that are required to be reported herein under Government
Auditing Standards or OMB Bulletin No. 07-04, and is described below.

FISMA. FISMA, passed as part of the E-Government Act of 2002, requires that federal agencies
(1) provide a comprehensive framework for ensuring the effectiveness of information security controls
over information resources that support Federal operations and assets; (2) provide effective
government-wide management and oversight of the related information security risks; (3) provide for
development and maintenance of minimum controls required to protect federal information and
information systems; (4) provide a mechanism for improved oversight of federal agency information
security programs; (5) acknowledge that commercially developed information security products offer
advanced, dynamic, robust, and effective information security solutions, reflecting market solutions for the
protection of critical information infrastructures important to the national defense and economic security of
the nation that are designed, built, and operated by the private sector; and (6) recognize that the selection of
specific technical hardware and software information security solutions should be left to individual
agencies from among commercially developed products. OMB Circular No. A-130, Management of
Federal Information Resources, provides further information security guidance.

We noted that during fiscal year 2008, the International Technology Services (ITS) and CCC have made
significant progress with their information security program in order to meet the requirements of FISMA
and OMB Circular No. A-130. (ITS provides and maintains the IT infrastructure supporting CCC’s general
support systems and major applications, hence the reference here, and later in this report, to ITS.)
However, FSA/CCC needs further improvement in its technical security access controls and computer
operations programs to fully meet these requirements. The information security weaknesses we identified
during the financial audit were consistent with weaknesses identified by the USDA Office of Inspector
General (OIG) during its annual FISMA evaluation. The significant deficiency reported in Exhibit 2 and
CCC’s noncompliance with FISMA both contribute to CCC’s noncompliance with FFMIA.

ADA. As previously reported in our fiscal year 2007 report, the USDA’s Office of General Counsel made
the legal determination in May 2007 an ADA violation occurred. The violation was the result of the
improper donation and transportation of nonfat dry milk during fiscal year 2003. During fiscal year 2008,
CCC reported the ADA violation to the appropriate parties as required by OMB Circular A-11.

The results of our other tests of compliance as described in the Responsibilities section of this report,
exclusive of those referred to in FFMIA, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB Bulletin No. 07-04.

The results of our tests of FFMIA disclosed instances, described in more detail in Exhibit I, where CCC’s
financial management systems did not substantially comply with federal financial management systems
requirements. Further, ITS/CCC’s FISMA noncompliance contributed to its noncompliance with FFMIA,
as one of the FFMIA requirements related to security over financial systems. The results of our tests of


                                                       3
FFMIA disclosed no instances in which CCC did not substantially comply with applicable federal
accounting standards or the USSGL at the transaction level.

FFMIA mandates that federal financial management be advanced by ensuring that federal financial
management systems can and do provide reliable, consistent disclosure of financial data and that they do
so on a basis that is uniform across the federal government from year to year, consistently using U.S.
generally accepted accounting principles. Federal agencies need to comply with FFMIA by adhering to
policies established by OMB, such as OMB Circular No. A-127, Financial Management Systems. For
example, CCC needs to improve its processes in order to effectively implement a comprehensive funds
control process.

FFMIA also requires that federal agencies implement information security controls and contingency
planning capabilities in accordance with OMB Circular No. A-130. As noted in more detail in Exhibit 2,
CCC needs to improve in these and other areas to be in compliance with FISMA and OMB Circular
No. A-130. For example, CCC needs to further enhance its procedures in order to establish and maintain
information security and contingency planning procedures.

                                                *******

Responsibilities
Management’s Responsibilities. Management is responsible for the consolidated financial statements;
establishing and maintaining effective internal control; and complying with laws, regulations, contracts,
and grant agreements applicable to CCC.

Auditors’ Responsibilities. Our responsibility is to express an opinion on the fiscal year 2008 and 2007
consolidated financial statements of CCC based on our audits. We conducted our audits in accordance with
auditing standards generally accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller General of the United
States; and OMB Bulletin No. 07-04. Those standards and OMB Bulletin No. 07-04 require that we plan
and perform the audits to obtain reasonable assurance about whether the consolidated financial statements
are free of material misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the circumstances, but not for the
purpose of expressing an opinion on the effectiveness of CCC’s internal control over financial reporting.
Accordingly, we express no such opinion.

An audit also includes:

•     Examining, on a test basis, evidence supporting the amounts and disclosures in the consolidated
      financial statements;
•     Assessing the accounting principles used and significant estimates made by management; and
•     Evaluating the overall consolidated financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.

In planning and performing our fiscal year 2008 audit, we considered CCC’s internal control over financial
reporting by obtaining an understanding of CCC’s internal control, determining whether internal controls
had been placed in operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on the consolidated financial
statements. We did not test all internal controls relevant to operating objectives as broadly defined by the
Federal Managers’ Financial Integrity Act of 1982. The objective of our audit was not to express an
opinion on the effectiveness of CCC’s internal control over financial reporting. Accordingly, we do not
express an opinion on the effectiveness of CCC’s internal control over financial reporting.


                                                      4
As part of obtaining reasonable assurance about whether CCC’s fiscal year 2008 consolidated financial
statements are free of material misstatement, we performed tests of CCC’s compliance with certain
provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could have a
direct and material effect on the determination of the consolidated financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04, including the provisions
referred to in Section 803(a) of FFMIA. We limited our tests of compliance to the provisions described in
the preceding sentence, and we did not test compliance with all laws, regulations, contracts, and grant
agreements applicable to the CCC. However, providing an opinion on compliance with laws, regulations,
contracts, and grant agreements was not an objective of our audit and, accordingly, we do not express such
an opinion.

                                   ______________________________

CCC’s response to the findings identified during our audit is presented in Exhibit 5. We did not audit
CCC’s response and, accordingly, we express no opinion on it.

This report is intended solely for the information and use of CCC’s management, the USDA’s Office of
Inspector General, OMB, the U.S. Government Accountability Office, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.




November 12, 2008




                                                     5
                                                                                                      Exhibit 1
                               U.S. DEPARTMENT OF AGRICULTURE –
                               COMMODITY CREDIT CORPORATION
                                             Material Weaknesses



Introduction

The internal control deficiencies discussed in this report, and the Commodity Credit Corporation’s (CCC)
progress toward correcting these deficiencies, are discussed in the context of CCC’s existing statutory and
organizational structure. We recognize that any recommended information technology (IT) control
enhancements pertaining to CCC operations cannot be implemented solely by CCC, because CCC’s
applications are in many cases hosted on systems managed by the United States Department of Agriculture
(USDA), the USDA Farm Service Agency (FSA), and the USDA Information Technology Services (ITS).
As a result, several of the IT control deficiencies identified in this report will require the combined effort of
USDA and CCC management.

Exhibit 1 herein describes the material weaknesses and Exhibit 2 describes the significant deficiency noted
during our audit as of and for the year ended September 30, 2008, and our recommendations thereon. A
summary of the status of prior year noncompliance is presented in Exhibit 3. Exhibit 4 presents the status
of prior years’ material weaknesses and significant deficiencies. CCC management’s response to our
findings is presented in Exhibit 5.

Material Weaknesses

The material weaknesses we identified as of and for the year ended September 30, 2008, are summarized
below.

(1)   Improvement Needed in Financial System Functionality and Funds Control

      As noted in prior year audits, CCC does not have a system in place that adequately reduces the risk
      that funds could be disbursed or obligations incurred with no or insufficient budget authority to fund
      the expense or obligation.

      The Antideficiency Act requires that agency heads prescribe, by regulation, a system of
      administrative control of funds. The system is also called the fund control system and the regulations
      are called fund control regulations. In accordance with OMB Circular No. A-11, Part 4, Instructions
      on Budget Execution, the purpose of funds control is to:

      •   Restrict both obligations and expenditures from each appropriation or fund account to the lower
          of the amount apportioned by OMB or the amount available for obligation and/or expenditure in
          the appropriation or fund account, and

      •   Enable management to identify the person responsible for any obligation or expenditure
          exceeding the amount available in the appropriation or fund account, the OMB apportionment or
          reapportionment, the allotments or suballotments made by the agency, and statutory limitations
          or any other administrative subdivision of funds made by CCC.

      CCC has implemented and continues to improve certain manual controls to help mitigate the risk of
      financial statement misstatement; however, these controls are detective in nature. As such, the


                                                      1-1
                                                                                                   Exhibit 1
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                           Material Weaknesses



      existing controls do not adequately address the risks arising from the lack of an integrated obligation
      and disbursement system related to funds control. As a result of this control deficiency, CCC
      continues to remain noncompliant with FFMIA.

      Recommendation

      FSA/CCC management is continuing its efforts to develop and implement new systems that are
      expected to achieve funds control upon their implementation, which is expected to be completed by
      fiscal year 2012. Until this long-term solution is in place, CCC management represents that it
      recognizes the need to continue to refine the manual processes in place to mitigate to the extent
      possible the system functionality issues noted above. As a result, we have no further
      recommendation regarding this issue.

(2)   Improvement Needed in Management’s Review Procedures Over Its Cash Flow Models

      During our review of the credit reform models in fiscal year 2008, we noted that internal control
      weaknesses in the model validation and verification process continued to exist at CCC. Specifically,
      we identified certain errors in the PL 480 and the Farm Storage models related to data input and/or
      model logic. The errors were identified through the audit process, and as a result, the models were
      revised multiple times. All significant errors in the models were corrected at year end.

      Technical Release No. 6, Preparing Estimates for Direct Loan and Loan Guarantee Subsidies,
      January 2004, paragraph 40 states, “The cash flow estimation process, including all underlying
      assumptions, should be reviewed and approved at the appropriate level including revisions and
      updates to the original model. Cash flow models should be tested for reliability as part of the
      approval process by comparing estimated cash flows to actual cash flows and assessing the model’s
      ability to replicate a credit program’s performance.”

      Office of Management and Budget (OMB) Circular A-123, Management Accountability and
      Control, prescribes the expectation of management and the responsibility of managers for the quality
      and timeliness of program performance. Management controls are the organization policies and
      procedures used to reasonably ensure that (i) programs achieve their intended results; (ii) resources
      are used consistent with agency mission; (iii) programs and resources are protected from waste,
      fraud, and mismanagement; (iv) laws and regulations are followed; and (v) reliable and timely
      information is obtained, maintained, reported and used for decision making.

      As noted in fiscal year 2007, CCC’s model validation and verification procedures are not sufficiently
      thorough. As such, management’s oversight of the development, implementation, and maintenance
      of the cash flow models and the related calculations for the Credit Reform program was not effective
      and errors continue to exist in the model versions submitted for audit.

      The lack of effective management review and approval procedures related to the development,
      implementation, and maintenance of the cash flow model changes and functionality increases the
      risk that material errors in the models will exist and not be detected by CCC’s internal controls,


                                                    1-2
                                                                                                 Exhibit 1
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                                          Material Weaknesses



      thereby increasing the risk of material misstatement to the financial statements and related
      disclosures.

      Recommendation

      1. We recommend that the Office of Budget and Finance (OBF) management perform a more
         thorough and in-depth review of the models prior to submitting them for auditor review. In
         addition, OBF should begin making any necessary revisions to the model earlier in the fiscal
         year. This will allow for more time to ensure that all changes to the models are properly made
         and reviewed.

(3)   Improvements needed in management’s analysis of obligations and liabilities for the Direct and
      Countercyclical Payment Programs

      In recent years, CCC has significantly improved its accounting policies and procedures related to the
      producer payment programs. In fiscal year 2008, CCC further updated its overall policies and
      procedures related to producer payment program obligations and accruals by major program
      category and program level. We also noted that CCC improved the level of analysis performed at the
      program level for many active programs. Our review of documentation used by CCC to record
      producer payment program accruals and to liquidate related undelivered orders generally indicated
      that supervisory review and approval was performed; however, we identified certain significant
      errors at September 30, 2008, as follows:

      •   At September 30, 2008, CCC used its economists’ estimate to record an accrual for the counter-
          cyclical payments (CCP) expected to be made to producers in fiscal year 2009 related to the
          2007 program year. The economists subsequently revised their previous estimate on October 10,
          2008, to reflect an updated payment rate for the commodity. However, the year end CCP accrual
          was not adjusted for the most recent estimate information, which indicated the future CCP
          payments were fully accrued, and as a result, CCC overstated the program accrual in the amount
          of $215 million.

      •   As noted above, CCC had fully accrued for the counter-cyclical payments expected to be made
          in fiscal year 2009 related to the 2007 program year. Based on the most recent market data, the
          economists’ estimate did not anticipate any additional disbursements to occur for this program;
          however, the related undelivered orders balance of $548 million was not de-obligated at year
          end.

      •   At September 30, 2008, CCC recorded an upward adjustment to its undelivered orders for
          $46 million for the 2007 Direct Payment (DP) program based on prior estimates provided by the
          economist. CCC accountants performed a lag analysis to observe the disbursement trend;
          however, this analysis was not used to evaluate the reasonableness of the recorded amount. The
          analysis of disbursement trends for the 2002 through 2006 DP program years indicated that CCC
          has paid an average of $9 million related to this program after the completion of the program’s
          statutory disbursement date, which is deemed to be a reasonable estimate of future obligations


                                                   1-3
                                                                                              Exhibit 1
                        U.S. DEPARTMENT OF AGRICULTURE –
                        COMMODITY CREDIT CORPORATION
                                      Material Weaknesses



   for this program at September 30, 2008. Based on this analysis, the amount recorded for
   undelivered orders for the 2007 DP program year was overstated in the amount of $37 million.

Statement of Federal Financial Accounting Standards 5, Accounting for Liabilities of the Federal
Government, states that: “A liability for federal accounting purposes is a probable future outflow or
other sacrifice of resources as a result of past transactions or events.” It further states, “Government-
related events resulting in a liability should be recognized in the period the event occurs if the future
outflow or other sacrifice of resources is probable and the liability can be measured, or as soon
thereafter as it becomes probable and measurable.”

OMB Circular A-11, Preparation, Submission, and Execution of the Budget, stated: obligations are
evidenced by legally binding agreement that will result in outlays, immediately or in the future.
When government employees place an order, sign a contract, award a grant, purchase a service, or
take other actions that require the Government to make payments to the public or from one
Government account to another, government employees incur an obligation. Services and supplies
that are purchased by contract are recorded as obligations at the time there is a binding agreement,
which is usually when the contract is signed. As a general rule, the amount of the obligation is the
maximum liability to the Federal Government. The maximum liability to the Government is
normally limited by the terms of the contract, e.g., cancellation clauses.

CCC management uses estimates related to expected payments that are dependent on future
commodity market prices to properly record program obligations and accruals in accordance with
U.S. generally accepted accounting principles. Management has implemented effective monitoring
and review procedures to ensure that obligations and accrued expense amounts related to active
commodity programs are reasonable and timely recorded based on these estimates. However, the
same level of timely analysis does not appear to be performed on residual balances related to
programs for which the program years have ended.

As a result of the errors noted above, accrued liabilities and undelivered orders were overstated by
approximately $215 million and $585 million, respectively. CCC made adjusting entries at
September 30, 2008 to reduce accrued liabilities and undelivered orders by approximately $215
million and $510 million, respectively.

Recommendation

2. We recommend that the formalized policies and procedures specific to the CCP and DP
   programs specifically describe: i) a process to perform a reasonableness analysis on the prior
   program year accruals and obligations carried forward to the current period; ii) actions that
   should be taken based on this analysis; and iii) procedures that should be followed to update the
   recorded amounts based on information that comes to management’s attention subsequent to
   fiscal year end that is relevant to current year recorded amounts.




                                               1-4
                                                                                                 EXHIBIT 2
                              U.S. DEPARTMENT OF AGRICULTURE
                              COMMODITY CREDIT CORPORATION
                                          Significant Deficiencies


The significant deficiencies we identified as of and for the year ended September 30, 2008, are summarized
below:

(4)    Improvement Needed in Information Security Controls
       Information security management is a crucial component in protecting sensitive and critical CCC
       information resources and financial data. The citizens of the United States entrust the stewardship
       of Federal government financial resources and assets to government financial and program
       managers. Without effective information security controls over financial systems and supporting
       systems, there is substantial risk that the resources under stewardship may be exposed to
       unauthorized modification, disclosures, loss, or impairment.

       Information security weaknesses have been identified in FSA/CCC’s IT environment in prior year
       audits conducted by the USDA Office of the Inspector General (OIG), as well as in prior audits of
       CCC’s consolidated financial statements. In response to these findings, and to address Federal
       Information Security Management Act (FISMA) requirements, FSA/CCC has taken steps to
       improve its information security program. For example, during fiscal year 2008 FSA/CCC:

       •   Completed a physical access review of its data center;

       •   Updated all contingency plans for fiscal year 2008;

       •   Developed and implemented backup error correction policy procedure for fiscal year 2008
           processing; and

       •   Substantially completed remediation of outstanding IT corrective actions.

       •   Outlined steps to correct vulnerability weaknesses within corrective action plan (CAP) #
           95.2006.GCC.025.

       Despite these efforts, additional enhancements are needed to help improve FSA/CCC’s level of
       confidentiality, integrity, and availability of sensitive and critical information systems and
       resources. Specifically, as in prior year audits, we noted several areas, detailed below, where
       improvements are needed in properly establishing and maintaining information security.

       Technical Security Access Controls

       As a component of an organization’s security program management efforts, technical security
       access controls for systems and applications should provide reasonable assurance that IT resources
       such as data files, application programs, and IT-related facilities/equipment are protected against
       unauthorized modification, disclosure, loss, or impairment. Technical access controls are facilitated
       by an organization’s overall information security program. Inadequate technical security access
       controls diminish the reliability of data and increase the risk of destruction or inappropriate
       disclosure of information, both of which pose significant risks to an organization.

       The objectives of limiting access are to ensure that users only have the access needed to perform
       their duties; that access to very sensitive resources, such as security software programs, is limited to


                                                     2-1
                                                                                              EXHIBIT 2
                         U.S. DEPARTMENT OF AGRICULTURE
                         COMMODITY CREDIT CORPORATION
                                     Significant Deficiencies


 very few individuals; and that employees are restricted from performing incompatible functions or
 functions beyond their responsibility.

 A summary of the technical access control weaknesses we identified are as follows:

 •    During our analyses of the vulnerability scanning activity reports, we observed certain instances
      where identified high-risk vulnerabilities were not resolved timely. Of the 47 vulnerabilities
      identified, 78% of them were related to areas that were undergoing process modifications and
      another 10% were due to a Microsoft Systems Management Server update that had not been
      received.

 •    eAuthentication password settings and the Active Directory password settings for the tds.eai
      domain did not meet the USDA requirements (e.g., 12 characters minimum).

 •    The TECHNCAL user profile for the CCC CORE application had access to certain security
      groups, which provided members of the profile unnecessary access to enter records into certain
      tables.

 Computer Operations

 Computer operations should be in place so that all critical data, transactions and programs are
 backed up on a defined schedule and that the backups are complete, accurate and can be recovered
 if needed. An agency's business continuity or contingency planning has no effect on its current
 abilities to initiate, authorize, record, process, or report financial data. Therefore, an agency's
 business continuity or contingency planning is not part of internal control over financial reporting
 but the ability to recover financial data is critical in the event a serious disruption or disaster occurs.
 During our fiscal year 2008 audit, we identified there was no alternative processing site for Web
 Farm applications.

 Federal laws and regulations such as FISMA, require that Federal agencies follow the security
 guidance issued by the National Institute of Standards and Technology (NIST). NIST provides the
 following relevant guidance:

  •    NIST Special Publication 800-53, Recommended Security Controls for Federal Information
       Systems, suggests that the organizations should identify an alternate processing site and initiate
       necessary agreements to permit the resumption of information system operations for critical
       mission/business functions within a reasonable amount of time when the primary processing
       capabilities are unavailable.

  •    NIST Special Publication 800-34, Contingency Planning Guide for Information Technology
       System, states: "Backup tapes should be tested regularly to ensure that data are being stored
       correctly and that the files may be retrieved without errors or lost data.”

Recommendations

We recommend that FSA/CCC management, in cooperation with the relevant ITS system owners
and NITC management:

                                                2-2
                                                                                                 EXHIBIT 2
                              U.S. DEPARTMENT OF AGRICULTURE
                              COMMODITY CREDIT CORPORATION
                                          Significant Deficiencies


      3. Continue actions, as outlined in CAP # 95.2006.GCC.025, to revise and implement procedures to
         ensure that all hosts are scanned monthly per policy and that remediation occurs in a timely
         manner for high and medium vulnerabilities;

      4. Configure the e-Authentication and the tds.eai domain Active Directory password settings to
         meet the standards set by the 12/14/2007 memorandum from the USDA Chief Financial Officer
         (CFO);

      5. Regularly review each CCC CORE user profile to determine whether its members’ access is
         appropriate based on their job responsibilities; and

      6. FSA/CCC OCIO, in coordination with FSA/CCC system owners and USDA OCIO officials,
         should ensure that management continues to execute the established CAP in order for FSA/CCC
         to obtain an alternate processing facility that will allow the Web Farm applications to continue
         processing in the event it’s not available due to a significant interruption.

(5)    Improvement Needed in Monitoring of Child Agency Financial Information
       CCC is a party to allocation transfers with the U.S. Agency for International Development (USAID)
       as the transferring entity (parent). CCC allocated funds of approximately $1 billion to USAID (the
       child) during fiscal year 2008 to fund P.L. 480 Title II transportation and other administrative costs
       in connection with foreign donations. As the parent, CCC is required by Office of Management and
       Budget (OMB) Circular A-136 to report all budgetary and proprietary activity related to the
       allocation transfer in its financial statements.

       During our testing of activities related to the allocation transfer, we noted that CCC was not
       effectively monitoring USAID to ensure the financial information reported to CCC was accurate.
       Specifically, we identified certain errors that were the result of significant control deficiencies
       related to USAID’s accrual estimation and fund balance with Treasury reconciliation processes that
       were unknown to CCC’s management and staff.

       OMB Circular A-136, Financial Reporting Requirements, states “The parent is authorized to
       delegate part or all of the work to other Federal agencies to carry out its program. However, the
       parent still has full responsibility for the program and its outputs. The parent is responsible for the
       program’s overall performance and may decide to reallocate funds if the parent is not satisfied with
       the child’s performance.” It further states that “The key to timely and accurate quarterly reporting
       by the child agency is the communication between the parent and child. It is strongly recommended
       that issues such as formats, abnormal balances, capitalization thresholds, useful lives, depreciation
       methodologies, transfer of trading partner information, etc., be discussed and resolutions reached at
       a date required by the parent to meet its reporting and auditing deadlines”

       Office of Management and Budget (OMB) Circular A-123, Management Accountability and
       Control, prescribes the expectation of management and the responsibility of managers for the
       quality and timeliness of program performance. Management controls are the organization policies
       and procedures used to reasonably ensure that (i) programs achieve their intended results; (ii)
       resources are used consistent with agency mission; (iii) programs and resources are protected from


                                                    2-3
                                                                                          EXHIBIT 2
                       U.S. DEPARTMENT OF AGRICULTURE
                       COMMODITY CREDIT CORPORATION
                                   Significant Deficiencies


waste, fraud, and mismanagement; (iv) laws and regulations are followed; and (v) reliable and
timely information is obtained, maintained, reported and used for decision making.

CCC does not currently have formal policies and procedures in place for monitoring the proprietary
and budgetary transactions reported by USAID. In addition, we were not able to identify evidence
that there is an ongoing dialogue between the two agency staffs, thereby increasing the risks that
errors may occur.

The lack of effective monitoring increases the risk that significant errors will exist in the financial
information provided by USAID and not be detected by CCC, thereby increasing the risk of
significant misstatement to CCC’s financial statements.

Recommendation

7. We recommend that CCC develop and implement policies and procedures to effectively
   monitor the transactions reported by USAID for inclusion in CCC’s financial statements. The
   procedures should call for frequent data analysis and regularly scheduled communication
   between agency staff to ensure CCC management is aware of any issues that underlie the
   financial transactions.




                                             2-4
                                                                                               Exhibit 3
                             U.S. DEPARTMENT OF AGRICULTURE –
                             COMMODITY CREDIT CORPORATION
                         Status of Prior Year Noncompliance and Other Matters


                                              Year First Reported
         Fiscal Year 2007 Finding                                    Fiscal Year 2008 Status
                                                  by KPMG

Federal       Information       Security             2002                       Open
Management Act (FISMA) – The
Information Technology Services (ITS)/
Commodity Credit Corporation (CCC)
needs to improve its level of compliance
with FISMA by implementing additional
controls and processes supporting its
entity-wide security and contingency
planning programs.
Federal       Financial    Management                2002                       Open
Improvement Act of 1996 (FFMIA) –
CCC was not in substantial compliance
with the following OMB Bulletin No. 07-
04 (formerly OMB Bulletin No. 06-03) and
FFMIA requirements:
Section 1 – Federal financial management
systems requirements with respect to:
   ¾ Information security controls and
     contingency planning capabilities in
     accordance with OMB Circular A-
     130, Management of Federal
     Information Resources.
   ¾ Financial systems controls in
     accordance with OMB Circular A-
     127,     Financial Management
     Systems.

ADA. The USDA’s Office of General                    2007                       Closed
Counsel made the legal determination in
May 2007 an ADA violation had occurred.
The violation was the result of the
improper donation and transportation of
nonfat dry milk during fiscal year 2003.
During fiscal year 2008, CCC reported the
ADA violation to the appropriate parties as
required by OMB Circular A-11.




                                                   3-1
                                                                                                       Exhibit 4
                               U.S. DEPARTMENT OF AGRICULTURE –
                               COMMODITY CREDIT CORPORATION
                                         Status of Prior Year Findings


      Fiscal Year 2007 Finding                     Years Reported by                 Fiscal Year 2008
                                                     KPMG/Type1                           Status

1) Improvement needed in                         2002 – 2007 / Material                   Open
   information security controls                   Weakness (MW)                      (FY 2008 SD1)
                                              2008 / Significant Deficiency
                                                          (SD)


2) Improvement needed in financial                 2002 – 2008 / MW                       Open
   system functionality and funds                                                    (FY 2008 MW1)
   control


3) Improvement needed in                        2005 – 2006 / Reportable                  Open
   management’s review procedures                      Condition                     (FY 2008 MW2)
   over its cash flow models
                                                   2007 – 2008 / MW


4) Improvement needed in producer                   2004 – 2007 / SD                      Open
   monitoring procedures                                                          (FY 2008 Management
                                                                                    Letter Comment)




1
  The term “reportable condition” was used through FY 2006 in accordance with Statement of Auditing Standard No.
60. However, the term “reportable condition” was discontinued during FY 2007 as a result of SAS No. 112 and
replaced with the term “significant deficiency,” which had a revised definition. Those findings that were reported
under both SAS 60 and 112 have been identified as significant deficiencies for the purposes of this report.


                                                       4-1
                                 USDA




U.S. Department of Agriculture
Commodity Credit Corporation




      ANNUAL REPORT
       Fiscal Year 2008
                                                    TABLE OF CONTENTS
MANAGEMENT’S DISCUSSION AND ANALYSIS (UNAUDITED) ............................... 1
  HISTORY OF THE COMMODITY CREDIT CORPORATION .................................................................. 2
  CCC BOARD OF DIRECTORS ................................................................................................................ 4
  CCC PROGRAM AREAS ......................................................................................................................... 5
  FUTURE EFFECTS OF DEMANDS, EVENTS AND CONDITIONS ........................................................ 6
  PERFORMANCE HIGHLIGHTS SUMMARY ........................................................................................... 7
  FINANCIAL HIGHLIGHTS ........................................................................................................................ 8
  PRESIDENT’S MANAGEMENT AGENDA ............................................................................................ 12
  MANAGEMENT CONTROLS, SYSTEMS, AND COMPLIANCE WITH LAWS AND REGULATIONS 13
  FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA)......................................................... 16
  FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)............................................. 21
  ANTIDEFICIENCY ACT (ADA)............................................................................................................... 21
  MANAGEMENT SUMMARY, INITIATIVES, INFORMATION AND ISSUES ......................................... 22
  LIMITATIONS OF FINANCIAL STATEMENTS...................................................................................... 25
PERFORMANCE SECTION (UNAUDITED)................................................................. 26
  PERFORMANCE SECTION ................................................................................................................... 27
  PROGRAM AREA PERFORMANCE DATA .......................................................................................... 28
     Program Area – Income Support and Disaster Assistance.................................................................................. 28
     Program Area – Conservation...................................................................................................................... 31
     Program Area – Commodity Operations and Food Aid ...................................................................................... 33
     Program Area – Market Expansion and Trade Building...................................................................................... 34
     Program Area – Export Credit ...................................................................................................................... 36
CONSOLIDATED FINANCIAL STATEMENTS ............................................................ 38
NOTES TO THE FINANCIAL STATEMENTS .............................................................. 43
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)................................ 95
OTHER ACCOMPANYING INFORMATION (UNAUDITED) ...................................... 100
GLOSSARY OF ACRONYMS .................................................................................... 107
MANAGEMENT’S DISCUSSION AND ANALYSIS (UNAUDITED)




              2008 ANNUAL REPORT
                      -1-
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

Certain information contained in this discussion is considered “forward-looking information” as defined by
the Federal Accounting Standards Advisory Board’s (FASAB) Statement of Federal Financial Accounting
Standards (SFFAS) No. 15, Management’s Discussion and Analysis, and Statement of Federal Financial
Accounting Concepts (SFFAC) No. 3, Management’s Discussion and Risk Analysis Concepts. Such
forward-looking information includes estimates and is subject to risks and uncertainties that could cause
actual results to differ materially from this discussion.


                                      MISSION STATEMENT
       The Commodity Credit Corporation is a Government-owned and operated entity dedicated to:
           •   Stabilizing, supporting, and protecting farm income and prices.
           •   Maintaining balanced and adequate supplies of agricultural commodities and aiding
               in their orderly distribution.
           •   Conservation of soil, air, and water resources and protection and improvement of
               wildlife habitats.
           •   Developing new domestic and foreign markets and marketing facilities for agricultural
               commodities.




               HISTORY OF THE COMMODITY CREDIT CORPORATION
        stablished in 1933, the Commodity Credit Corporation (hereinafter CCC, Agency, or Corporation)
 E      is a government-owned corporation within the U.S. Department of Agriculture (USDA), created to
        stabilize, support, and protect farm income and prices. CCC is also the Federal government’s
primary financing arm for many domestic and international agricultural programs. CCC helps maintain
balanced and adequate supplies of agricultural commodities and aids in their orderly distribution.

CCC helps America’s agricultural producers through commodity and farm storage facility loans,
purchases, and income support payments. CCC also works to make available materials and facilities
required in the production and marketing of agricultural commodities. In addition, CCC provides
incentives and payments to landowners to establish conservation practices on their land.

CCC provides agricultural commodities to other Federal agencies and foreign governments. CCC
also donates commodities to domestic and international relief agencies as well as foreign countries. CCC
assists in the development of new domestic and foreign markets and marketing facilities for American
agricultural commodities. CCC operates numerous domestic programs, such as income support,
disaster, and conservation programs. It also extends direct credit and guarantees commodity sales to
foreign countries throughout the world.

CCC has its own disbursing authority and utilizes the Federal Reserve Bank system and United States
Treasury to make payments. This disbursing authority allows CCC to make payments quickly and provide
financial support to America’s producers and farmers immediately. CCC has multiple funding
mechanisms. Most of the domestic programs are operated out of a revolving fund, which has a $30 billion
borrowing authority from the Treasury. This fund also receives money from appropriated funding for costs
incurred (i.e., realized losses), loan repayments, inventory sales, interest income, and fees. Additionally,
CCC receives direct appropriations for specific programs, such as its Credit Reform programs, foreign
grant and donation programs, and disaster relief.


                                     2008 ANNUAL REPORT
                                             -2-
                                     COMMODITY CREDIT CORPORATION
                                              Management Discussion and Analysis



             STRUCTURE OF THE COMMODITY CREDIT CORPORATION
A Board of Directors manages CCC, subject to the general supervision and direction of the Secretary of
Agriculture, who is an ex officio director and chairperson of the Board. The Board consists of seven
members, in addition to the Secretary. The President of the United States, with the advice and consent of
the Senate, appoints the board members to office. The members of the Board and the Corporation’s
officers are officials of USDA. CCC officers, directly or through officials of designated USDA agencies,
maintain liaison with numerous other governmental and private trade operations. 1

CCC has no actual employees; it carries out the majority of its programs through the personnel and
facilities of the Farm Service Agency (FSA) as well as other USDA agencies. Most of CCC’s programs
are delivered through an extensive nationwide network of FSA field offices, including approximately 2,400
USDA Service Centers and 51 state offices (including Puerto Rico). This network enables CCC to
maintain a close relationship with customers, successfully addressing their needs and continually
improving program delivery.

Though FSA provides the staff for CCC, several CCC funded programs fall under the Foreign Agricultural
Service (FAS) or Natural Resources Conservation Service (NRCS). FAS has the primary responsibility
for USDA’s international activities—market development, trade agreements and negotiations, and the
collection and analysis of statistics and market information. It also administers USDA’s export credit
guarantee and food aid programs, and helps increase income and food availability in developing nations
by mobilizing expertise for agriculturally led economic growth.

NRCS is the primary conservation agent for the USDA. NRCS provides leadership in a partnership effort
to help America's private landowners and managers conserve their soil, water, and other natural
resources. NRCS provides financial assistance for many conservation activities. NRCS reaches out to all
segments of the agricultural community, including underserved and socially disadvantaged farmers and
ranchers to ensure that CCC’s programs and services are accessible to everyone.




1 As required by 5 U.S.C. 552 b (j), by filing this report, CCC is notifying the Congress of the United States that the CCC Board
did not hold any open or closed meetings this fiscal year. Additionally, there was no litigation brought against the Board under
the Government in the Sunshine Act this year. Similarly, there are no changes in policies or statutes requiring notification under
this subsection.
                                                2008 ANNUAL REPORT
                                                              -3-
                            COMMODITY CREDIT CORPORATION
                                   Management Discussion and Analysis



                              CCC BOARD OF DIRECTORS
Chairperson, Edward T. Schafer, Secretary of Agriculture
Vice Chairperson, Charles F. Conner, Deputy Secretary of Agriculture
Member, Mark E. Keenum, Under Secretary, Farm and Foreign Agricultural Services (FFAS)
Member, Thomas C. Dorr, Under Secretary, Rural Development (RD)
Member, Nancy Montanez-Johner, Under Secretary, Food, Nutrition, and Consumer Services (FNCS)
Member, Charles R. Christopherson Jr., Chief Financial Officer and Chief Information Officer, USDA
Member, Bruce I. Knight, Under Secretary, Marketing and Regulatory Programs (MRP)
Member, Mark E. Rey, Under Secretary, Natural Resources and Environment (NRE)

                                        CCC OFFICERS
President, Mark E. Keenum, Under Secretary, FFAS
Executive Vice President, Teresa C. Lasseter, Administrator, Farm Service Agency (FSA)
Vice President, Glen L. Keppy, Associate Administrator, Programs, FSA
Vice President, Thomas B. Hofeller, Associate Administrator, Operations and Management, FSA
Vice President, Lloyd C. Day, Administrator, Agricultural Marketing Service (AMS)
Vice President, Michael W. Yost, Administrator, Foreign Agricultural Service (FAS)
Vice President, W. Kirk Miller, General Sales Manager, FAS
Vice President, Roberto Salazar, Administrator, Food and Nutrition Service (FNS)
Vice President, Arlen Lancaster, Chief, Natural Resources Conservation Service (NRCS)
Deputy Vice President, Larry J. Adams, Deputy Administrator, Commodity Operations, FSA
Deputy Vice President, David Lavway, Acting, Deputy Administrator, Management, FSA
Deputy Vice President, John A. Johnson, Deputy Administrator, Farm Programs, FSA
Deputy Vice President, Steven A. Connelly, Deputy Administrator, Field Operations, FSA
Deputy Vice President, Joy Harwood, Director, Economic & Policy Analysis Staff, FSA
Deputy Vice President, Dana D. York, Associate Chief, NRCS
Deputy Vice President, Thomas W. Christensen, Deputy Chief, Programs, NRCS
Deputy Vice President, Katherine C. Gugulis, Deputy Chief, Management, NRCS
Secretary, Steven N. Mikkelsen, Acting Executive Assistant to the Administrator, FSA
Deputy Secretary, Vacant, Farm Service Agency (FSA)
Assistant Secretary, Monique B. Randolph, Staff Assistant, FSA
Controller, Dennis Taitano, Director, Office of Budget and Finance, FSA
Treasurer, Owen Jones, Acting, Director, Financial Management Division, FSA
Chief Accountant, Agnes Leung, Acting, Center Director, Policy, Accounting, Reporting, and Loan
Center, Financial Management Division, FSA

                                           ADVISORS
General Counsel, Marc L. Kesselman, Office of the General Counsel
Associate General Counsel, Ralph Linden, International Affairs, Commodity Programs and Food
Assistance Programs




                                   2008 ANNUAL REPORT
                                           -4-
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



                                     CCC PROGRAM AREAS
CCC funds many programs that fall under multiple agencies within the USDA. Each CCC funded
program helps achieve parts of both the CCC mission and the strategic plan of the agency under which
the program falls. CCC’s mission and agency strategic goals are achieved through the successful
implementation of the following key programs:

Income Support and Disaster Assistance – Income support and disaster assistance programs provide
financial assistance to protect farmers and ranchers from fluctuations in market conditions and
unexpected natural or man-made disasters. Assistance is provided through Income Support programs
and the Noninsured Crop Disaster Assistance Program (NAP). Assistance is also provided through ad
hoc disaster programs that vary from year-to-year. FSA is responsible for administering Income Support
and Disaster Assistance programs. FSA is redesigning the way it interfaces with farmers and producers
in its traditional “safety net” programs by expanding on-line options while maintaining more traditional
approaches. This has been a monumental challenge for the Agency. The performance discussion will
cover the progress of the on-line initiatives.

Conservation – Strengthened by the 2008 Farm Bill, conservation programs offer farmers and ranchers
a variety of financial and economic incentives to conserve natural resources on the Nation’s privately
owned farmlands. Programs focus on reducing erosion, protecting streams and rivers, restoring and
establishing fish and wildlife habitats, and improving air quality through several conservation incentive
payments, technical assistance, and cost-share programs.

Commodity Operations and Food Aid – Commodity Operations handle the procurement, acquisition,
storage, disposition, and distribution of commodities, and the administration of the U.S. Warehouse Act
(USWA). These programs help achieve domestic farm program price support objectives, produce a
uniform regulatory system for storing agricultural products, and ensure the timely provision of food
products for domestic and international food assistance programs and market development programs.

Market Expansion and Trade Building – Expanding markets for agricultural products is critical to the
long-term health and prosperity of the U.S. agricultural sector and, with 96 percent of the world’s
population living outside the United States, future growth in demand for food and agricultural products will
occur primarily in overseas markets. FAS international activities play a critical role in helping to open new
markets and in facilitating U.S. competitiveness and, by doing so, help to secure a more prosperous
future for American agriculture. Support for economic development and trade capacity building reinforces
these efforts by helping developing countries to become economically stable and improve their prospects
to participate in and benefit from expanding global trade in agricultural products.

Export Credit – CCC export credit guarantee and direct loan programs, administered by FAS in
conjunction with FSA, provide both payment guarantees for third party commercial financing of U.S.
agricultural exports as well as direct financing by CCC of the same. These programs facilitate exports to
buyers in countries where credit is necessary to maintain or increase U.S. sales, but where financing may
not be available without CCC credit facilities.




                                     2008 ANNUAL REPORT
                                             -5-
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



         FUTURE EFFECTS OF DEMANDS, EVENTS AND CONDITIONS
2008 Farm Bill Passage: The “Food, Conservation, and Energy Act of 2008” (2008 Farm Bill) has a
variety of new and revised provisions to CCC funded programs that will place significant strain on the
FSA to implement. The new farm bill contains over 600 sections/provisions, which is more than a 50
percent increase when compared to the 2002 Farm Bill. The major changes include: the Average Crop
Revenue Election program, Supplemental Agricultural Disaster Assistance Programs for crop production
and/or crop quality losses, livestock forage losses, livestock death losses; assistance to orchardists and
nursery tree growers; and emergency assistance to producers of livestock, honey bees, and farm raised
fish that are not properly covered under any other program; Planting Transferability Pilot Project for fruit
and vegetables grown for processing on base acres in the upper Midwest; direct attribution for payment
limitations; new adjusted gross income limitation provisions; the Biomass Crop Assistance Program;
Feedstock Flexibility Program for Bio-energy Producers; compensation for dairy producers when
domestic milk prices fall below a specified level and payment rate adjustment for feed prices; greater
access and portability of Geospatial Information System data; state specific requirements and extension
of the Pigford settlement to late filers. These programs will require a very substantial amount of
information technology software development as well as additional employees at both headquarters and
field offices. The 2008 Farm Bill authorized $50 million for implementation expenses. The actual costs to
implement the 2002 Farm Bill were approximately $157 million. The effect of the projected funding
shortfall may affect the timing of overall delivery.

Administrative Resource Constraints and Challenges: Although most CCC program outlays are
mandatory, the salaries and administrative expenses (S&E) for the Agencies responsible for
administering CCC programs are subject to a continuously constrained discretionary spending
environment. The Agencies are under significant pressure to modernize the service delivery environment
in order to provide more flexibility in responding to fluctuations in program demand. In addition, there is a
risk of knowledge loss as experienced employees retire. USDA agencies are addressing this issue
through a series of information technology modernization initiatives coupled with human capital planning.

Economic Fluctuation and Volatility: Global and domestic economic volatility is causing corresponding
volatility to the CCC program portfolio. Increased production by foreign producers can lower commodity
prices and affect the ability of farmers and ranchers to compete in the global marketplace. Policy
changes in foreign countries may create trade barriers that will affect the ability of American producers to
market and sell their products in overseas markets. The strength of the U.S. dollar relative to other
currencies can also affect the competitiveness of American products in foreign countries. Recent high
fuel prices affect farmers and ranchers by increasing the prices of inputs required to produce
commodities. Increasing energy concerns are projected to have a significant effect on farm economics.
These concerns may stall conservation decision making. Further, as commodity prices increase,
landowners are less willing to retire cropland for conservation practices.

Natural Disasters and Weather Conditions: Extreme climate and weather events often cause
extensive flooding and sustained droughts that profoundly affect our society in general and agriculture in
particular. Agriculture is vulnerable to variations and fluctuations in weather and climate because existing
agricultural practices were developed for average weather and climate conditions. The Farm Service
Agency provides assistance for natural disaster losses resulting from drought, flood, fire, freeze,
tornadoes, pest infestation, and other calamities. On May 25, 2007, President Bush signed into law the
"U.S. Troop Readiness, Veterans' Care, Katrina Recovery, and Iraq Accountability Appropriations Act,
2007" (2007 Act). The 2007 Act provides approximately $3 billion in agricultural disaster aid for America's
farmers and ranchers. The aid will cover crop losses, livestock and feed losses, emergency conservation
practices and dairy losses. The 2007 Act also extends the Emergency Forestry Conservation Reserve
Program and the Milk Income Loss Contract program. Producers are eligible for this new disaster aid if
their county was declared a disaster area by the President or Secretary of Agriculture for disasters
occurring between January 1, 2005 and December 31, 2007.

                                     2008 ANNUAL REPORT
                                             -6-
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



                        PERFORMANCE HIGHLIGHTS SUMMARY

The CCC met the performance target to maintain or increase the percentage of program benefits
delivered through a web environment. Of the nine farm programs designated to be web-enabled, benefits
for three programs are currently available to producers through a web environment. CCC met the
performance target by maintaining the percentage at 33% for web-enabled programs available to
producers.
The Noninsured Crop Disaster Assistance Program (NAP) provides financial assistance to producers of
crops for which there is no available crop insurance when low yields, loss of inventory, or prevented
planting occur because of a natural disaster. With an estimated FY 2008 percentage of 7.2%, FSA/CCC
has not met its FY 2008 target for increasing the percentage of eligible crops with NAP coverage for
several reasons. Program results are based on noninsurable crops that have been affected by natural
disasters and weather conditions occurring in FY 2007. The measure represents payments made in FY
2008 for disasters that occurred in FY 2007. FY 2007 was a year when fewer crops were affected by
disaster declarations, resulting in a decrease in NAP payments. Program outcomes depend on the extent
and severity of natural disasters, and therefore are difficult to measure or predict from year to year.
Although NAP payments declined for the year, the actual number of crops enrolled in NAP increased from
154,282 crops in FY 2007 to 155,400 crops in FY 2008, an increase of 1,118 crops.
The FSA/CCC performance measure “Reduce the average number of days between warehouse
examinations,” achieved its goal to reduce the average time between warehouse examinations. The FY
2008 target was 390 days between warehouse examinations. In FY 2008, examinations were performed
more frequently, an average of 387 days. The warehouse examination program performs examinations
of licensed and contracted warehouse facilities that store or handle commodities for CCC. The more
frequently warehouses are examined for compliance with CCC storage agreements and United States
Warehouse Act licensing agreements by FSA warehouse examiners, the sooner any potential pest
infestation or quality deterioration of commodities in store will be discovered. Factors affecting the time
between examinations of these warehouses include the number of warehouses participating in storage
programs for the account of CCC, the amount or value of commodity in store with CCC interest, the
length of time the commodities have been in store, whether the commodities have been forfeited or are
simply under loan, staff losses during FY 2008, and funding for the examination program.

CRP exceeded its performance target of 1.92 million acres for the measure “Increase Conservation
Reserve Program (CRP) acres of riparian and grass buffers (million acres)” by more than 100,000 acres.
For FY 2008, producers have set aside approximately 2.02 million acres as CRP buffer areas. The
Conservation Reserve Program (CRP) is the nation’s largest private-lands conservation financial
assistance program, with over 34.7 million acres enrolled. The USDA Strategic Plan for FY 2005-2010
set a strategy of helping producers increase the number of riparian and grass buffers on agricultural
lands. As one indicator of its performance in achieving this strategy, FSA monitors acreage of agricultural
lands to be enrolled as buffer zones in CRP. These buffers intercept sediment and nutrients before they
reach surface waters.

CRP exceeded its performance target of 1.90 million acres for the measure “Increase wetlands acres
restored” by 90,000 acres. These restored wetlands are the result of several initiatives, including the
500,000-acre Bottomland Hardwood Timber Initiative and the 250,000-acre non-floodplain Wetland
Restoration Initiative. These wetlands and buffers have increased prime wildlife habitat and water
storage capacity, and have led to a net increase in wetland acres on agriculture land. The CRP continues
to be acknowledged for its environmental benefits generated by long-term conservation contracts
protecting air, soil, water, and wildlife resources.




                                     2008 ANNUAL REPORT
                                             -7-
                                  COMMODITY CREDIT CORPORATION
                                          Management Discussion and Analysis



                                        FINANCIAL HIGHLIGHTS
As part of its mission to stabilize, support, and protect farm income and prices, CCC is also responsible
for providing accurate, timely, and useful financial management information to all Agency stakeholders.
These statements have been prepared from the accounting records of the Agency as of September 30,
2008 and September 30, 2007 in accordance with generally accepted accounting principles for Federal
entities and policies prescribed in the Office of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements.

Assets: The Balance Sheet shows the Agency had total assets of $14.5 billion as of September 30,
2008, an increase of $1.9 billion (15 percent) over the previous year’s total assets of $12.6 billion. The
$2.8 billion increase in Fund Balance with Treasury is primarily due to an increase in the collection of loan
repayments in FY 2008, as a result of higher commodity market prices.

The increase in Cash and Other Monetary Assets is due to $92 million in undeposited collections of
Cotton Loan Principal receipts, of which $26 million is in transit.

Assets
(Dollars in Millions)                                            2008            2007     Variance    Variance %
Fund Balance with Treasury                               $      3,035 $           216 $     2,819          1305%
Cash and Other Monetary Assets                                     92               -           92          100%
Accounts Receivable, Loans and Credit Receivables, Net         11,147          12,096         (949)          -8%
Commodity Inventories, Net                                         15             185         (170)         -92%
General Property and Equipment, Net                                51              55           (4)          -7%
Other                                                             189              95           94           99%
Total Assets                                             $     14,529 $        12,647 $     1,882            15%




                                         2008 ANNUAL REPORT
                                                 -8-
                                    COMMODITY CREDIT CORPORATION
                                         Management Discussion and Analysis

Liabilities: The Balance Sheet shows the Agency had total liabilities of $23.3 billion as of
September 30, 2008. This represents an increase of $73 million over the previous year’s total liabilities
of $23.2 billion. The decrease in Debt to the Treasury is primarily due to the repayment of interest
bearing Treasury notes. Total borrowings and repayments on borrowings from Treasury decreased in
FY 2008 as a result of these payments.

Other Liabilities decreased from the prior year primarily as a result of the reduction in the calculation of
the present value of Tobacco Transition Payment Program (TTPP) payments from 8 years to 7 years.

Liabilities
(Dollars in Millions)                                              2008         2007     Variance    Variance %
Accounts Payable                                           $        287 $        395 $       (108)         -27%
Debt to the Treasury                                              5,877        6,516         (639)         -10%
Credit Guarantee Liabilities                                        161          184          (23)         -13%
Environmental and Disposal Liabilities                                8            8            -            0%
Other                                                            16,950       16,107          843            5%
Total Liabilities                                          $     23,283 $     23,210 $         73            0%




Ending Net Position: As of September 30, 2008 and September 30, 2007, the Agency’s net position
was $8.8 billion and $10.6 billion, respectively. Net Position is the sum of the Unexpended
Appropriations, Cumulative Results of Operations, and Capital Stock.

Results of Operations: CCC categorizes the net cost of operations based on the Agency’s strategic
goals. Net cost of operations was $11.0 billion and $11.7 billion for the fiscal years ended
September 30, 2008 and September 30, 2007, respectively. Overall Total Net Cost of Operations
decreased by 6 percent from the prior year. As shown in the table below, Supporting Productive Farms
and Ranches expenses underlie a majority of the costs for the fiscal years ended September 30, 2008
and September 30, 2007. The activity that caused the fluctuation in the Statement of Net Cost for the
fiscal year ended September 30, 2008 relates to the following strategic goals:

             Supporting Productive Farms and Ranches – For the fiscal year ended September 30,
              2008 there was a decrease in the Price Support Commodity Certificate Program due to
              higher market prices for commodities, primarily for upland cotton.

                                         2008 ANNUAL REPORT
                                                 -9-
                                   COMMODITY CREDIT CORPORATION
                                            Management Discussion and Analysis


             Supporting Secure and Affordable Food and Fiber – The increase in Net Cost for the
              fiscal year ended September 30, 2008 is due to the sale of Bill Emerson Humanitarian Trust
              (BEHT) commodities.

             Conserving Natural Resources and Enhancing the Environment – The decrease in Net
              Cost is due to a reduction in permanent easement and conservation reserve annual payment.

             Supporting International Economic Development and Trade Capacity Building – The
              increase in Net Cost is a result of P. L. 480 Title II Export program, which purchased
              additional commodities in FY 2008 to meet emergency needs in foreign countries; and, the
              General Sales Manager program, which recorded additional costs for reestimate allowances.

Summary of Net Cost of Operations by Strategic Goals
(Dollars in Millions)                                                             2008       2007 Variance Variance %
Supporting Productive Farms and Ranches                                     $    7,211 $    8,512 $ (1,301)      -15%
Supporting Secure and Affordable Food and Fiber                                    (29)      (132)     103       -78%
Conserving Natural Resources and Enhancing the Environment                       2,123      2,157      (34)       -2%
Supporting International Economic Development and Trade Capacity Building        1,651      1,160      491        42%
Total Net Cost of Operations                                                $   10,956 $   11,697 $   (741)       -6%




                                           2008 ANNUAL REPORT
                                                   - 10 -
                                   COMMODITY CREDIT CORPORATION
                                        Management Discussion and Analysis


Obligations and Outlays: Between FY 2008 and FY 2007, Obligations Incurred decreased by $4.3
billion. For Direct Obligations, the difference was due to a decrease in financing requests for the General
Sales Manager program and a reduction in Direct Loan activity. For Reimbursable Obligations, the higher
market price of commodities led to a decreased activity in Loan Deficiency Payments.

Summary of Obligations
(Dollars in Millions)                                     2008                2007         Variance Variance %
Obligations incurred:
Direct                                            $     3,738 $               3,801 $          (63)          -2%
Reimbursable                                           23,094                27,352         (4,258)         -16%
Total Obligations                                 $    26,832 $              31,153 $       (4,321)         -14%

Between FY 2008 and FY 2007, Net Outlays decreased by $3.1 billion. Because the market price of
commodities was above the price support level, Loan Deficiency Payments and Direct and Counter-
Cyclical Payments decreased.

Summary of Net Outlays
(Dollars in Millions)                                       2008             2007       Variance      Variance %
Net Outlays:
Gross outlays                                      $      25,563 $       31,606 $        (6,043)           -19%
Offsetting collections                                   (16,022)       (18,827)          2,805            -15%
Less: Distributed Offsetting receipts                       (353)          (464)            111            -24%
Net Outlays                                        $       9,188 $       12,315 $        (3,127)           -25%




                                        2008 ANNUAL REPORT
                                                - 11 -
                                   COMMODITY CREDIT CORPORATION
                                            Management Discussion and Analysis



                             PRESIDENT’S MANAGEMENT AGENDA
In FY 2002, the President laid out a plan to improve management and performance within the Federal
government. This plan, the President’s Management Agenda, identified several key areas where
improvement was urgently needed. In order to implement the plan, the President asked Cabinet
Secretaries to designate a chief operating officer to manage the daily activities of departments and
agencies. The President also re-established the President’s Management Council to support
government-wide priorities and centralized management leadership. The table below is updated on a
quarterly basis. The progress towards “green” in the table is updated prior to the completion of the CCC’s
independent audit. As a result, the table may not correspond to the actual audit results as shown in the
FMFIA section of CCC’s annual report.

The Stoplight Scoring System is located at the following internet web address:

               www.whitehouse.gov/results/agenda/scorecard.html

The scorecard employs a simple grading system common today in well-run businesses:

               Green for success
               Yellow for mixed results
               Red for unsatisfactory

Scorecard
                                                                                          Previous
Initiatives                                                   Self-Score    Final Score               Status*
                                                                                          Final Score
Competitive Sourcing                                          In Progress                             Approved
Strategic Management of Human Capital                                                                 Approved
Financial Management                                          In Progress                             Self Score
E-Government                                                                                          Approved
Budget and Performance Integration                            In Progress                             Approved
Real Property                                                                                         Approved
Improper Payments                                                                                     Under Review
Faith-Based Initiative                                        N/A           N/A           N/A         N/A
Research and Development                                      N/A           N/A           N/A         N/A
Credit Programs                                               In Progress                             Approved

* Status reviewed by Office of Budget and Program Analysis.

The President’s Management Agenda also includes a measure for Health Information Quality and
Transparency; however, the Department of Agriculture is not required to provide a scorecard on this
initiative.




                                           2008 ANNUAL REPORT
                                                   - 12 -
                        COMMODITY CREDIT CORPORATION
                              Management Discussion and Analysis


 MANAGEMENT CONTROLS, SYSTEMS, AND COMPLIANCE WITH LAWS
                   AND REGULATIONS
FMFIA and FFMIA Assurance Statement




                             2008 ANNUAL REPORT
                                     - 13 -
COMMODITY CREDIT CORPORATION
    Management Discussion and Analysis




    2008 ANNUAL REPORT
            - 14 -
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis




Note: The Assurance Certification is due to the Department by August 30, 2008, which is almost three
months before the final audit report is provided to CCC on November 7, 2008. Therefore, CCC must
predict the outcome and results of material weaknesses it will expect to be reported. CCC believed that
the credit reform material weakness would be downgraded to a significant deficiency; however, upon the
auditor’s review, they continued to find internal control weaknesses in the model validation and
verification process. The auditors specifically identified certain errors in the Public Law 480 and the
Farm Storage Facility Loan models related to data input and model logic. The errors were identified
through the audit process and as a result the models were revised multiple times. All significant errors in
the models were corrected at yearend; however, the auditors concluded that the models deficiencies
continue to support a repeat material weakness in the credit reform area.

In addition, CCC is reporting a new material weakness in Management’s analysis of obligations and
liabilities for the Direct and Countercyclical Payment Programs. In recent years, CCC has significantly
improved its accounting policies and procedures related to the producer payment programs. In fiscal year
2008, CCC further updated its overall policies and procedures related to producer payment program
obligations and accruals by major program category and program level. CCC also improved the level of
analysis performed at the program level for many active programs. However, the auditors identified
certain significant errors at September 30, 2008.

As a result of both of these reported material weaknesses, the Assurance Certification displayed above is
not congruent with CCC’s FY 2008 Financial Statement Audit Report. The Certification will be revised
and resubmitted to the Department in January 2009.




                                     2008 ANNUAL REPORT
                                             - 15 -
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



            FEDERAL MANAGERS’ FINANCIAL INTEGRITY ACT (FMFIA)

Overview
The Federal Managers’ Financial Integrity Act of 1982 (FMFIA) requires Federal agencies to submit an
annual report to the President and Congress reflecting the status of management controls for program,
financial, and administrative operations. The Commodity Credit Corporation’s (CCC) FMFIA Annual
Report contains CCC’s material weaknesses, significant deficiencies, and related corrective action plans
including material deficiencies identified through the Office of Management and Budget (OMB) Circular A-
123, Management’s Responsibility for Internal Control, Appendix A, implementation and assessment
process conducted during Fiscal Year (FY) 2008. The CCC Controller provides an annual statement of
assurance to the Department of Agriculture’s (USDA) Office of the Chief Financial Officer certifying that
CCC is compliant with FMFIA and is fulfilling requirements to perform ongoing evaluations of internal
control. The assurance statement also includes a certification from the Controller that:

            Obligations and costs comply with applicable laws and regulations;
            Federal assets are safeguarded against fraud, waste, and mismanagement;
            Transactions are accounted for and properly recorded; and
            Financial management systems conform to standards, principles, and other requirements to
             ensure that Federal managers have timely, relevant, and consistent financial information for
             decision-making purposes.

Fiscal Year 2008 Results
In compliance with the requirements of FMFIA, CCC evaluated, assessed, and tested its management
controls for program, financial, and administrative operations through the OMB Circular A-123, Appendix
A, assessment for FY 2008.

In FY 2007, management’s assessment of internal controls over financial reporting as of September 30,
2007, identified three material weaknesses: Information Technology (IT) Security and Contingency
Planning, and Financial Reporting – Credit Reform reported under FMFIA Section 2, Material
Weaknesses in Internal Controls. Funds Control Management is reported in Section 4, Material Non-
conformances in Financial Systems.

During FY 2008, CCC took corrective actions to address prior years’ IT security and contingency planning
to improve controls and processes supporting its financial systems. Based on the completion of the
financial statement audit and A-123 assessment in FY 2008, there was one new material weakness and
one new significant deficiency identified through the audit – Management’s Analysis of Obligations and
Liabilities for the Direct and Countercyclical (DCP) Programs and Monitoring of Child Agency Financial
Information, respectively. With the implementation of internal controls through corrective action plans one
of those material weaknesses were downgraded to a significant deficiency: IT Security and Contingency
Planning. Additional corrective actions are proceeding on course for the two repeat material weaknesses:
Credit Reform and Funds Control Management. A corrective action plan will be revised to address the
deficiencies noted in the models’ functionality. The Funds Control Management will be mitigated through
the Financial Management Modernization Initiative (FMMI) which continues to be on track and fully
implemented by FY 2012.




                                     2008 ANNUAL REPORT
                                             - 16 -
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



Summary of FMFIA Material Weaknesses
Material Weaknesses Reassessed in FY 2008
Improvement Needed in Information Security Controls
This was a repeat condition under which CCC was collaborating with the Office of the Chief Information
Officer to identify and implement additional improvements needed to enhance USDA’s general control
environment. Weaknesses were identified in information security program management, technical
security access controls, software change/configuration management, contingency planning, and end-
user computing.

Critical Corrective Action Milestones included the following:

Information security program management
         Identified and implemented controls to better track security training efforts and outstanding
            risk mitigation plan milestones;
         Formalized and better controlled the process by which employees who no longer need
            access to systems and applications have their access rights suspended/removed;
         Required periodic management review of AS/400 county office system users’ access;
         Updated application risk assessment documentation, and then ensured that the
            documentation is updated at least every three years (or when major system or application
            changes are made), to support CCC’s overall security program; and
         Verified that risk mitigation plans incorporated all the risks identified in the risk assessments.
Technical security access controls
        Performed more consistent vulnerability scans on all workstations, servers, routers, switches,
            and printers;
        Ensured that remediation controls were timely implemented as security vulnerabilities were
            identified;
        Implemented additional controls to review access to production libraries, including periodic
            review of accounts by FSA/CCC security administrators, and the implementation of a
            software configuration management tool for the various FSA/CCC application platforms;
        Required domain and VPN passwords to comply with policy of three invalid attempts prior to
            locking the account (or obtained a waiver to this policy);
        Developed a process to verify that systems identified with a high risk vulnerability do not
            show up on subsequent monthly vulnerability scan reports; and
        Established and enforced a policy that requires physical access authorizations to be
            completed in their entirety.

Software change/configuration management
        Updated 14-ADM or an equivalent policy guide to reflect the current IT processing
           environment and CCC’s software change management processes and controls, and
        Provided training to applicable staff regarding the CCC software change management
           process.

Contingency planning
        Updated all application contingency plans with testing results, and ensured that the plans
           continued to be updated based on future testing efforts and any relevant IT environment
           changes or business process change.




                                     2008 ANNUAL REPORT
                                             - 17 -
                               COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

End user computing
        Encrypted all workstations and computing devices that utilized spreadsheets and localized
           access databases for processing of financial data.


Material Weaknesses Remaining in FY 2008
Material Weakness 1: Improvement Needed in Financial System Functionality and Funds Control

The e-Funds Control system monitors daily program disbursements made at the State and county offices
in summary level, but does not provide the necessary management information to determine the true
status of net available program resources as disbursements are made. CCC does not fully address the
risks arising from a lack of an integrated obligation and disbursement system related to funds control.

Critical Corrective Action Milestones include the following:

           Develop a fully integrated funds control system within a financial management system
            capable of interfacing with CCC CORE at the transaction level that provides management
            with timely information to periodically monitor and control the status of budgetary resources
            recorded in the general ledger.
           Continue with plans to implement additional financial systems and related process
            improvements, most notably in the areas of budgetary and funds control and financial
            accounting and reporting processes.

In FY 2008, CCC continued to address the need for a fully integrated funds control system within the
financial management system that is capable of interfacing with CCC CORE at the transaction level that
will provide management with timely information to periodically monitor and control the status of
budgetary resources recorded in the general ledger. FY 2008 accomplishments included:

           Developed the to-be process design; and
           Developed the business case for the Modernize and Innovate the Delivery of Agricultural
            Systems (MIDAS);
           Documented CCC obligation business events and developed solutions for providing pre-
            authorization of funds;
           Prepared system requirements documentation to allow current FSA financial applications to
            accept obligation transactions; and
           Developed functionality to capture obligations within current FSA financial systems.

In addition, during FY 2008, CCC continued to enhance its manual processes to work around the system
functionality issues to monitor funds control. These steps included enhancing the documentation of
management’s analysis of CCC’s programs by funding type and obligation category, and designating
dedicated staff to monitor obligations for specific programs. There are “Funds Control Status Reports”
that contain general ledger balances for budgetary resources, disbursements, accruals, obligations, and
the authority remaining for each program. These reports are provided to program managers for them to
analyze and certify to the accuracy of those balances. Intensified communication and training from CCC
finance personnel provided to program managers resulted in fewer adjustments during the year and
yearend. However, these enhancements are considered “detective” controls instead of “preventive”
controls and cannot be fully relied on as a funds control mechanism, although these controls help mitigate
the risk of financial misstatement.

In FY 2009 through 2012, CCC will:

           Develop functionality to do funds control at the time of obligation request from program
            applications;
                                     2008 ANNUAL REPORT
                                             - 18 -
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis

           Complete Software modifications to program applications to send obligation transactions.
            (Farm Programs, Farm Loan Programs, Foreign Programs and Commodity Programs)
           Select and implement software package.

Expected Completion Date: FY 2012

Material Weakness 2: Improvement Needed in Management’s Review Procedures Over the Cash
Flow Models for Direct Credit and Credit Guarantee Programs

In FY 2008, Budget management procured a contractor to provide quality in-house training to enhance
the expertise of personnel who perform credit reform re-estimates. As a result, there were no significant
issues or deficiencies in the re-estimate process.

Other actions taken in 2008 included Budget management creating a specific policy for reviewing and
implementing changes that was approved by the Department to ensure that further enhancements to the
cash flow models are adequately reviewed and approved. The objective of the policy was to ensure the
accuracy and reliability of the model calculations. However, during the auditors’ review of the credit reform
models in FY 2008, they noted that internal control weaknesses in the model validation and verification
process continued to exist at CCC. Specifically, they identified certain errors in the Public Law (PL) 480
and the Farm Storage Facility Loan (FSFL) models related to data input and/or model logic. The errors
were identified through the audit process and as a result the models were revised multiple times. All
significant errors in the models were corrected at yearend, however the auditors concluded that the
models deficiencies continue to support a repeat material weakness in the credit reform area. CCC
anticipates developing new PL480 and FSFL models in FY 2009.

In FY 2009, CCC will:

       Establish a team to review all model changes to include members of both the budget and the
        accounting disciplines; OIG will be invited to all Change Control Board meetings to monitor CCC's
        efforts;
       Establish a timeline for all model changes that will allow adequate time for test and review prior to
        delivery to the auditors;
       All model changes/development results will be tested to ensure that model outputs properly
        capture all elements of the cashflow, not just those affected by the change(s)in addition to being
        tested through the Office of Management and Budget’s subsidy calculator (CSC2) to ensure that
        those results do not produce unintended consequences; and
       CCC will procure an independent contractor for an Independent Verification and Validation (IV&V)
        review and oversight for any newly developed models.

Material Weakness 3: Improvements Needed in Management’s Analysis of Obligations and
Liabilities for the Direct (DP) and Countercyclical Payment Programs (CCP)

CCC has significantly improved its accounting policies and procedures related to the producer payment
programs. In fiscal year (FY) 2008, CCC further updated its overall policies and procedures related to
producer payment program obligations and accruals by major program category and program level. In
addition CCC improved the level of analysis performed at the program level for many active programs.
The auditors’ review of documentation used by CCC to record producer payment program accruals and to
liquidate related undelivered orders generally indicated that supervisory review and approval was
performed; however, the auditors identified certain significant errors at September 30, 2008 – fiscal
yearend (FYE):

    •   The yearend CCP accrual was not adjusted for the most recent estimate information, which
        indicated the future CCP payments were fully accrued and CCC overstated the program accrual.


                                     2008 ANNUAL REPORT
                                             - 19 -
                             COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis

   •   CCC had fully accrued for the CCP payments expected to be made in FY 2009 related to the
       2007 program year during 2008. Based on the most recent market data at FYE 2008, the
       economist did not expect any additional disbursements to occur for this program but the related
       undelivered orders balance was not adjusted accordingly to FYE close.
   •   CCC recorded an upward adjustment to its undelivered orders for the 2007 DP program based on
       prior estimates provided by the economist. CCC performed a lag analysis to observe the
       disbursement trend; however, this analysis was not used to evaluate the reasonableness of the
       recorded amount.

In FY 2009, CCC will:

CCC will revise accounting policies and procedures for the CCP and DP programs to specifically:

   •   Describe the appropriate entries and calculations for obligations and accruals;
   •   Document procedures to perform a reasonableness analysis for current and prior program years
       prior to close; and
   •   Document actions to be taken based on subsequent information that would materially affect the
       program information as recorded at yearend.




                                   2008 ANNUAL REPORT
                                           - 20 -
                               COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis



     FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA)
The Federal Financial Management Improvement Act (FFMIA) is designed to improve financial and
program managers’ accountability, provide better information for decision-making and improve the
efficiency and effectiveness of Federal programs. FFMIA requires that financial management systems
provide reliable, consistent disclosure of financial data in accordance with generally accepted accounting
principles and standards. These systems must also comply substantially with the following 4 sections: (1)
Federal financial management system requirements; (2) applicable Federal accounting standards; (3)
the Standard General Ledger at the transaction level; and (4) Information security policies, procedures,
and practices meet the reporting requirements of the Federal Information Security Management Act
(FISMA).

During FY 2008, CCC evaluated its financial management systems to assess substantial compliance with
the Act. CCC has demonstrated substantial compliance with Sections 2, 3, and 4. CCC is not
substantially compliant with Section 1 - Federal financial management system requirements, which are
reported above in the FMFIA section of this report. As part of the financial systems strategy, CCC
continues to progress in it corrective actions to meet FFMIA objectives.

                                 ANTIDEFICIENCY ACT (ADA)
A violation of the Antideficiency Act occurred in FY 2003 concerning the improper donation and
transportation of 24.7 million pounds of non-fat dry milk to a feed mill in Mississippi. The violation did not
come to the attention of the FSA Administrator until April 2005. The Administrator immediately requested
an audit by the Department of Agriculture’s Office of Inspector General which was completed in
September 2006. A full legal analysis of the extent of the ADA violation was subsequently requested and
received back from the Office of General Counsel (OGC) in May 2007. Based on OGC’s legal opinion
that an ADA violation occurred, a receivable was recognized in FY 2007 for the amount of $8.2 million.
During fiscal year 2008 CCC reported the ADA violation to the appropriate parties as required by OMB
Circular A-11.




                                      2008 ANNUAL REPORT
                                              - 21 -
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


    MANAGEMENT SUMMARY, INITIATIVES, INFORMATION AND ISSUES
INITIATIVE: BUDGET AND PERFORMANCE MANAGEMENT SYSTEM (BPMS)

The Budget and Performance Management System (BPMS) is a management initiative led by the FSA in
collaboration with the FAS, FSIS, RD, and ITS. A primary objective of BPMS is to integrate and improve
management processes and information systems to enable the Agencies to better respond to
administrative resource challenges and constraints (noted in Future Effects of Current Demands, Events,
and Conditions). BPMS encompasses the management processes and information systems for CCC
planning, budget formulation, budget execution, managerial cost accounting, and elements of financial
statement preparation. BPMS has already delivered a modernized budgeting platform and has defined a
more integrated framework for reporting CCC performance results. Future activities include the
implementation of a CCC managerial cost accounting model that will provide full program costs and other
cost management reports and analyses. Each FSA program area, including non-CCC program areas,
are in the process of defining direct unit cost and indirect cost metrics using a standard methodology,
activity dictionary, and formulas. Implementation of the CCC managerial cost accounting capability will be
enabled by a new labor data collection system, improvements to workload data collection, and a
commercial off-the-shelf (COTS) budgeting and cost accounting tool. The BPMS is the featured initiative
on the USDA Financial Data Integration Improvement Plan (FDIIP) for the Farm and Foreign Agricultural
Service (FFAS) business area. The FDIIP is the plan to get the USDA to green for Financial
Management. Progress is reported on a quarterly basis to USDA through the FDIIP. Implementation is
underway and is expected to be completed by the end of FY 2010.

INITIATIVE: MODERNIZE AND INNOVATE THE DELIVERY OF AGRICULTURAL SYSTEMS (MIDAS)

MIDAS will transform Farm Service Agency's delivery of farm program benefits, on behalf of the
Commodity Credit Corporation, into a 21st century business model by: deploying a robust customer-
facing internet-based self service channel and providing the capability to meet the increasing demand for
customer self-service and eliminating FSA's reliance on aging technology. MIDAS will reduce the risk of
hardware failure by replacing the outdated AS400/S36 computing platform. The project will also
reengineer business processes to be common and centralize data assets to support all farm programs by
eliminating program specific duplication of functionality and non-integrated, distributed data that exists
between farm program applications. It will also accomplish increased compliance with modern internal
control structures and effectively implement improved IT security and install commitment-based
accounting practices (e.g., obligations, commitments, outlays, funds control) to upgrade both the program
and financial management business practices of the CCC. When finished, CCC will become compliant
with federal financial accounting standards (FISMA/A-123/FMFIA). The project intends to align with
Office of the Chief Financial Officer's Financial Management Modernization Initiative investment.

INITIATIVE: HOMELAND SECURITY INITIATIVES

Homeland Security is a significant, ongoing priority for FSA/CCC. Since 2005, FSA/CCC has been
conducting risk assessments for the various sectors with which it is involved. FSA has collaborated with
the Department of Homeland Security, the Food and Drug Administration, and the Federal Bureau of
Investigation, as well as private industry and State governments in the Strategic Partnership Program
Agroterrorism (SPPA) Initiative for the various sectors affected by FSA operations. The SPPA Initiative is
designed to identify sector-specific vulnerabilities through critical infrastructure/key resource assessments
and to develop sector-specific mitigation strategies to reduce the threat of attack. To date, SPPA
Initiative risk assessments have been conducted for the export and country elevator sectors, the
processed commodity sector, and the sugar beet sector. FSA will continue to monitor these sectors, as
required. Each of the four risk assessments will be reviewed with the industry on a biennial basis to
check on progress in implementing mitigation practices. FSA has used the results of the completed
assessments to formulate action plans on food safety and security and establish safeguard requirements
for the commodities that it manages, handles, transports, stores, and distributes.

                                     2008 ANNUAL REPORT
                                             - 22 -
                              COMMODITY CREDIT CORPORATION
                                      Management Discussion and Analysis


INITIATIVE: FOOD AND HUMANITARIAN AID

The Farm Service Agency has successfully transitioned to the Federal Acquisition Regulation and is
reorganizing Commodity Operations to increase efficiency in food aid purchases and dispositions.

The Bill Emerson Humanitarian Trust was established as the Food Security Wheat Reserve in 1980. The
Trust is used to meet emergency humanitarian food needs in developing countries. The Trust is not a
continuous food aid program, but cash and/or a commodity reserve that is maintained to provide food aid
for unanticipated emergency needs that cannot otherwise be met through P.L. 480, Title II.

In addition, in FY 2008, Commodity Operation implemented the Stocks for Food Initiative, under which
government owned stocks were exchanged for processed and bulk commodities that were made
available to domestic and international food assistance programs. Through these exchanges, CCC
eliminated storage and handling expenses incurred on government owned commodity inventories and
increased the quantity of food assistance that was provided.

INITIATIVE: FINANCIAL MANAGEMENT - LINE OF BUSINESS (FM-LOB) AND FINANCIAL
MANAGEMENT MODERNIZATION INITIATIVE (FMMI)

The FM-LOB Initiative:
The FM-LOB Initiative is mandated by the OMB. It will identify Centers of Excellence for various business
functions performed in the Government. These Centers of Excellence will become the service providers
for other Government Agencies that perform similar lines of business. The goal is to reduce the
redundancy of systems development within the Government by consolidating services into those Centers
of Excellence.

The FMMI Overview: FSA/CCC, in partnership with USDA’s OCFO is pursuing significant modernization
of aging departmental and agency financial systems in order to address challenges and opportunities in
the rapidly changing Federal financial management and technology environment. The primary objective
of the FMMI is to improve financial management performance by efficiently providing USDA agencies with
a modern, core financial management system that both complies with Federal accounting and systems
standards and provides maximum support to the Agencies’ mission.

FSA/CCC, in partnership with USDA, is undertaking the FMMI program for four main reasons:

           Grants Management Line of Business: USDA continues the development of the strategy
            to implement the Grants Management Line of Business (GMLoB) approach to managing
            grant activity as part of the President’s Management Agenda. The GMLoB is an Office of
            Management and Budget initiative that will identify Centers of Excellence for various business
            functions performed in the Government.

           Support USDA Mission: To support all elements of the departmental mission, USDA
            officials require high quality financial and performance information to make and implement
            effective policy, management, stewardship, and program decisions. The implementation,
            operations, and maintenance of certified, technologically advanced, and reliable financial
            systems will contribute to USDA’s mission, strategic goals, and objectives.

           Meet Legislative and Management Mandates: The FMMI program will enable FSA/CCC to
            meet its fiduciary responsibilities, including accountability for U.S. tax dollars, and to comply
            with several legislative and regulatory mandates. These mandates include regulations such
            as the Chief Financial Officer’s (CFO) Act, the Federal Managers’ Financial Integrity Act
            (FMFIA), the Federal Financial Management Improvement Act (FFMIA), the Clinger-Cohen
            Act, the Government Paperwork Elimination Act (GPEA), Financial System Integration Office
            (FSIO, formerly the Joint Financial Management Improvement Program or JFMIP), the
                                     2008 ANNUAL REPORT
                                             - 23 -
                              COMMODITY CREDIT CORPORATION
                                     Management Discussion and Analysis

            Government Performance and Results Act (GPRA), the Federal Information Security
            Management Act (FISMA), and associated National Institute of Standards and Technology
            (NIST) guidance in NIST SP 800-53.

           Address Legacy System Support and Material Weaknesses: The USDA has selected
            SAP for the replacement of its legacy accounting systems. The CCC legacy accounting
            systems are no longer supported by the vendor, and CCC must address material
            weaknesses in agency-specific general ledger systems.

CCC is working with USDA to replace its legacy financial systems, including CCC’s current CORE
financial management systems and administrative and program general ledger systems, and to
consolidate its data and business functions with SAP’s Commercial-Off-the-Shelf (COTS) accounting and
ledger system.

To meet this objective, CCC, together with USDA and the integrator, will perform an analysis of all CCC’s
financial and program applications and their functionality to identify possible candidates for:

           Full replacement by the new system
           Partial replacement of only financial functionality by the new system
           Interfaces into the new system.

INITIATIVE: IMPLEMENTATION OF OMB CIRCULAR No. A-123, Appendix A

OMB Circular No. A-123 defines management’s responsibility for internal control in Federal agencies.
OMB A-123 and the statute it implements, the Federal Managers’ Financial Integrity Act of 1982 (FMFIA),
are at the center of the existing Federal requirements to improve internal controls. Appendix A lays out
an assessment process that management should implement in order to properly assess and improve
internal control over financial reporting. The assessment process provides management with the
information needed to properly support a separate assertion as to the effectiveness of internal controls
overall financial reporting, as a subset of the overall FMFIA.

For FY 2008, FSA utilized the services of a contractor to help with documentation and testing of various
CCC business cycles and processes as part of the OMB A-123, internal control assessment. FSA
followed the Departmental methodology for completing the assessment using a systematic method for
identifying and documenting controls within business processes. From the documented controls, FSA
then defined those that are key controls to operations. FSA tested the key controls (both automated and
manual) and documented the performance of those controls. Failed control deficiencies that did not
perform as intended or were not designed properly were further evaluated and in many cases remediated
with corrective action plans prepared for follow-up resolution.




                                    2008 ANNUAL REPORT
                                            - 24 -
                             COMMODITY CREDIT CORPORATION
                                    Management Discussion and Analysis



                     LIMITATIONS OF FINANCIAL STATEMENTS
The principal financial statements have been prepared to report the financial position and results of
operations of the entity, pursuant to the requirements of 31 U.S.C. 3515 (b). While the statements have
been prepared from the books and records of the entity in accordance with Generally Accepted
Accounting Principles (GAAP) for Federal entities and the formats prescribed by OMB, the statements are
in addition to the financial reports used to monitor and control budgetary resources which are prepared
from the same books and records. The statements should be read with the realization that they are for a
component of the U.S. Government, a sovereign entity.




                                   2008 ANNUAL REPORT
                                           - 25 -
   COMMODITY CREDIT CORPORATION
           Performance Section




PERFORMANCE SECTION (UNAUDITED)




       2008 ANNUAL REPORT
               - 26 -
                              COMMODITY CREDIT CORPORATION
                                                Performance Section



                                   PERFORMANCE SECTION
Given that most of CCC services are carried out by the employees of USDA agencies, the mission of
CCC aligns to the strategic goals of the Department as well as to the strategic goals of the Farm Service
Agency (FSA) and Foreign Agriculture Service (FAS). Each of these strategic goals in turn has outcome
objectives that support the results that the Agencies want to achieve. The performance measures allow
CCC to tangibly measure how well it is achieving these objectives without creating a duplicate reporting
burden. The table below summarizes the relationship between the USDA Performance and Accountability
Reports (PAR) strategic goal, CCC program area, the Agency’s strategic goal, and CCC mission element.
The table also displays which USDA agency administers the strategic goal.

 CCC Program Alignment to USDA Performance and Accountability Report Goals
   USDA      CCC Program
  Agency          Area         USDA Strategic Goal      Agency Strategic Goal             CCC Mission Element
           Income Support     Enhance the               Supporting Productive      Stabilizing, supporting, and
           and Disaster       Competitiveness and       Farms and Ranches          protecting farm income and prices.
           Assistance         Sustainability of Rural   Supporting Secure and
                              Farm Economies            Affordable Food and
                                                        Fiber
           Conservation       Protect and Enhance       Conserving Natural         Conservation of soil, air, and water
                              the Nation’s Natural      Resources and              resources and protection and
   FSA
                              Resource Base and         Enhancing the              improvement of wildlife habitats.
                              Environment               Environment
           Commodity          Enhance the               Supporting Productive      Maintaining balanced and adequate
           Operations and     Competitiveness and       Farms and Ranches          supplies of agricultural commodities
           Food Aid           Sustainability of Rural   Supporting Secure and      and aiding in their orderly
                              Farm Economies            Affordable Food and        distribution.
                                                        Fiber
           Market Expansion   Enhance International     Supporting International   Developing new domestic and
           and Trade          Competitiveness of        Economic Development       foreign markets and marketing
           Building           American Agriculture      and Trade Capacity         facilities for agricultural
                                                        Building                   commodities.
   FAS
           Export Credit      Enhance International     Supporting International   Developing new domestic and
                              Competitiveness of        Economic Development       foreign markets and marketing
                              American Agriculture      and Trade Capacity         facilities for agricultural
                                                        Building                   commodities.




                                      2008 ANNUAL REPORT
                                              - 27 -
                               COMMODITY CREDIT CORPORATION
                                              Performance Section



                         PROGRAM AREA PERFORMANCE DATA
                                Program Assessment Rating Tool (PART)
The PART was developed by the Office of Management and Budget (OMB) to assess and improve
program performance so that the Federal government can achieve better results. A PART review helps
identify a program’s strengths and weaknesses to allow management to make informed decisions aimed
at making the program more effective. The PART therefore looks at all factors that affect and reflect
program performance including program purpose and design; performance measurement, evaluations,
and strategic planning; program management; and program results. The USDA has completed 85
PARTS through FY 2008. The outstanding recommendations from the PART process and the status of
implementing these recommendations are shown as follow up actions and milestones. The CCC major
programs are summarized briefly. The USDA Strategic Goals reported in the USDA 2008 Performance
Accountability Report are shown for the major program areas. Findings and recommendations resulting
from the PART process (if available for that program) are shown. The status of implementing
recommendations is included in the tables representing the CCC programs.

Program Area – Income Support and Disaster Assistance

Program Area Summary
CCC is the financial instrument for millions of income support and disaster assistance payments each
year to agricultural commodity producers. These payments stabilize, support, and protect farm income
and prices. CCC payment volume for these programs is driven by commodity market prices, payment
eligibility rules established in public policy, and natural or man-made disasters. CCC payments are best
explained in the context of a commodity crop year. Crop years do not directly correspond to financial
statement reporting, so this creates some unique challenges for discussing payment trends and
performance.


Program Performance Scores and Status
Agricultural Direct Crop and Counter-Cyclical Payments Program. The Direct Crop and Counter-
Cyclical Programs (DCP) are key programs in the Agency's effort to mitigate market losses. The Food,
Conservation, and Energy Act of 2008, Pub. L. 110-234, was enacted into law on May 22, 2008. The
DCP is authorized for FY 2008 through FY 2012. Farm Service Agency (FSA) provides direct payments
(cash) to eligible crop producers. The intent is to allow planting flexibility while providing a safety net for
producers. Counter-cyclical payments will be issued for each of the 2008 through 2012 crop years of
each covered commodity if the effective price for the covered commodity is less than the target price for
the covered commodity. Counter-cyclical payments vary as market prices change. The FSA electronic
Direct and Counter-Cyclical Payment Program (eDCP) service allows agricultural producers to enroll in
DCP online. Producers can choose DCP payment options, assign crop shares, and sign, view, print, and
submit their DCP contracts from any computer with Internet access at any time. This service is available
to all eligible producers for the FY 2008-2012 DCP program years and helps the Agency maintain
participation rates for this program. While producers still have the option to sign up for the program in
person at their local USDA Service Center, offering sign-up options through the Internet helps the Agency
meet its performance objectives, in accordance with the President’s Management Agenda and the
USDA’s mandate to expand E-Gov options for program participants.

       USDA Strategic Goal Alignment – Enhance the Competitiveness and Sustainability of Rural
        and Farm Economies
       Lead Agency – FSA


                                      2008 ANNUAL REPORT
                                              - 28 -
                                   COMMODITY CREDIT CORPORATION
                                                    Performance Section

 Counter Cyclical Payments Program
 Recommendations from PART                           Status of Implementing Recommendations
 Process
 Develop an independent evaluation process to be     Action taken, but not completed: Establish policy within parameters of
 conducted once every three years.                   new Farm Bill legislation to improve delivery of the program.
                                                     Action taken, but not completed: Data continues to be collected on an
 Work to achieve its long-term performance goals.    annual basis on the percentage of farm income derived from counter-
                                                     cyclical payments. This data is useful in determining the producers' level
                                                     of dependence on government assistance, which can serve as an
                                                     indicator of success.

Direct Crop Payments Program. FSA/CCC provides Direct Crop Payments (cash) to eligible crop
producers. The intent is to allow planting flexibility while providing a safety net for producers. In FY 2008,
the Direct Crop Payments (DCP) program was reassessed using the Program Assessment Rating Tool
(PART). It received a score of “adequate.” The DCP program was found to be strong in Strategic
Planning and Program Management. It was also acknowledged that DCP payments are minimally trade
distorting. The Food Conservation and Energy Act of 2008 (Farm Bill) reduced the Adjusted Gross
Income (AGI) limitation in order to more effectively reach lower income producers who can benefit from
the stability and safety net provisions of the program. Although the program has been effective in
reducing improper payments, it needs to continue to improve its results. As a partner with the Natural
Resources Conservation Service (NRCS), DCP needs to continue to improve information sharing and
cooperation to improve its services.

        USDA Strategic Goal Alignment – Enhance the Competitiveness and Sustainability of Rural
         and Farm Economies
        Lead Agency – FSA

 Direct Crop Payments Program
      Recommendations from PART Process                          Status of Implementing Recommendations
 Reviewing and implementing the new Farm Bill        Action Taken But Not Completed
 including developing rules and regulations.

 Continuing to lower improper payments.              Action Taken But Not Completed
 Improving information sharing with other USDA       Action Taken But Not Completed
 agencies.


Marketing Assistance Loan Program. The MAL program provides a safety net for farmers of the major
field crops. The MAL program is intended to help alleviate the price risk inherent in selling commodities
and provides short-term or interim financing. Instead of selling immediately at harvest, the MAL program
allows a producer who grows an eligible crop to store the production and pledge the crop as collateral.
The loan proceeds help the producer to maintain financial stability without having to sell the harvested
crop at the time of year when prices tend to be at their lowest levels. Later, when market conditions may
be more favorable, a producer can sell the crop and repay the loan. This program was reviewed by the
Office of Management and Budget (OMB) during FY 2007. The marketing loan program has been proven
to successfully provide short-term financing. In order to improve the performance of the program, the
MAL program is implementing policies to reduce improper payments, conducting more frequent external
audits of program effectiveness, and making the delivery of services to producers consistent across
county offices.

        USDA Strategic Goal Alignment – Enhance the Competitiveness and Sustainability of Rural
         and Farm Economies
        Lead Agency – FSA

                                           2008 ANNUAL REPORT
                                                   - 29 -
                                     COMMODITY CREDIT CORPORATION
                                                        Performance Section

 Marketing Assistance Loan Program
     Recommendations from PART Process                                 Status of Implementing Recommendations
 Implement policies to reduce improper payments.         Action Taken But Not Completed: The MAL program has achieved
                                                         significant improvements in its improper payment rate. In FY 2006, MAL
                                                         reported IP of 20.26%, or $1,611 million. In FY 2007, the improper
                                                         payment percentage was 7.52% or $458 million, $1,153 million lower.
                                                         The program continues to take action to improve the improper payment
                                                         percentages in the future.
 Conduct more frequent external audits of program        Action Taken But Not Completed: In its FY 2008 Annual Plan, the
 effectiveness.                                          USDA OIG indicated it plans to audit the Marketing Assistance Loans
                                                         and Loan Deficiency Payments to Cooperative Marketing Associations
                                                         and Designated Marketing Associations.
 Establish policy within parameters of new Farm          Action Taken But Not Completed
 Bill legislation to improve delivery of the program.

Noninsured Crop Disaster Assistance Program. The Noninsured Crop Disaster Assistance Program
(NAP) is a risk management tool for producers of noninsurable crops—those that are unable to obtain
crop insurance through an insurance product. A component of this objective is to increase the
percentage of eligible crops with NAP coverage.

        USDA Strategic Goal Alignment – Enhance the Competitiveness and Sustainability of Rural
         and Farm Economies
        Lead Agency – FSA

 Noninsured Crop Disaster Assistance Program
     Recommendations from PART Process                                 Status of Implementing Recommendations
 Develop and implement a performance-based               Action Taken But Not Completed: FSA is developing cost structures for
 budgeting process that will improve accountability      the Budget and Performance Management System (BPMS) that will
 of budget and financial systems.                        allow for new cost management reports that demonstrate cost per
                                                         service unit, and ratios for total indirect to administrative costs. Task
                                                         progress is on schedule and budget. Pilot of the process was started in
                                                         the 4th quarter of FY 2007.
 Investigate options to commission independent           Action Taken But Not Completed: In January 2007, a NAP working
 evaluations that analyze program performance.           group was established. The working group consists of representatives
                                                         from the following FSA offices: Deputy Administrator for Farm Programs
                                                         (DAFP), Economics, Policies and Analysis Staff (EPAS), Budget
                                                         Division, and Production, Emergencies and Compliance Division
                                                         (PECD). The NAP working group met to discuss options to conduct an
                                                         independent evaluation. NAP survey evaluation target has been revised
                                                         pending review of new Farm Bill.


Milk Income Loss Contract Program. The Milk Income Loss Contract (MILC) program compensates
dairy producers when domestic milk prices fall below a specified level. The 2008 Farm Bill authorizes the
MILC program through September 30, 2012, and includes a payment rate adjustment for feed prices and
changes to payment rate calculations and production limits.

        USDA Strategic Goal Alignment – Enhance the Competitiveness and Sustainability of Rural
         and Farm Economies
        Lead Agency – FSA




                                              2008 ANNUAL REPORT
                                                      - 30 -
                                        COMMODITY CREDIT CORPORATION
                                                            Performance Section

    Milk Income Loss Contract Program
          Recommendations from PART Process                                Status of Implementing Recommendations
    Eliminating shortcomings identified in financial          Action Taken But Not Completed: PSD is in the process of developing
    audits by strengthening the processes and                 updated rules and regulations and modifying policy and procedure as
    controls in the program's disbursement system.            appropriate.
    Establish policy within parameters of new Farm            Action Taken But Not Completed: Program managers are soliciting
    Bill legislation to improve delivery of the program.      input from State specialists to improve efficiency of program delivery.

                                     FY 2008 Performance Targets and Actual Results
                                                              FY 2008       Actual Year to
                         Measure                               Target      Date Performance                     Result
        Maintain or increase % of program benefits
                                                                 33%              33%                         Met Target
          delivered through a Web environment
      Increase percentage of eligible crops with NAP
                                                               11.76%             7.2%                      Target Not Met1
                        coverage
1   Met range for NAP is 10.76% - 12.76%

                            Trends in Income Support and Disaster Assistance Programs
            Key Performance Measures                             2004             2005          2006           2007           2008

     Maintain or increase % of program benefits              NA (program
                                                                                  22%           33%            33%            33%
      delivered through a Web environment.                 initiated in FY05)

      Increase percentage of eligible crops with
                                                               11.12%            12.82%       12.70%         11.76%           7.2%
                   NAP coverage

The Commodity Credit Corporation (CCC) met one of its performance targets for FY 2008. The CCC met
the performance target to maintain or increase the percentage of program benefits delivered through a
web environment. Of the nine farm programs designated to be web-enabled, benefits for three programs
are currently available to producers through a web environment. CCC met the performance target by
maintaining the percentage at 33% for web-enabled programs available to producers.

With an estimated FY 2008 percentage of 7.2 percent, USDA has not met its FY 2008 target for
increasing the percentage of eligible crops with NAP coverage for the following reasons: First, prior ad
hoc disaster legislation mandated participation in NAP as a precondition for receiving disaster payments.
However, producers who had not purchased NAP were allowed to participate in the disaster program if
they agreed to purchase NAP for the following two crop years. This legislative requirement expired with
the 2007 crop; therefore, producers dropped out of the fee-based NAP program, causing the resulting
drop in enrollments. The FY 2008 NAP performance measure reports results from claims made on the
2007 crop year. NAP payments in FY 2008 for the 2007 crop year were roughly half what they had been
the prior year. There were record low loss rates because disaster claims were extremely low. The
program has documented increased enrollment for FY 2008 and should trend upwards in the next fiscal
year due to the requirement in the 2008 Farm Bill that a producer must have obtained a policy or plan of
insurance or NAP coverage to maintain eligibility for four of the five new standing disaster programs.

Program Area – Conservation

Program Area Summary
The focus of USDA conservation programs administered by FSA is to use environmentally sound
management for agricultural production to meet food and fiber needs of the Nation.


                                                 2008 ANNUAL REPORT
                                                         - 31 -
                                     COMMODITY CREDIT CORPORATION
                                                        Performance Section

Program Performance Score and Status
Conservation Reserve Program. The Conservation Reserve Program (CRP) is a voluntary program
available to agricultural producers to help them safeguard environmentally sensitive land. Producers
enrolled in CRP plant long-term, resource-conserving covers to improve the quality of water, control soil
erosion and enhance wildlife habitat. In return, FSA provides participants with rental payments and cost-
share assistance. Contract duration is between 10 and 15 years. The long-term goal for USDA
conservation programs is to protect and enhance the Nation’s natural resources and environment to meet
the needs of current and future generations.

         USDA Strategic Goal Alignment – Protect and Enhance the Nation’s Natural Resource Base
          and Environment
         Lead Agency – FSA

 Conservation Reserve Program
     Recommendations from PART Process                                 Status of Implementing Recommendations
 Improving the Farm Service Agency's technical           Action Taken But Not Completed: The agency is reengineering CRP
 assistance accountability systems                       business industry delivery of technical assistance by utilizing the private
                                                         sector for technical assistance delivery. At the end of 2007, the agency
                                                         issued a contract and is currently implementing private sector delivery of
                                                         technical assistance for CRP accountability systems.
 Performing independent program evaluations to           Action Taken But Not Completed: FSA received reports USGS and
 identify recommendations for improving                  USFWS assessing CRP on restored wetlands and grassland bird and
 performance and efficiency                              duck populations in the Northern Prairie. Agreements have been
                                                         received from the Food and Ag Policy Res. Inst, Iowa State U,
                                                         Mississippi State University, West, Inc., and WA State Dept. of Natural
                                                         Resources to assess the effect of CRP on the off field movement of
                                                         sediment and nutrients, potential for restored CRP wetlands to filter
                                                         nitrogen from cropland runoff, and quail, pheasant, and sage grouse
                                                         populations. FSA agreements with Iowa State University and USGS
                                                         examining the potential for restoring wetlands to filter nutrients from
                                                         cropland runoff are completed and undergoing review. Oklahoma State
                                                         University's examination of Great Plain Grasslands and alternative
                                                         management systems for better CRP grassland management is nearing
                                                         completion. Each of the above studies will be used to enhance program
                                                         delivery and improve interagency assessment of CRP.

                                 FY 2008 Performance Targets and Actual Results
                                                                                  Actual Year to Date
                       Measure                                FY 2008 Target         Performance                    Result
  Increase Conservation Reserve Program (CRP)
                                                          1.92 million acres       2.02 million acres          Exceeded Target1
 acres of riparian and grass buffers (million acres).

           Increase wetlands acres restored               1.90 million acres       1.99 million acres          Exceeded Target1
1 Performance   threshold to exceed is >102 percent

                                           Trends in Conservation Programs
        Key Performance Measures                 2004                2005            2006               2007              2008

    Increase Conservation Reserve
                                                   1.65                1.75            1.86              1.92              2.02
  Program (CRP) acres of riparian and
                                              million acres       million acres   million acres     million acres     million acres
      grass buffers (million acres).

                                              2008 ANNUAL REPORT
                                                      - 32 -
                                   COMMODITY CREDIT CORPORATION
                                                 Performance Section

                                      Trends in Conservation Programs
        Key Performance Measures          2004             2005            2006            2007            2008

                                            1.89             1.96            2.03            2.08            1.99
   Increase wetlands acres restored
                                       million acres    million acres   million acres   million acres   million acres


The Conservation Reserve Program (CRP) is the nation’s largest private-lands conservation financial
assistance program, with over 34.7 million acres enrolled. The USDA Strategic Plan for FY 2005-2010 set
a strategy of helping producers increase the number of riparian and grass buffers on agricultural lands.
These buffers intercept sediment and nutrients before they reach surface waters. As one indicator of its
performance in achieving this strategy, FSA monitors acreage of agricultural lands to be enrolled as
buffer zones in CRP. CRP exceeded its performance target of 1.92 million acres for the measure
“Increase Conservation Reserve Program (CRP) acres of riparian and grass buffers (million acres)” by
more than 100,000 acres. For FY 2008, producers have set aside approximately 2.02 million acres as
CRP buffer areas.

Land currently under contract for the 2008 crop year is down 2.1 million acres from last year’s 36.8 million
acres. High commodity prices have reduced the attractiveness of retiring cropland from production and
enrolling it in CRP. The Food, Conservation, and Energy Act of 2008 (2008 Farm Bill) reduced the
maximum CRP enrollment to 32 million acres beginning in FY 2010.

The performance target of 1.90 million acres for the measure “Increase wetlands acres restored” has
been exceeded by 90,000 acres. These restored wetlands are the result of several initiatives, including
the 500,000 acre Bottomland Hardwood Timber Initiative and the 250,000 acre non-floodplain Wetland
Restoration Initiative. These wetlands and buffers have increased prime wildlife habitat and water
storage capacity, and have led to a net increase in wetland acres on agriculture land. The CRP continues
to be acknowledged for its environmental benefits generated by long-term conservation contracts
protecting air, soil, water, and wildlife resources.

Program Area – Commodity Operations and Food Aid
Commodity operations programs handle the procurement, acquisition, storage, disposition, and
distribution of commodities, and the administration of the U.S. Warehouse Act (USWA). These programs
help achieve domestic farm program price support objectives, produce a uniform regulatory system for
storing agricultural products, and ensure the timely provision of food products for domestic and
international food assistance programs and market development programs.


Program Performance Scores and Status

Dairy Product Price Support Program. Under the authority of the Agricultural Act of 1949, as
amended, national policies and procedures are formulated and administered through the Dairy Product
Price Support Program (DPSP). In order to stabilize domestic dairy prices as required by law, dairy
products are purchased at announced prices under this program. Commodity Operations arranges for
warehouse storage, transportation, handling, and inspection of the dairy products until the commodities
are used in domestic or international food assistance programs or otherwise disposed of by CCC.

         USDA Strategic Goal Alignment – Enhance the Competitiveness and Sustainability of Rural
          Farm Economies
         Lead Agency – FSA




                                       2008 ANNUAL REPORT
                                               - 33 -
                                     COMMODITY CREDIT CORPORATION
                                                          Performance Section

 Dairy Product Price Support Program
     Recommendations from PART Process                                  Status of Implementing Recommendations
 Add price variability data for an annual outcome          Action Taken But Not Completed: FSA is conducting a study to
 performance measure.                                      examine alternative methods for evaluating price variability.

 Establish policy within parameters of new Farm            No Action Taken
 Bill legislation to improve delivery of the program.




                            FY 2008 Performance Targets and Actual Results
                                                                              Actual Year
                                                               FY 2008         to Date
          Key Performance Measures                              Target       Performance                    Result
     Reduce average time between warehouse
                                                               390 days         387 days                 Met Target
                 examinations.



                  Trends in Commodity Operations and Food Aid Program Area
       Key Performance Measures                         2004          2005           2006            2007              2008

      Reduce average time between
                                                  399 days          365 days       384 days        381 days           387 days
        warehouse examinations.


The FSA/CCC performance measure “Reduce the average number of days between warehouse
examinations,” achieved its goal to reduce the average time between warehouse examinations. The FY
2008 target was 390 days between warehouse examinations. In FY 2008, examinations were performed
more frequently, an average of 387 days. The warehouse examination program performs examinations
of licensed and contracted warehouse facilities which store or handle commodities for CCC. The more
frequently warehouses are examined for compliance with CCC storage agreements and United States
Warehouse Act licensing agreements by FSA warehouse examiners, the sooner any potential pest
infestation or deterioration of quality for commodities in store will be discovered. Factors affecting the
time between examinations of these warehouses include the number of warehouses participating in
storage programs for the account of CCC, the amount or value of commodity in store with CCC interest,
the length of time the commodities have been in store, whether the commodities have been forfeited or
are simply under loan, staff losses during FY 2008, and funding for the examination program.

Program Area – Market Expansion and Trade Building

Program Area Summary
The Foreign Agriculture Service (FAS) promotes market expansion and trade building through
cooperative agreements between CCC and nonprofit agricultural trade commodity groups. USDA uses
funds or commodities from CCC to encourage development, maintenance, and expansion of commercial
export markets for agricultural commodities. This is done through cost-share assistance to eligible trade
organizations that implement a foreign market development program.




                                              2008 ANNUAL REPORT
                                                      - 34 -
                                     COMMODITY CREDIT CORPORATION
                                                        Performance Section

Program Performance Score and Status
USDA Food Aid Programs. The USDA food aid programs address non-emergency food needs of
developing countries through donation and long-term low interest loans for the purchase of U.S.
agricultural commodities.

             USDA Strategic Goal Alignment – Enhance International Competitiveness of American
              Agriculture
             Lead Agency – FAS


     Recommendations from PART Process                                  Status of Implementing Recommendations
 Develop and implement a new food aid database           Action taken, but not completed. The Food Aid Information System
 with user web-interface - the Food Aid Information      (FAIS) bid solicitation documentation has been completed and issuance
 System                                                  is pending final USDA clearance
 Improve the timeliness of notifying cooperating         Action taken, but not completed FAS is implementing new procedures
 sponsors when they are late in submitting required      for tracking the performance of cooperating sponsors in submitting
 semi-annual reports on logistics and monetization.      required semi-annual reports and for notifying them when reports are
                                                         more than 180 days overdue.
 FAS has developed and continues to refine a new         The USDA food aid programs meet both development and nutrition
 food security annual performance measure and            needs and involve direct distribution of food and monetization of
 baseline.                                               commodities donated. The development aspects of food aid involve the
                                                         monetization (sale) of the food aid and the implementation of long-term
                                                         development projects that benefit the people of the recipient country.
                                                         The Food Aid Targeting Effectiveness Ratio (FATER) examines the
                                                         degree to which food aid contributes to reducing a country's food
                                                         distribution gap. The food distribution gap is the amount of food needed
                                                         to raise consumption of each income group to the minimum nutritional
                                                         requirement. When the FATER is zero, then this suggests that food aid
                                                         was given to a country or countries, in which all people were at or above
                                                         the minimum nutritional requirement. When the FATER is 100, then it is
                                                         estimated that food aid raised the consumption of all income groups in a
                                                         recipient country or countries to the minimum nutritional requirement
                                                         level or above.
 Financial management improvements in the areas          Completed. MARAD reimbursement process has improved significantly.
 of credit reform, budget reporting and                  Improvements in the reconciliation and reporting of unobligated
 reimbursements are on-going.                            balances have been made and will be strengthened through
                                                         development of the Food Aid Information System.
 FAS has contracted for a review of food aid             Completed. Improvements in the food aid information and reporting
 information and reporting systems that will identify    systems will be achieved through implementation of the Food Aid
 areas for improvement in IT systems that will lead      Information System. Development of the database system began in FY
 to program efficiencies down the road. This review      2006. The second phase of implementation will begin in FY 2009.
 is on-going.


 Key Performance Measures for Food Aid Programs
                       Measure                            2003        2004        2005        2006         2007          2008
 Application Response Time—Food Aid                        N/A         N/A         N/A       90 days     132 days      85 days**
 ** Estimate; Final data not yet available




                                             2008 ANNUAL REPORT
                                                     - 35 -
                                     COMMODITY CREDIT CORPORATION
                                                       Performance Section

USDA Foreign Market Development Programs. The purpose of these programs is to expand markets
for U.S. agricultural commodities. Government funds provided through FAS are used to help producers,
exporters, private companies, and other trade organizations promote U.S. agricultural commodities
overseas.

             USDA Strategic Goal Alignment – Enhance International Competitiveness of American
              Agriculture
             Lead Agency – FAS

 Key Performance Measures for Market Expansion and Trade Building Programs
                       Measure                            2003         2004         2005         2006         2007        2008
 Target Dollar value of actual sales for small            $450*        $470*        $490*        $460         $462*       $700
 companies (millions)
 * Target exceeded
 ** Estimate; Final data not yet available

Key performance measures for the Market Expansion and Trade Building program area are noted above,
with targets established for FY 2007.

Program Area – Export Credit
Program Area Summary
CCC promotes exports of U.S. agricultural commodities through sales, payments, export credits, and
other related activities. Currently, CCC makes available export credit guarantees and export bonuses to
promote exports. These programs are administered by FSA and FAS on behalf of CCC.

Program Performance Score and Status
Agricultural Export Credit Guarantee Programs. CCC’s Export Credit Guarantee Programs (ECGPs)
encourage U.S. agricultural exports by underwriting credit to pay for food and agricultural products sold to
foreign buyers.

             USDA Strategic Goal Alignment – Enhance International Competitiveness of American
              Agriculture
             Lead Agency – FAS


     Recommendations from PART Process                                 Status of Implementing Recommendations
 Develop a means of regularly performing                Completed. In FY 2006, USDA's Office of the Inspector General (OIG)
 independent evaluations to examine program             stated in its business plan that it will conduct a review of the Export
 effectiveness.                                         Credit Guarantee Program. For future years, FAS will work to achieve
                                                        the objective of contracting, using FAS S&E funds, with USDA/ERS,
                                                        OIG or another independent party to conduct an independent review of
                                                        the Export Credit Guarantee Program prior to FY 2010.
 Provide funding in the Budget to improve claims        Completed. SCGP and GSM-103 were repealed in the 2008 Farm Bill.
 recoveries.                                            For recoveries of prior claims, FAS has continued to secure funding
                                                        each fiscal year to contract for legal services and investigators in
                                                        overseas markets, claims processing and debt recovery. We continue
                                                        to work with the OIG and the Department of Justice to pursue claims
                                                        recoveries.
 Examine administrative costs in light of changes to    Completed. The WTO Brazil cotton case led to the adoption of higher
 the supplier credit guarantee program stemming         fees that are country risk-based but do not affect administrative costs.
                                             2008 ANNUAL REPORT
                                                     - 36 -
                                    COMMODITY CREDIT CORPORATION
                                                 Performance Section



    Recommendations from PART Process                           Status of Implementing Recommendations
from the WTO cotton case.                         However, all USDA credit programs, including the ECGP, adopted with
                                                  OMB approval, an efficiency measure comparing program
                                                  administrative costs to the overall guarantees issued and outstanding.
                                                  On this basis, the ECGP demonstrated a high degree of efficiency,
                                                  recording in FY 2005 an efficiency measure of .06% (=.0006 cents/$1
                                                  ECG). In FY 2006, the efficiency measure was .10% (=.001 cents/$1
                                                  ECG), and .12% in FY 2007. The decrease in the efficiency measure
                                                  between FY 2005 and FY 2007 is due in part to the significant reduction
                                                  in registered sales under the program.
Develop meaningful targets for the efficiency     Completed. All USDA credit programs, including the CCC Export Credit
measure.                                          Guarantee Program, adopted with OMB approval an efficiency measure
                                                  comparing program administrative costs to the overall guarantees
                                                  issued and outstanding. On that basis, the program has demonstrated a
                                                  high degree of efficiency which is reflected in the targets established for
                                                  the efficiency performance measure.
Improve claims recoveries and reduce defaults.    Completed. Excluded non-credit worthy countries from program and
                                                  limited the length of guarantees. Adopted a risk-based fee structure so
                                                  that transactions involving higher risk are charged higher program fees.
                                                  Supplier credit guarantee program was not announced for FY 2006 and
                                                  to date has not been announced for FY 2007. The agency has
                                                  contracted for legal services and investigations in overseas markets and
                                                  continues to work with USDA's OIG & the Dep. of Justice to pursue
                                                  claims recoveries.
Review and modify underlying assumptions of       Ongoing. A contractor has been hired to evaluate the assumptions used
defaults and recoveries                           to create the existing model for credit reform subsidy cashflow
                                                  calculations with the objective of determining whether the default and
                                                  recovery assumptions are appropriate and true. Update: Contractor
                                                  submitted adjusted credit subsidy rate to OMB for review, based on
                                                  compilation of 10 years worth of data on registration guarantees, claims,
                                                  recoveries and rescheduled payments. April Update: The adjusted
                                                  credit subsidy rate has been accepted by OMB for the fiscal year 2009
                                                  President's Budget Submission. This initial phase of the study
                                                  determined that historical assumptions used to estimate recoveries and
                                                  restructurings were significantly understated, thereby overstating the
                                                  program's overall "subsidy" cost. The revised assumptions on recovery
                                                  and loan restructuring reduced the subsidy to 0.85 percent, a significant
                                                  reduction over previous years.

Key Performance Measures for Export Credit Programs
                     Measure                        2003         2004         2005          2006         2007        2008
Estimated trade value resulting from USDA GSM       $3.63        $4.20        $2.91         $1.39        $1.47       $3.0**
export credit guarantee programs (billions)

Administrative cost per loan—measures USDA's        .04%         .03%          .06%         .10%         .12%        .12%**
efficiency of loan making and servicing.

** Estimate; Final data not yet available




                                            2008 ANNUAL REPORT
                                                    - 37 -
CONSOLIDATED FINANCIAL STATEMENTS




       2008 ANNUAL REPORT
               - 38 -
                                     COMMODITY CREDIT CORPORATION
                                                Consolidated Financial Statements

                                                     Commodity Credit Corporation
                                            CONSOLIDATED BALANCE SHEETS
                                                As of September 30, 2008 and 2007
                                                        (Dollars in Millions)

                                                                              2008                  2007
ASSETS:
  Intragovernmental:
     Fund Balance with Treasury (Note 2)                             $                3,035     $             216
     Accounts Receivable, Net (Note 4)                                                  125                   243
  Total Intragovernmental Assets                                     $                3,160     $             459
  Cash and Other Monetary Assets (Note 3)                                                92                     -
  Accounts Receivable, Net (Note 4)                                                   5,667                 5,931
  Loans and Credit Program Receivables:
     Commodity Loans, Net (Note 5)                                                      643                   759
     Credit Program Receivables, Net (Note 6)                                         4,712                 5,142
     Other Foreign Receivables, Net                                                       -                    21
  Subtotal                                                           $                5,355     $           5,922
  Commodity Inventories and Related Property, Net (Note 7)                               15                   185
  General Property and Equipment, Net (Note 8)                                           51                    55
  Other                                                                                 189                    95
Total Assets                                                         $               14,529     $          12,647


LIABILITIES:
  Intragovernmental:
     Accounts Payable                                                $                    -     $               9
     Debt to the Treasury (Note 10)                                                   5,877                 6,516
     Other:
       Resources Payable to Treasury                                                  3,197                 3,180
       Deposit and Trust Liabilities (Note 11)                                          820                   818
       Other (Note 12)                                                                  663                   540
     Subtotal                                                        $                4,680     $           4,538
  Total Intragovernmental Liabilities                                $               10,557     $          11,063
  Accounts Payable                                                                      287                   386
  Credit Guarantee Liabilities (Note 6)                                                 161                   184
  Environmental and Disposal Liabilities (Note 13)                                        8                     8
  Other Liabilities:
     Accrued Liabilities (Note 14)                                                   12,154                11,543
     Deposit and Trust Liabilities (Note 11)                                              6                    14
     Other (Note 12)                                                                    110                    12
  Subtotal                                                           $               12,270     $          11,569
Total Liabilities (Note 9)                                           $               23,283     $          23,210

Commitments and Contingencies (Note 15)

NET POSITION:
  Unexpended Appropriations                                          $                 1,470    $              643
  Capital Stock                                                                          100                   100
  Cumulative Results of Operations                                                   (10,324)              (11,306)
Total Net Position                                                   $                (8,754)   $          (10,563)
Total Liabilities and Net Position                                   $                14,529    $           12,647

The accompanying notes are an integral part of these statements.

                                              2008 ANNUAL REPORT
                                                      - 39 -
                                           COMMODITY CREDIT CORPORATION
                                                        Consolidated Financial Statements

                                                             Commodity Credit Corporation
                                          CONSOLIDATED STATEMENTS OF NET COST (NOTE 16)
                                                For the Fiscal Years Ended September 30, 2008 and 2007
                                                                   (Dollars in Millions)

                                                                                                  2008                2007
STRATEGIC GOALS:

Supporting Productive Farms and Ranches:
    Gross Cost                                                                         $                  8,351   $          12,905
    Less: Earned Revenue                                                                                  1,140               4,393
    Net Goal Cost                                                                      $                  7,211   $           8,512

Supporting Secure and Affordable Food and Fiber:
    Gross Cost                                                                         $                   242    $            (110)
    Less: Earned Revenue                                                                                   271                   22
    Net Goal Cost                                                                      $                   (29)   $            (132)

Conserving Natural Resources and Enhancing the Environment:
   Gross Cost                                                                          $                  2,125   $           2,158
   Less: Earned Revenue                                                                                       2                   1
   Net Goal Cost                                                                       $                  2,123   $           2,157

Supporting International Economic Development and Trade Capacity Building:
    Gross Cost                                                                         $                  2,067   $           1,712
    Less: Earned Revenue                                                                                    416                 552
    Net Goal Cost                                                                      $                  1,651   $           1,160

Total Gross Cost                                                                       $                 12,785   $          16,665
Less: Total Earned Revenue                                                                                1,829               4,968
Net Cost of Operations                                                                 $                 10,956   $          11,697

The accompanying notes are an integral part of these statements.




                                                     2008 ANNUAL REPORT
                                                             - 40 -
                                     COMMODITY CREDIT CORPORATION
                                                Consolidated Financial Statements

                                                 Commodity Credit Corporation
                         CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION
                                    For the Fiscal Years Ended September 30, 2008 and 2007
                                                       (Dollars in Millions)

                                                                            2008                   2007

CAPITAL STOCK                                                      $                   100     $             100

CUMULATIVE RESULTS OF OPERATIONS:
 Beginning Balance                                                 $                (11,306)   $          (24,074)
 Changes in Accounting Principles                                                         -                 1,022
 Beginning Balance, as adjusted                                    $                (11,306)   $          (23,052)

Budgetary Financing Sources:
 Appropriations Used                                                                14,180                24,787
 Non-exchange Revenue                                                                   18                     6
 Transfers in/out without Reimbursement, Net                                        (3,215)               (2,179)

Other Financing Sources (Non-Exchange):
  Transfers in/out without Reimbursement, Net                                          (379)                 (442)
  Imputed Financing                                                                   1,334                 1,271
Total Financing Sources                                            $                 11,938    $           23,443
Net Cost of Operations                                                              (10,956)              (11,697)
Net Change                                                         $                    982    $           11,746
Cumulative Results of Operations                                   $                (10,324)   $          (11,306)

UNEXPENDED APPROPRIATIONS:
 Beginning Balance                                                 $                   643     $             842
 Changes in Accounting Principles                                                        -                  (351)
 Beginning Balance, as adjusted                                    $                   643     $             491

Budgetary Financing Sources:
  Appropriations Received                                                            15,015                24,939
  Other Adjustments                                                                      (8)                    -
  Appropriations Used                                                               (14,180)              (24,787)
Total Budgetary Financing Sources                                  $                    827    $              152
Total Unexpended Appropriations                                    $                  1,470    $              643

NET POSITION                                                       $                 (8,754)   $          (10,563)

The accompanying notes are an integral part of these statements.




                                             2008 ANNUAL REPORT
                                                     - 41 -
                                           COMMODITY CREDIT CORPORATION
                                                        Consolidated Financial Statements

                                                             Commodity Credit Corporation
                                          COMBINED STATEMENTS OF BUDGETARY RESOURCES
                                               For the Fiscal Years Ended September 30, 2008 and 2007
                                                                  (Dollars in Millions)

                                                                                       2008                                           2007
                                                                                                Non-Budgetary                                  Non-Budgetary
                                                                                                Credit Program                                 Credit Program
                                                                        Budgetary             Financing Accounts       Budgetary             Financing Accounts
BUDGETARY RESOURCES:
  Unobligated balance, brought forward, October 1:                  $          1,605      $               2,140    $          1,166      $               1,627
  Recoveries of prior year unpaid obligations                                  1,246                         27                 717                         14
  Budget authority:
    Appropriation                                                            16,154                           -             25,872                           -
    Borrowing authority (Note 17)                                            30,267                         302             41,185                         281
    Spending authority from offsetting collections:
      Earned:
        Collected                                                            13,811                       1,249             16,884                       1,189
        Change in receivables from Federal sources                               10                        (177)              (963)                          4
      Change in unfilled customer orders:
        Advance received                                                           3                          -                (180)                         -
        Without advance from Federal sources                                       -                        194                   -                          -
      Expenditure transfers from trust funds                                     959                          -                 934                          -
    Subtotal                                                        $         61,204      $               1,568    $         83,732      $               1,474
  Nonexpenditure transfers, net                                               (2,620)                         -              (1,830)                         -
  Permanently not available                                                  (33,374)                      (350)            (51,934)                       (68)
Total Budgetary Resources                                           $         28,061      $               3,385    $         31,851      $               3,047

STATUS OF BUDGETARY RESOURCES:
  Obligations incurred:
    Direct                                                          $         2,869       $                 869    $         2,894       $                 907
    Reimbursable                                                             23,094                           -             27,352                           -
  Subtotal                                                          $        25,963       $                 869    $        30,246       $                 907
  Unobligated balance:
    Apportioned                                                     $           276       $               1,662                402                       1,084
    Exempt from apportionment                                                   811                           5                808                           5
  Subtotal                                                          $         1,087       $               1,667    $         1,210       $               1,089
  Unobligated balance not available                                           1,011                         849                395                       1,051
Total Status of Budgetary Resources                                 $        28,061       $               3,385    $        31,851       $               3,047

CHANGE IN OBLIGATED BALANCE:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1                  $          8,047      $                 125    $          9,281      $                  75
    Less: Uncollected customer payments from Federal sources,
    brought forward, October 1                                                  (312)                      (178)             (1,275)                      (174)
  Total unpaid obligated balance, net                               $          7,735      $                 (53)   $          8,006      $                 (99)
  Obligations incurred, net                                                   25,963                        869              30,246                        907
  Less: Gross outlays                                                        (24,797)                      (766)            (30,763)                      (843)
  Less: Recoveries of prior year unpaid obligations                           (1,246)                       (27)               (717)                       (14)
  Change in uncollected customer payments from Federal sources                   (10)                       (17)                963                         (4)
  Total Change in Obligated Balance                                 $          7,645      $                   6    $          7,735      $                 (53)
  Obligated balance, net, end of period:
    Unpaid obligations                                              $          7,967      $                 201    $          8,047      $                 125
    Less: Uncollected customer payments from Federal sources                    (322)                      (195)               (312)                      (178)
Total, unpaid obligated balance, net, end of period                 $          7,645      $                   6    $          7,735      $                 (53)

NET OUTLAYS:
  Gross outlays                                                     $         24,797      $                 766    $         30,763      $                 843
  Offsetting collections                                                     (14,773)                    (1,249)            (17,638)                    (1,189)
  Less: Distributed Offsetting receipts                                            -                       (353)                  -                       (464)
Net Outlays                                                         $         10,024      $                (836)   $         13,125      $                (810)

The accompanying notes are an integral part of these statements.

                                                      2008 ANNUAL REPORT
                                                              - 42 -
   COMMODITY CREDIT CORPORATION
        Notes to the Financial Statements




NOTES TO THE FINANCIAL STATEMENTS




       2008 ANNUAL REPORT
               - 43 -
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements



Note 1 - Significant Accounting Policies
Reporting Entity
The Commodity Credit Corporation (CCC or the Corporation) is a Federal corporation operating within
and through the United States Department of Agriculture (USDA). It was established to stabilize, support,
and protect farm income and prices; assist in the maintenance of balanced and adequate supplies of
agricultural commodities; and facilitate the orderly distribution of those commodities.

CCC’s statutory authority for its operations is found in the CCC Charter Act, 15 U.S.C. 714, et seq. The
Corporation is managed by a Board of Directors, subject to the general supervision and direction of the
Secretary of Agriculture, who is an ex-officio director and chairperson of the Board. The members of the
Board and the Corporation's officers are officials of USDA.

CCC operations are financed through appropriated funds, as well as an authority to borrow from the U.S.
Treasury (Treasury). The Treasury also holds capital stock in the amount of $100 million with no
obligation to repay, on which the Corporation pays interest. CCC receives direct appropriations for some
of its foreign assistance programs and special activities, such as disaster aid. Permanent indefinite
borrowing authority exists for programs subject to the Federal Credit Reform Act of 1990, as amended
(Credit Reform). Receipts flowing through CCC's related revolving fund include proceeds from the sale of
CCC commodities, loan repayments, interest income, and various program fees.

CCC has no employees or facilities. Its programs are administered through various agencies, including
USDA’s Farm Service Agency (FSA), Agricultural Marketing Service (AMS), Natural Resources
Conservation Service (NRCS), Foreign Agricultural Service (FAS), and the United States Agency for
International Development (USAID). The accompanying financial statements include an allocation, as
appropriate, of salaries and expenses (e.g., facility costs) incurred by these agencies. In other instances,
CCC reimburses the other agencies for their administrative costs.

Basis of Presentation
The Corporation’s financial statements report the financial position and results of operations of CCC
pursuant to the requirements of 31 U.S.C. 3515 (b). These statements have been prepared from the
accounting records of the Agency as of September 30, 2008 and September 30, 2007 in accordance with
generally accepted accounting principles for Federal entities and policies prescribed in the Office of
Management and Budget (OMB) Circular A-136, Financial Reporting Requirements. OMB financial
reporting guidelines require the presentation of comparative financial statements for all principal financial
statements. The statements are in addition to the external financial reports used to monitor and control
budgetary resources, which are also prepared from CCC’s general ledger. These financial statements
have been prepared for the Corporation, which is a component of the U.S. Government, a sovereign
entity.

Basis of Accounting
The accounting structure of Federal agencies is designed to reflect both accrual and budgetary
accounting transactions. Under the accrual method, revenues are recognized when earned and
expenses are recognized when a liability is incurred, without regard to receipt or payment of cash. The
budgetary accounting principles, on the other hand, are designed to recognize the obligation of funds
according to legal requirements, which in many cases is prior to the occurrence of an accrual-based
transaction. The recognition of budgetary accounting transactions is essential for compliance with legal
constraints and controls over the use of Federal funds. The financial statements include all Treasury
funds of CCC, which encompass its domestic and foreign activities. In consolidation, intra-agency
activities and balances have been eliminated, except for the Statement of Budgetary Resources (SBR),
which is presented on a combined basis as required by OMB guidance.



                                     2008 ANNUAL REPORT
                                             - 44 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
Fund Balance with Treasury
CCC disbursements are made by either checks or electronic payments posted against CCC’s account at
Treasury. Generally, disbursements and receipts for which CCC is responsible are processed by the
Federal Reserve Banks (FRBs), their branches, and the Treasury, which then report the activity to the
Corporation.

Cash
Treasury requirements for the Federal Agencies Centralized Trial Balance System (FACTS) II, used for
the preparation of Treasury and the OMB yearend reports, require that the Fund Balance with Treasury
amount reported via FACTS II be in agreement with what is reflected in Treasury’s records. To adhere to
these requirements, cash timing differences due to deposits in-transit or outstanding checks are reported
as “in-transit”. The cash balance consists of these timing differences as a result of varying processing
times and cut-off dates between CCC, Treasury, and other USDA entities.

CCC does not maintain cash in commercial bank accounts.

Accounts Receivable
Accounts receivable arise from claims to cash or other assets against other entities, either based on legal
provisions, such as payment due date, or goods or services provided.

Accounts receivable are adjusted by a valuation allowance based on historical collection, write-off
information, and other analysis, which reduces the receivables to their estimated net realizable value.

Commodity Loans
CCC makes both recourse and nonrecourse loans to producers of designated agricultural commodities.
In the case of nonrecourse loans, producers have the option to: (a) repay the principal plus interest; (b)
for certain designated commodities repay the loan at the market rate; or (c) at maturity, forfeit the
commodity in satisfaction of the loan. These loans are not subject to the accounting and reporting
requirements of Credit Reform (Note 6) because these loans are less than 12 months in duration.

Interest is accrued on the unpaid principal balance of commodity loans and is included in the reported net
commodity loans receivable balances.

Commodity loans are reported net of an allowance for doubtful accounts, which reduces the loans to their
estimated net realizable value. The allowance is based on the estimated loss on ultimate disposition,
when it is more likely than not that the loans will not be fully collected. When forfeited commodities are
subsequently disposed, any loss on the disposition is realized as either a cost of sales or donation,
depending on the type of disposition.

Tobacco Transition Payment Program (TTPP)
The American Jobs Creation Act of 2004, which included the Fair and Equitable Tobacco Reform Act (the
Law), effectively ended the tobacco loan program for CCC, which provided recourse loans to tobacco
producers or quota holders. The quota holders are the landowners of the farm where a tobacco quota
was assigned. Quota was the quantity of tobacco required to meet the national domestic needs during
the year. That national amount was allocated among all the prior year quota holders to establish the
quantity of tobacco that each individual quota holder could market during the program year.

The Law required CCC to dispose of its outstanding tobacco loan portfolio and establish contracts with
and make payments to tobacco producers and quota holders to transition from the previous price support
program to a free market. This transition period encompasses ten years and began in fiscal year (FY)
2005. The Law authorized a total maximum of $10.14 billion over the period to cover the realized losses
of $292 million related to the disposition of the tobacco loan collateral in FY 2005, making payments to

                                     2008 ANNUAL REPORT
                                             - 45 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
producers and quota holders, and other eligible expenses. CCC estimates that payments made over the
10-year period will be approximately $6.7 billion to quota holders and $2.9 billion to tobacco producers.
The total source of revenue or other financing for the program is intended to be derived from
assessments levied upon manufacturers and importers of tobacco products and collected quarterly.
Manufacturers and importers are expected to pass these costs on to consumers of tobacco products
through increased sales prices. All collections from the tobacco industry are deposited into the Tobacco
Trust Fund.

Generally, payments are made to quota holders and producers in January, which is prior to the quarterly
collection of assessments from the tobacco manufacturers and importers. Because of the difference in
timing of the collections and assessments, collections will not match disbursements on an annual basis.
The Law allows CCC’s revolving fund to make payments to the quota holders and producers, and allows
for reimbursement from the Tobacco Trust Fund. The assessments collected from the tobacco industry
are subsequently transferred to CCC’s revolving fund, reimbursing that fund for the payments made to
quota holders and producers based on approved contracts.

In FY 2005, CCC recognized a public receivable for the present value of the expected future collections
from the manufacturers and importers over the 10-year period ending in 2014. In addition, CCC
recognized an accrued liability for the present value of the remaining pay-out amount to the quota holders
and producers. Because the trust fund collections from the tobacco manufacturers and importers are
intended to fund the payments to quota holders and producers, the present value of the public receivable
and the liability were reported in equal amounts on the balance sheet in FY 2005. As actual activity
occurs each fiscal year, the receivable and accrued liability estimates are adjusted to reflect the expected
cash flows for the remaining period of the contracts, as well as the historical collection and disbursement
activity.

Credit Reform Accounting
Purposes of The Federal Credit Reform Act of 1990 (FCRA) include measuring more accurately the costs
of Federal credit programs and placing the cost of credit programs on a budgetary basis equivalent to
other Federal spending. The FCRA applies to direct loans and loan guarantees made on or after
October 1, 1991.

Direct loans are a disbursement of funds by the Government to non-Federal borrowers under contracts
that require the repayment of such funds within a certain time with or without interest. It includes the
purchase of, or participation in, a loan made by another lender and financing arrangements that defer
payment for more than 90 days. Loan guarantees represent insurance that the payment of all or part of
the principal or interest on any debt obligation of a non-Federal borrower to a non-Federal lender will be
received by the non-Federal lender. A defaulted loan guarantee occurs if the borrower fails to make a
payment pursuant to the terms of the obligation.

The cost of direct loans is accounted for on a net present value basis, at the time when the direct loan is
disbursed. It includes the cash flows of loan disbursements; repayments of principal; payments of
interest; recoveries or proceeds of asset sales; and other payments by or to the Government over the life
of the loan. The present value computation also contains effects for estimated defaults, prepayments,
fees, penalties, and any expected actions, such as the exercise by the borrower of an option included in
the loan contract.

The cost of loan guarantees is also accounted for on a net present value basis, at the time when the
guaranteed loan is disbursed. The cost includes the estimated cash flows of payments by CCC to cover
defaults and delinquencies, interest subsidies, and other requirements; and payments to CCC including
origination and other fees, penalties, and recoveries, including the effects of any expected actions by


                                     2008 ANNUAL REPORT
                                             - 46 -
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
CCC and the exercise by the guaranteed lender or the borrower of an option included in the loan
guarantee contract.

In estimating net present values, the discount rate is the average interest rate on marketable Treasury
securities of similar maturity to the cash flows of the direct loan or loan guarantee for which the estimate
is being made. When funds are obligated for a direct loan or loan guarantee, the estimated cost is based
on the current assumptions, adjusted to incorporate the terms of the loan contract.

The credit program account is the budget account into which an appropriation to cover the cost of a direct
loan or loan guarantee program is made and from which such cost is disbursed to the financing account.
The financing account is the non-budget account or accounts associated with each credit program
account that holds balances, receives the cost payment from the credit program account, and also
includes all other cash flows to and from CCC resulting from direct loan obligations or loan guarantee
commitments made on or after October 1, 1991. The liquidating account is the budget account that
includes all cash flows to and from CCC resulting from direct loan obligations or loan guarantee
commitments made prior to October 1, 1991. These accounts are shown in the Federal budget on a cash
basis.

Collections resulting from direct loans obligated or loan guarantees committed prior to October 1, 1991,
are credited to the liquidating accounts. The amounts credited are available, to the same extent that they
were available to liquidate obligations arising from such direct loans obligated or loan guarantees
committed prior to October 1, 1991, including repayment of any obligations held by the Department of
Treasury. The unobligated cash balances of such accounts that are in excess of current needs must be
transferred at least annually to the general fund of the Treasury.

Credit Program Receivables
CCC has several credit programs subject to Credit Reform requirements. Credit program receivables
consist of:

           direct credits extended under Public Law 83-480 (P.L. 480) programs;
           receivables in the Debt Reduction Fund (Refer to Note 6);
           receivables to GSM in the form of reschedule agreements;
           loans made to grain producers to build or upgrade farm storage and handling facilities;
           loans made to apple producers who incurred losses due to low market prices; and
           a loan made to the Texas Boll Weevil Eradication Foundation.

These receivables (including related interest), for both pre- and post-Credit Reform, are recognized as
assets at the present value at their estimated net cash inflows. The difference between the outstanding
principal of these receivables and the present value of their net cash inflows is recognized as an
allowance. CCC uses the Credit Subsidy Calculator 2 (CSC2) for computing the subsidy re-estimates for
its foreign Credit Reform programs. The CSC2 is an OMB tool for performing credit calculations,
incorporating both financing account interest and dollar re-estimates functionality. CCC also uses the
Treasury Credit Reform Certificate Program guidelines, Statement of Federal Financial Accounting
Standards (SFFAS) No. 2, Accounting for Direct Loans and Loan Guarantees, SFFAS No. 18,
Amendments to Accounting for Direct Loans and Loan Guarantees, and SFFAS No. 19, Technical
Amendments to Accounting for Direct Loans and Loan Guarantees for the accounting and reporting of its
loan subsidy cost re-estimation and amortization.

Capitalized Interest
Rescheduling agreements frequently allow CCC to add uncollected interest to the principal balance of
foreign credit and other foreign receivables (capitalized interest). In such circumstances, CCC records an

                                     2008 ANNUAL REPORT
                                             - 47 -
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
allowance to reduce the receivable, including the capitalized interest, to the present value of future cash
flows. Interest income is recognized only when, in management's judgment, debtors have demonstrated
the ability to repay the debt in the normal course of business.

Commodity Inventories
Commodity inventories, referred to as goods held under price support and stabilization programs in the
SFFAS No. 3, Accounting for Inventory and Related Property, issued by the Federal Accounting
Standards Advisory Board, represent commodities acquired by the Corporation for donation or price
support purposes. They are eventually sold or otherwise disposed of to help satisfy economic goals.

Inventories are initially recorded at acquisition cost plus processing and packaging costs incurred after
acquisition. Acquisition cost is the amount of the loan settlement, excluding interest, or the amount of the
purchase settlement price. Since loan rates and income support levels are established by statute,
inventory acquisitions are usually recorded at a cost higher than market value.

Generally, disposition costs are based on the average cost of the commodity in inventory at the end of the
previous month. In other cases, the cost is computed on the basis of actual (historical) cost of the
commodity. Actual cost is used with: (a) simultaneous acquisition and disposition for commodity export
programs; and (b) dispositions of commodities previously pledged as price support loan collateral, which
are acquired and simultaneously disposed of by CCC during the exchange of commodity certificates.
Commodity certificates are issued electronically by CCC, and must be immediately exchanged for a
commodity owned by the Corporation.

In accordance with SFFAS No. 3, the cost of commodity inventories sold to other Federal entities is
classified as an expense with the public since the commodities being sold are originally purchased or
otherwise acquired from a public source.

Commodity inventories are valued at net realizable value in accordance with SFFAS No. 3. Ending
inventory balances are examined at period end to determine each commodity’s market value. A valuation
allowance is recorded if the book value of a commodity exceeds its market value.

In FY 2008, CCC entered into an agreement with The Seam, a private company, to facilitate the
exchange of CCC-owned commodities for food products to be utilized in domestic and export food
programs. CCC receives Barter Delivery Obligations (BDOs) in exchange for CCC-owned commodities.
The BDOs represent the net sales proceeds (gross proceeds minus a sales commission percentage) from
The Seam’s sale of the CCC-owned commodities and The Seam uses the BDOs to acquire food products
on behalf of CCC.

For financial statement purposes, the BDOs are valued at the net sales proceeds and are presented as
part of CCC’s Commodity Inventories and Related Property. CCC recognizes gain or loss on each
exchange transaction, determined by the difference between CCC’s book value of the commodity and the
BDO value received in the exchange.

General Property and Equipment
General property and equipment purchases are recorded at the acquisition cost plus expenditures related
to placing the asset into service, such as freight, installation, and testing. Purchases of property valued at
$25,000 or more, with a useful life of 2 years or greater, are capitalized. Property and equipment is
depreciated on a straight-line basis. Automated Data Processing (ADP) computer equipment has a
service life of 5 years. There is no salvage value associated with personal property and equipment
(PP&E).



                                      2008 ANNUAL REPORT
                                              - 48 -
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
In addition, internal use software valued at $100,000 or more, with a useful life of 2 years or greater, is
capitalized. Internal use software development costs are accumulated and capitalized upon completion.
In accordance with SFFAS No. 10, Accounting for Internal Use Software, capitalized software
development costs include contractor developed software, purchased software, and internally developed
software. Capitalized internal use software costs are amortized over a periods of 5 years, beginning with
the first year the software is fully operational. Also included are costs incurred by FSA, which are
transferred to CCC without reimbursement and are reflected as software-in-development on CCC’s
financial statements until such time as the software is completed and put into operation. Once the
software is put into operation, amortization begins.

Producer Assistance Advances
Public Law 107-25 (commonly referred to as the Agricultural Economic Assistance Act) authorized three
grant programs whereby the Corporation disbursed funds to State governments for various purposes,
such as promoting agriculture and supporting activities for specialty crops. The three grant programs are
Specialty Crops - Base State Grant, Specialty Crops - Grants for Value of Production, and Commodity
Assistance Program. Disbursements are accounted for as advances on the Other Assets line of the
Balance Sheet and are recognized as expenses based on the States’ reporting of their use of the funds.

Liabilities
Depending on the type of transaction, CCC recognizes a liability in one of two ways. If an exchange
transaction occurs (i.e., receipt of goods or services in return for a promise to provide money or other
resources in the future), a liability is recognized in the period in which the exchange occurred. If a
nonexchange transaction occurs (i.e., government programs where there is a one-way flow of resources
or promises), a liability is recognized for any unpaid amounts due as of the reporting date. Liabilities not
covered by budgetary resources, disclosed in Note 9, result from the accrual of unpaid amounts due for
various CCC programs. Budgetary resources for the programs will not be made available until the
subsequent fiscal year.

Resources Payable to Treasury
Resources payable to Treasury represent the net resources of the pre-Credit Reform programs. These
net resources are held as working capital until funds are no longer needed to fund liabilities, at which time
they are returned to Treasury.

Credit Guarantee Liabilities
CCC’s Export Credit Guarantee program provides guarantees to buyers in countries where credit is
necessary to maintain or increase U.S. sales of agricultural products. CCC underwrites credit extended
by the private banking sector under the Export Credit Guarantee Program (GSM-102) and Facilities
Guarantee Program (FGP). Credit guarantee liabilities represent the estimated net cash outflows of the
guarantees on a present value basis. CCC records a liability and an allowance expense to the extent, in
management's estimate, CCC will be unable to recover claim payments under the Credit Reform Export
Credit Guarantee programs.

Imputed Costs
Imputed costs represent costs incurred from other USDA agencies for the benefit of CCC. The majority of
CCC’s programs and related expenses are delivered through the personnel and facilities of FSA. The
imputed costs consist of the costs of hired labor, opportunity costs of unpaid labor, capital recovery of
machinery and equipment, opportunity costs of land, general farm overhead, payroll taxes and insurance.

Tax Status
CCC, as a Federal agency, is not subject to Federal, State, or local income taxes, and accordingly, no
provision for income tax is necessary.


                                      2008 ANNUAL REPORT
                                              - 49 -
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
Use of Estimates
The preparation of financial statements requires management to make estimates and assumptions that
affect the reported amounts of assets, liabilities and disclosure of contingent assets and liabilities at the
date of the financial statements, and the reported amounts of revenues and expenses during the
reporting period. Actual results will invariably differ from those estimates.

Allocation Transfers and Shared Appropriations
CCC is a party to allocation transfers with other Federal agencies as both a transferring (parent) entity
and a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority
to obligate budget authority and outlay funds to another department. A separate fund account (allocation
account) is created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting
purposes. All allocation transfers of balances are credited to this account, and subsequent obligations
and outlays incurred by the child entity are charged to this allocation account as they execute the
delegated activity on behalf of the parent entity.

CCC allocates funds, as the parent, to USAID to fund P.L. 480 Title II transportation and other
administrative costs in connection with foreign donations. CCC receives allocation transfers, as the child,
from FSA. The allocation transfers from FSA are not reported in CCC’s financial statements.

CCC reports USAID’s budgetary and proprietary transactions, for which it is the parent and excludes
FSA’s budgetary and proprietary transactions, for which it is the child. As a result of the changes in
reporting requirements in FY2007, which required the Parent to report all budgetary and proprietary data,
the Cumulative Results of Operations and Unexpended Appropriation balances for these funds at
September 30, 2007 are presented on CCC’s Statement of Changes in Net Position as Changes in
Accounting Principles.

SFFAS No. 29 – Heritage Assets and Stewardship Land
Federal Accounting Standards Advisory Board (FASAB) Statement of Federal Financial Accounting
Standard (SFFAS) No. 29, Heritage Assets and Stewardship Land, was issued on July 7, 2005. The
primary purpose of the standard was to reclassify heritage asset and stewardship land information from
the Required Supplementary Stewardship Information (RSSI) to basic financial statement information,
with the exception of condition reporting, which is considered Required Supplementary Information (RSI).
SFFAS No. 29 requires this reclassification through a phased-in approach beginning in reporting periods
after September 30, 2005; with full implementation for reporting periods beginning after September 30,
2008.

Easements purchased for the Wetlands Reserve Program (WRP) are considered stewardship land. The
WRP provides technical and financial assistance to eligible landowners to restore, enhance, and protect
wetlands. This voluntary program offers landowners an opportunity to establish, at minimal cost, long-
term conservation and wildlife habitat enhancement practices and protection.

Although the funding source for the purchase of easements has changed over the life of the program, the
authority for administering and managing the program has resided with NRCS since the 1994 USDA
Reorganization Act. NRCS holds the accountability for the management, monitoring, and enforcement for
all easements purchased under the WRP.

Based on agreements, NRCS is responsible to disclose required information for all WRP easements as
stewardship land in FY 2008 and future years as long as NRCS maintains the administration,
management responsibilities, and accountability for the WRP easements.




                                      2008 ANNUAL REPORT
                                              - 50 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 1 - Significant Accounting Policies, continued
Reclassifications
Certain reclassifications have been made to the prior year amounts to conform to the current year
presentation. In the current year, CCC realigned various lines in the Reconciliation of Net Cost of
Operations to Budget footnote; and to consolidate “other” amounts in Note 6 – Credit Program
Receivables, Net; Note 12 – Other Liabilities; and, Note 14 – Accrued Liabilities.




                                     2008 ANNUAL REPORT
                                             - 51 -
                                   COMMODITY CREDIT CORPORATION
                                             Notes to the Financial Statements


Note 2 – Fund Balance with Treasury
Fund balances with Treasury, by type of fund, as of September 30 are as follows:

                                                                                            (In Millions)

                                                                                 2008                       2007

Trust Funds                                                                $              180         $                -
Special Funds                                                                              91                          -
Revolving Funds                                                                           939                       (774)
General Funds                                                                           1,825                        990

Total Fund Balance with Treasury                                           $            3,035         $              216


The status of fund balances with Treasury as of September 30 is as follows:
                                                                                            (In Millions)

                                                                                 2008                       2007

Unobligated Balance
  Available                                                                $             2,754         $            2,299
  Unavailable                                                                            1,860                      1,446
Obligated Balance not yet Disbursed                                                      7,651                      7,681
Subtotal                                                                   $            12,265         $           11,426

Borrowing Authority not yet Converted to Fund Balance                                   (9,230)                (11,210)

Total Fund Balnce with Treasury                                            $             3,035         $             216

Unobligated Balance, Unavailable represents unobligated resources not yet apportioned by OMB and
unobligated appropriations from prior years that are no longer available for new obligations. Borrowing
authority not yet converted to fund balance represents unobligated and obligated amounts recorded at
September 30, 2008 and 2007, which will be funded by future borrowings.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation,
Submission, and Execution of the Budget, of $30 billion. The Corporation’s borrowing authority is made
up of both interest and non-interest bearing notes. These notes are drawn upon daily when
disbursements exceed deposits, as reported by the Federal Reserve Banks (FRBs), their branches, the
Treasury, and CCC’s financing office.




                                          2008 ANNUAL REPORT
                                                  - 52 -
                             COMMODITY CREDIT CORPORATION
                                      Notes to the Financial Statements


Note 3 – Cash and Other Monetary Assets
As of September 30, 2008 and 2007, Cash and Other Monetary Assets were $92 million and $0,
respectively. The balance reflects “in transit” amounts that have not been cleared by Treasury. These
timing differences result from varying processing times and cut-off dates between CCC and Treasury.




                                    2008 ANNUAL REPORT
                                            - 53 -
                                  COMMODITY CREDIT CORPORATION
                                               Notes to the Financial Statements


Note 4 – Accounts Receivable, Net
Accounts receivable as of September 30 are as follows:
                                                                                             (In Millions)

                                                                                   2008                      2007
Intragovernmental:
   Due from the Department of Treasury                                       $               6         $              12
   Due from the Department of Transportation                                                92                       200
   Due from Other Federal Agencies                                                          27                        31

Total Intragovernmental Accounts Receivable, Net                             $             125         $             243

Public:
  Claims Receivable                                                          $               35        $               50
  Notes Receivable                                                                            7                         7
  Interest Receivable                                                                         2                         3
  TTPP Receivable                                                                         5,603                     5,861
  Other                                                                                      26                        30
Subtotal                                                                     $            5,673        $            5,951

Less: Allowances for Doubtful Accounts                                                       (6)                      (20)

Total Public Accounts Receivable, Net                                        $            5,667        $            5,931


CCC records a receivable due from the Department of Treasury. The receivable is related to the
collection of credit subsidy for the Debt Reduction Fund. Since this program is pre-credit reform, it does
not have a program fund account and CCC records a separate receivable to capture the transaction with
Treasury.

The Cargo Preference provisions of the Food Security Act of 1985 mandated a gradual increase in the
share of particular exports, mostly food aid that must be carried on U.S. flagged vessels. The Food
Security Act and Section 901d (b) of the Merchant Marine Act, 1938 (the Act), provide for the
reimbursement of certain transportation costs the Corporation incurs. In accordance with these Acts,
CCC establishes a receivable from the Department of Transportation for freight costs paid to U.S. flagged
vessels exceeding 20 percent of the total cost related to the donated commodities and freight costs if
CCC were to use a commercial vessel.

Other public receivables consist of amounts due as a result of program overpayments or dishonored
checks. Examples of CCC programs include Crop Disaster Assistance, Conservation Reserve Program,
and Direct and Counter-Cyclical Payments.

As of September 30, 2008, the Public Tobacco Transition Payment Program (TTPP) receivable balance
of $5,603 million includes $309 million as a short-term receivable. As of September 30, 2007 the Public
TTPP receivable balance of $5,861 million included $482 million as a short-term receivable. Refer to
Note 1, under Tobacco Transition Payment Program, for additional information.




                                          2008 ANNUAL REPORT
                                                  - 54 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 5 – Commodity Loans, Net
Commodity loans receivable, by commodity, as of September 30 are as follows:

                                                                                   (In Millions)

                                                                           2008                    2007
Cotton                                                               $            369        $            145
Dry Whole Peas                                                                      1                       3
Feed Grains:
  Barley                                                                            4                       6
  Corn                                                                             92                     208
  Grain Sorghum                                                                     2                       1
  Oats                                                                              1                       1
Honey                                                                               3                       5
Oilseeds                                                                            -                       3
Peanuts                                                                            16                      11
Rice                                                                               37                     147
Soybeans                                                                           11                     107
Sugar                                                                               -                      35
Wheat                                                                              94                      72

Total Commodity Loans                                                $            630        $            744

Accrued Interest Receivable                                                       13                      15

Total Commodity Loans, Net                                           $            643        $            759


In FY 2008, Cotton Loans increased by $224 million. This increase is related to additional loans
disbursed for upland cotton. This correlates to an increase in the Adjusted World Price for upland cotton.
There were no allowances for losses as of September 30, 2008 and 2007 due to market prices that were
higher than the price support level. Refer to Note 1, under Commodity Loans, for additional information.




                                     2008 ANNUAL REPORT
                                             - 55 -
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 6 – Credit Program Receivables, Net
CCC’s foreign and domestic aid programs provide economic stimulus to both the U.S. and foreign
markets, while also providing humanitarian assistance to the people most in need throughout the world,
through both credit guarantee and direct credit programs.

Direct credit and loan obligations and credit guarantee commitments made after FY 1991, and the
resulting direct credits and loans or credit guarantees, are governed by the Federal Credit Reform Act
of 1990, as amended. Credit Reform requires agencies to estimate for the President’s Budget the cost of
direct credits and loans, and credit guarantees at the present value of future cash flows. Additionally, the
present value of the subsidy costs (i.e., interest rate differentials, interest subsidies, delinquencies and
defaults, fee offsets and other cash flows) associated with direct credits and loans, and credit guarantees
are recognized as a cost in the year the direct credit and loan or credit guarantee is disbursed. The net
present value of direct credits and loans and defaulted guarantee receivables at any point in time is the
amount of the gross direct credit and loan receivable and defaulted guarantees receivable less the
present value of the subsidy at that time.

Net credit program receivables, or the value of assets related to direct credits and loans, and the
defaulted credit guarantees, are not the same as the proceeds that would be expected to be received
from selling the credits/loans.

Descriptions of CCC’s direct credit and loan programs and credit guarantee programs are presented
below.

Credit Guarantee Programs

CCC’s Export Credit Guarantee programs encourage exports of U.S. agricultural products to buyers in
countries where credit is necessary to maintain or increase U.S. sales, but where financing may not be
available without such credit guarantees. The Corporation underwrites credit extended by the private
banking sector in the U.S. (or, less commonly, by the exporter) under the GSM-102 (credit terms up to
three years) and GSM-103 (credit terms up to 10 years) programs. Under these programs, CCC does not
provide financing, but guarantees payments due from foreign banks. Typically, 98 percent of principal
and a portion of interest at an adjustable rate are covered. All guarantees under these programs are
denominated in U.S. dollars. There have been no guarantees under the GSM-103 program since FY
2003.

Under the Supplier Credit Guarantee Program (SCGP), CCC guarantees a portion of payments due
under short-term financing arrangements (up to 180 days) that exporters have extended directly to the
importers for the purchase of U.S. agricultural products. All guarantees under this program are
denominated in U.S. dollars. There have been no guarantees under the SCGP program since FY 2005.

In the event that CCC pays a claim under the guarantee programs, CCC assumes the debt and treats it
as a credit receivable for accounting and collection purposes.

Direct Credit Programs – Foreign

Under the P.L. 480 Title I Program, CCC finances the sales of U.S. agricultural commodities to countries
in need of food assistance on favorable credit terms (at low rates of interest for up to 30 years with grace
periods of up to 7 years). P.L. 480 Title I provides for government-to-government (and some
government-to-private entity) sales of U.S. agricultural commodities to developing countries on credit
terms or for local currencies. Priority is given to countries with the greatest need for food that are
undertaking economic development to improve food security and agricultural development, alleviate
poverty, and promote broad based, equitable and sustainable development. All credits under this
program are denominated in U.S. dollars.

                                     2008 ANNUAL REPORT
                                             - 56 -
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
The Food for Progress Program provides for a responsive food aid mechanism to encourage and support
the expansion of private enterprise in recipient countries and is meant to help countries seeking to
implement democratic and market reforms.

Paris Club

CCC permits debtor nations to reschedule debt under the aegis of the Paris Club. The Paris Club is an
internationally recognized organization whose sole purpose is to address, on a case-by-case basis,
liquidity problems faced by some of the world’s most economically disadvantaged countries. While the
Paris Club has no charter or formal operating procedures, it has been operating since 1978 under the
leadership of the French Ministry of Economics and Finance. The general premise of the Paris Club’s
activities is to provide disadvantaged countries with short-term liquidity relief to enable them to re-
establish their credit worthiness. The Departments of State and Treasury lead the U.S. delegation and
negotiations for all U.S. agencies. Only country-to-country debt is considered. For CCC, this includes
P.L. 480 direct credits as well as claims paid under the GSM programs for which a sovereign entity is
liable.

The Departments of State and Treasury may also negotiate bi-lateral agreements with sovereign debtors
for debt not qualifying for treatment by the Paris Club.

The Debt Reduction Fund is used to account for modified debt that is reduced or forgiven. Debt is
considered to have been modified if the terms of the original agreement are altered. This includes but is
not limited to original debt that has been reduced or for which the interest rate of the agreement has been
changed. In contrast, when debt is rescheduled, only the date of payment is changed. Rescheduled debt
is carried in the fund of its origination until paid, as are other modifications that do not actually reduce the
debt.

Direct Credit Programs – Domestic

The Farm Storage Facility Loan (FSFL) Program was implemented to provide low cost financing for
producers to build or upgrade on-farm commodity storage and handling facilities. The loans have a term
of 7 years with a requirement of annual repayment installments. Interest on these loans is accrued
monthly from the date of disbursement. The borrower’s rate is established to be equivalent to the rate of
interest charged on the Treasury securities of comparable maturity.

The Boll Weevil Program made available to the Texas Boll Weevil Eradication Foundation an interest-free
$10 million loan to be repaid over 10 years.

The Apple Loan Program provided loans to apple producers who suffered hardships due to low prices
following the 1998 - 1999 growing season when apple prices fell to their lowest levels in nearly 10 years.
Eligible applicants obtained loans up to $300 per acre of apple trees in production in 1999 or 2000, up to
a maximum indebtedness of $500,000. The Apple Loan Program was not funded in FY 2008 or 2007.

Economic Factors and Outlook Affecting Subsidy Reestimates

The foreign credit subsidy reestimates are affected by four basic components:

            cash flow data (disbursements, collections including fees, original subsidy and scheduled
             future payments),
            interest rates,
            defaults, and


                                      2008 ANNUAL REPORT
                                              - 57 -
                               COMMODITY CREDIT CORPORATION
                                         Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
           Inter-Agency Credit Risk Assessment System (ICRAS) country risk evaluation and rating for
            international programs only.

Cash flow data may be modified to reflect pending reschedulings. Otherwise, the reestimate process is
such that these elements permit little discretionary change by CCC. The interest rates used in the
reestimate are developed and published by Treasury for use government-wide. OMB provides the default
calculation methodology. ICRAS ratings are a product of the Inter-Agency Risk Assessment Committee
and their use is required by OMB.

After analyzing foreign credits government-wide, in FY 2007 OMB determined that actual performance on
foreign credits was better than had been previously forecasted and, therefore, mandated a change to the
default calculation methodology. This was a contributor to the significant downward subsidy reestimates
for CCC’s foreign Credit Reform programs at the end of FY 2007. Net downward reestimates were
$387 million and $185 million for the fiscal years ended September 30, 2008 and 2007, respectively.
However, other factors contributed to the FY 2008 reestimates.

Sovereign and non-sovereign lending risks are regularly analyzed and sorted into one of eleven risk
categories in a manner similar to ratings generated by private rating agencies, such as Standard & Poors
and Moody’s. Each of the eleven risk categories is associated with a default estimate. The average
spread between the yield to maturity of dollar denominated bonds of like-rated sovereigns and
comparable maturity Treasuries was used to generate the default estimate for each rating.

Changes in Economic Conditions Having Measurable Effects Upon Subsidy Rates and
Reestimates

Current world events and government initiatives have a major impact upon CCC’s foreign receivables.
For example, the U.S. is currently considering forgiveness or reduction of debt to poor countries under the
Paris Club's Heavily Indebted Poor Countries (HIPC) Initiative. Discussions are currently in progress
with a number of countries which, if successful, may affect CCC. These countries include: Afghanistan,
the Republic of Congo, Guinea, the Democratic Republic of the Congo, Liberia, and Cote D’Ivoire.

With passage of the Food, Conservation, and Energy Act of 2008, the 1 percent cap on GSM loan
guarantee fees was lifted. A revised fee structure may lead to reduction in future subsidy rates for the
GSM 102 program.

Other than as stated above, CCC is unaware of any measurable events or pending legislation at this time
that may affect subsidy rates and reestimates in the future.

Interest Income on Direct Credits and Credit Guarantees

Interest is accrued monthly on both performing and non-performing direct credits and credit guarantee
receivables as it is earned using simple interest calculations based upon a 365-day year. A non-
performing direct credit or credit guarantee receivable is defined as a repayment scheduled under a credit
agreement, with an installment payment in arrears more than 90 days. For those non-performing
receivables, interest is not recognized as income; rather, it is deferred until the interest is received or the
receivable is returned to performing status.

Based on the Federal Credit Reform Act of 1990 and SFFAS No. 2, Accounting for Direct Loans and
Loan Guarantees, all credit reform loans initiated after September 30, 1991 need to be presented on a
present value basis. For loans initiated before FY 1992 (Pre-1992), restatement of loan value on a
present value basis is permitted but not required. Since CCC elected to restate the Pre-1992 loan
receivables from nominal value to net present value starting in 2001, the accounting treatment, including

                                      2008 ANNUAL REPORT
                                              - 58 -
                                   COMMODITY CREDIT CORPORATION
                                            Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
revenue recognition and subsidy allowance calculation, has been applied consistently to Pre-1992 and
Post-1991 Direct Loan and Loan Guarantee programs. For Pre-1992 and Post-1991 loan interest
receivable, the portion related to non-performing loans is deferred and presented net of the loan
receivable line item in the balance sheet.

A summary of CCC’s net credit program receivables as of September 30, 2008 and 2007 is as follows:

                                                                                          (In Millions)

                                                                                 2008                      2007
Direct Credit and Loan Programs:
  Pre-1992:
    P.L. 480 Title I                                                    $               2,986      $              2,870

  Post-1991:
    P.L. 480 Title I                                                                     781                      1,108
    Debt Reduction Fund                                                                   99                        147
    Farm Storage Facility                                                                361                        245

Defaulted Credit Guarantees:
  Pre-1992 Export Credit Guarantees                                                       48                        240
  Post-1991 Export Credit Guarantees                                                     437                        532

Total Credit Program Receivables, Net                                   $               4,712      $              5,142


P.L. 480, Title I direct credits outstanding that were obligated prior to FY 1992 and related interest
receivable as of September 30, 2008 and 2007 are as follows:

                                                                       (In Millions)

                                                                                     Allowances
                                     Credit                 Interest              for Uncollectible          Credit Program
 2008:                          Receivable, Gross       Receivable, Gross             Accounts              Receivables, Net
 P.L. 480 Title I              $             4,813     $              121       $            (1,948)      $             2,986



                                                                       (In Millions)

                                                                                     Allowances
                                     Credit                 Interest              for Uncollectible          Credit Program
 2007:                          Receivable, Gross       Receivable, Gross             Accounts              Receivables, Net
 P.L. 480 Title I              $             5,204     $               62       $            (2,396)      $             2,870




                                         2008 ANNUAL REPORT
                                                 - 59 -
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
P.L. 480 direct credits and direct loans for FSFL, Boll Weevil, and Apple Loans that were obligated after
FY 1991 and related interest receivable outstanding as of September 30, 2008 and 2007 are as follows:

                                                                   (In Millions)

                                                                                   Allowances
                                 Credit                Interest                 for Uncollectible          Credit Program
 2008:                      Receivable, Gross      Receivable, Gross                Accounts              Receivables, Net

 P.L. 480 Title I          $            1,479     $                20       $                 (718)                    781
 Debt Reduction Fund                      358                      58                         (317)                     99
 Farm Storage Facility                    363                      30                          (32)                    361
 Boll Weevil Program                       10                       -                          (10)                      -

 Total                     $            2,210     $               108       $               (1,077)   $              1,241


                                                                   (In Millions)

                                                                                   Allowances
                                 Credit                Interest                 for Uncollectible          Credit Program
 2007:                      Receivable, Gross      Receivable, Gross                Accounts              Receivables, Net

 P.L. 480 Title I          $            1,986      $                30      $                 (908)   $               1,108
 Debt Reduction Fund                      428                        3                        (284)                     147
 Farm Storage Facility                    304                       27                         (86)                     245
 Boll Weevil Program                       10                        -                         (10)                       -

 Total                     $            2,728      $                60      $               (1,288)   $               1,500




                                     2008 ANNUAL REPORT
                                             - 60 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
Defaults on credit guarantees made prior to FY 1992 and related interest receivable as of
September 30, 2008 and 2007 are as follows:

                                                                 (In Millions)

                                                                                  Allowances
                                Credit                Interest                 for Uncollectible          Credit Program
 2008:                     Receivable, Gross      Receivable, Gross                Accounts              Receivables, Net

 Export Credit
 Guarantee Programs       $              136     $                 1       $                  (90)   $                 48


                                                                 (In Millions)

                                                                                  Allowances
                                Credit                Interest                 for Uncollectible          Credit Program
 2007:                     Receivable, Gross      Receivable, Gross                Accounts              Receivables, Net

 Export Credit
 Guarantee Programs       $              349     $                 5       $                 (114)   $                240


Defaults on credit guarantees made after FY 1991 and related interest receivable as of
September 30, 2008 and 2007 are as follows:

                                                                 (In Millions)

                                                                                  Allowances
                                Credit                Interest                 for Uncollectible          Credit Program
 2008:                     Receivable, Gross      Receivable, Gross                Accounts              Receivables, Net

 Export Credit
 Guarantee Programs       $              615     $                 7       $                (185)    $                437


                                                                 (In Millions)

                                                                                  Allowances
                                Credit                Interest                 for Uncollectible          Credit Program
 2007:                     Receivable, Gross      Receivable, Gross                Accounts              Receivables, Net

 Export Credit
 Guarantee Programs       $              630     $                16       $                 (114)   $                532




                                     2008 ANNUAL REPORT
                                             - 61 -
                                   COMMODITY CREDIT CORPORATION
                                           Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
The changes in the subsidy allowance for outstanding direct credits and loans that were obligated after
FY 1991 as of September 30, 2008 and 2007 are as follows:

                                                                                        (In Millions)

                                                                               2008                     2007

Subsidy Allowance - Beginning of Fiscal Year                           $              1,288      $             1,329
Subsidy Expense for Current Year Disbursements:
  Interest Rate Differential                                                             9                         4
  Default Costs (Net of Recoveries)                                                      9                         9
  Other Subsidy Costs                                                                   (6)                       (8)
Total Subsidy Expense                                                  $                12       $                 5

Adjustments:
  Subsidy Allowance Amortization                                                         54                       16
  Loans Written Off / Forgiven                                                          (22)                      (4)
  Other                                                                                 149                      (31)
Balance Before Reestimates                                             $              1,481      $             1,315

Subsidy Reestimates:
  Interest Rate Reestimate                                             $               (194)     $               (25)
  Technical/Default Reestimates                                                        (210)                      (2)
Total Subsidy Reestimates                                              $               (404)     $               (27)

Subsidy Allowance - End of Fiscal Year                                 $              1,077      $             1,288




                                         2008 ANNUAL REPORT
                                                 - 62 -
                                                COMMODITY CREDIT CORPORATION
                                                                Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
For the fiscal years ended September 30, 2008 and 2007 subsidy expenses for the current year
disbursements of post-1991 direct credits and loans and subsidy reestimates are as follows:

                                                                                                (In Millions)


2008:                       Subsidy Expense for New Direct Loans Disbursed                                                    Reestimates



                         Interest                                                                         Interest                                                Grand
                                                 Defaults             Other               Total                               Technical            Total
                        Differential                                                                        Rate                                                  Total


P.L. 480 Title I        $               9        $         2      $           -       $         11        $       (181)       $       (163)    $      (344)   $     (333)
Farm Storage Facility                   -                  7                 (6)                  1                (13)                (47)            (60)           (59)


Total                   $               9        $         9      $          (6)      $         12        $       (194)       $       (210)    $      (404)   $     (392)




                                                                                                (In Millions)


2007:                        Subsidy Expense for New Direct Loans Disbursed                                                   Reestimates


                             Interest                                                                         Interest                                            Grand
                            Differential             Defaults             Other               Total               Rate            Technical        Total          Total


P.L. 480 Title I        $               4        $          1         $           -       $           5       $      (28)         $     (12)   $      (40)    $      (35)
Farm Storage Facility                       -               8                 (8)                     -                   3              10            13             13


Total                   $               4        $          9         $       (8)         $           5       $      (25)         $      (2)   $      (27)    $      (22)



Subsidy reestimates are calculated on cumulative disbursements for all budget fiscal years and the
respective cohorts (direct loan/guarantee origination year) that comprise them.




                                                          2008 ANNUAL REPORT
                                                                  - 63 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
For the fiscal years ended September 30, 2008 and 2007, current and prior year disbursements of
post-1991 direct credits and loans are as follows:

                                                                                       (In Millions)

                                                                                                                  Curent Year
                                                                                                                  Over (Under)
                                                            2008                          2007                     Prior Year

 P.L. 480 Title I                                  $                20          $                        9    $                    11
 Farm Storage Facility                                             135                                 113                         22

 Total                                             $               155          $                      122    $                    33


As of September 30, 2008 and 2007, post-1991 credit guarantees outstanding are as follows:

                                                                       (In Millions)

                                            Face Value                                                 Guaranteed*
 2008:                         Post-1991                  Post-1991                     Post-1991                     Post-1991
                              Outstanding                Outstanding                   Outstanding                   Outstanding
                                Principal                  Interest                      Principal                     Interest
 Export Credit
 Guarantee Programs       $            3,918       $               166          $                 3,829       $                    66


                                                                       (In Millions)

                                            Face Value                                                 Guaranteed*
 2007:                         Post-1991                  Post-1991                     Post-1991                     Post-1991
                              Outstanding                Outstanding                   Outstanding                   Outstanding
                                Principal                  Interest                      Principal                     Interest
 Export Credit
 Guarantee Programs       $            2,371       $               170          $                 2,312       $                    70



* Outstanding principal and interest guaranteed represents a contingent liability for amounts owed by
foreign banks to exporters or assignee U.S. financial institutions participating in the program.




                                     2008 ANNUAL REPORT
                                             - 64 -
                                    COMMODITY CREDIT CORPORATION
                                                  Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
The change in the liability for post-1991 credit guarantees as of September 30, 2008 and 2007 is as
follows:

                                                                                             (In Millions)

                                                                                      2008                   2007

Credit Guarantee Liability - Beginning of Fiscal Year                         $              184      $             220
Subsidy Expense for Current Year Disbursements:
  Default Costs (Net of Recoveries)                                                           58                     48
  Fees and Other Collections                                                                 (10)                    (6)
Total Subsidy Expense                                                         $               48      $              42

Adjustments:
  Loan Modifications                                                                         (91)                     -
  Fees Received                                                                               22                     10
  Claim Payments to Lenders                                                                    1                     (8)
  Other                                                                                       40                    309

Balance Before Reestimates                                                    $              204      $             573

Subsidy Reestimates:
  Interest Rate Reestimate                                                    $               (5)     $              (95)
  Technical/Default Reestimates                                                              (38)                   (294)
Total Subsidy Reestimates                                                     $              (43)     $             (389)

Credit Guarantee Liability - End of Fiscal Year                               $              161      $             184




                                             2008 ANNUAL REPORT
                                                     - 65 -
                                         COMMODITY CREDIT CORPORATION
                                                       Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
Subsidy expenses, net of fees and other collections, for current year disbursements related to credit
guarantees made after FY 1991, and subsidy reestimates for the fiscal years ended September 30, 2008
and 2007 are as follows:

                                                                                (In Millions)


2008:                     Subsidy Expense for New Direct Loans Disbursed                                     Reestimates
                                                          Fees and
                          Interest                            Other                         Interest                                             Grand
                      Supplement            Defaults       Collect.           Total             Rate             Technical        Total          Total
Export Credit
 Guarantee Programs   $              -     $     58       $      (10)     $       48      $            (5)       $     (38)   $      (43)    $           5




                                                                                (In Millions)


2007:                     Subsidy Expense for New Direct Loans Disbursed                                     Reestimates
                                                          Fees and
                          Interest                            Other                         Interest                                             Grand
                      Supplement            Defaults       Collect.           Total             Rate             Technical        Total          Total
Export Credit
 Guarantee Programs   $              -     $     48       $       (6)     $       42      $        (95)          $    (294)   $     (389)    $       (347)



Subsidy reestimates are calculated on cumulative disbursements for all cohorts.

For the fiscal years ended September 30, 2008 and 2007 current and prior year credit guarantee
disbursements are as follows:

                                                                                              (In Millions)

                                                              2008                                                                        2007
                                         Outstanding                      Outstanding                                Outstanding                     Outstanding
                                          Principal,                       Interest,                                  Principal,                      Interest,
                                         Face Value                       Guaranteed                                 Face Value                      Guaranteed
Export Credit
Guarantee Programs              $                  1,907              $                 1,909                $                1,086              $            1,037


Administrative expenses on direct credit and loan programs were $3 million for each of the fiscal years
ended September 30, 2008 and 2007. Administrative expenses for the credit guarantee programs were
$5 million for each of the fiscal years ended September 30, 2008 and 2007.




                                                 2008 ANNUAL REPORT
                                                         - 66 -
                               COMMODITY CREDIT CORPORATION
                                               Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
FY 2008 and 2007 subsidy rates (percentage) for direct credits and loans are as follows:


                                                                                     Fees
2008:                           Interest                                           and Other
                               Differential               Defaults                 Collections                     Total

Farm Storage Facility                   0.02                          1.10                   (0.11)                            1.01
Sugar Storage Facility Loans            0.36                          0.62                       -                             0.98



                                                                               Fees
2007:                            Interest                                    and Other
                                Differential             Defaults            Collections              Other           Total

Farm Storage Facility                     0.03                 7.27                 (0.11)                (6.81)             0.38
Sugar Storage Facility Loans              0.63                 7.40                     -                (10.74)           (2.71)



For the fiscal years ended 2008 and 2007, there were no apportionments for P.L. 480 and thus no
subsidy rate was provided. The Apple Loan Program is a one year program, cohort 2001.

FY 2008 and 2007 subsidy rates (percentage) for credit guarantee programs are as follows:

                                                                                                   Fees
2008:                                                                                            and Other
                                                                             Defaults            Collections           Total
 Export Credit
 Guarantee Programs                                                                 2.96                  (0.57)               2.39


                                                                                                   Fees
2007:                                                                                            and Other
                                                                             Defaults            Collections           Total
 Export Credit
 Guarantee Programs                                                                 5.24                  (0.76)               4.48



Subsidy rates are used to compute each year’s subsidy expenses as disclosed above. The subsidy rates
disclosed pertain only to the current year’s cohort. These rates cannot be applied to the direct credits and
loans and credit guarantees disbursed during the current reporting year to yield the subsidy expense.
The subsidy expense for new direct credits and loans and credit guarantees reported in the current year
could result from disbursements from both current year and prior year(s) cohorts. The subsidy expense
reported in the current year also includes modifications and reestimates.




                                         2008 ANNUAL REPORT
                                                 - 67 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
The principal balance of CCC direct credit and credit guarantee receivables, in a non-performing status,
totaled $1.2 billion for the fiscal years ended September 30, 2008 and 2007; compared to a total principal
balance (performing and non-performing) of $8 billion and $8.9 billion at September 30, 2008 and 2007,
respectively. If interest had been reported on these non-performing receivables, instead of reported only
to the extent of the collections received, direct credit and credit guarantee interest income would have
increased by $47 million from a total of $40 million in FY 2008, and increased by $40 million from a total
of $240 million reported in FY 2007. During the entire delinquency period, if interest had been reported
on these non-performing receivables, instead of reported only to the extent of the collections received,
interest income would have increased to $998 million and $950 million through September 30, 2008 and
2007, respectively.

Direct credit and credit guarantee principal receivables under rescheduling agreements as of
September 30, 2008 and 2007, were $3.1 billion and $3.4 billion, respectively.

During FY 2008, there were no new Paris Club agreements to reschedule P.L. 480 debt or GSM debt.
Additionally, no claims on refinancing agreements entered into force in FY 2008. An agreement is
considered to have “entered into force” when all agreed upon domestic prerequisite conditions have been
satisfied by the debtor.

Other Significant Events

In October 2007, CCC received P.L. 480 prepayments of $378 million from Russia. For the GSM
program, a modification was apportioned and recorded in FY 2008 to reflect the impact of the Algeria
prepayment. Based on OMB guidance, it was determined that the prepayment was a modification since it
was not specifically allowed by the terms of the original agreement. The modification resulted in a
savings to the government of $89 million, and a modification adjustment transfer of $3 million was also
returned to Treasury.

Changes in the Export Credit Guarantee Programs

As the result of actions by the World Trade Organization (WTO) with respect to farm subsidies and fair
trade practice, USDA implemented new guarantee fee rates in FY 2006 under CCC’s Export Credit
Guarantee Program (GSM-102) and SCGP. The new fee rates utilize a risk-based structure based on a
country risk scale, as well as different repayment terms. USDA has decided not to conduct business in
those countries that are or become rated below a predetermined risk threshold. As a result, significant
declines in programming levels were noted in FY 2006 and FY 2007. However, FY 2008 saw a
resurgence in demand and due to changing world economic conditions, it is anticipated that this trend will
continue through FY 2009. There was no SCGP program in FY 2008.

P.L. 480 Title I Direct Credit Trend Analysis
Reestimates

The ICRAS ratings and associated default rates directly impact reestimate calculations for international
programs. ICRAS country risk ratings are developed by an Inter-Agency task force to reflect government-
wide experience with debtor countries. These ratings, which are provided annually by OMB, are used for
reestimates government-wide and may not reflect USDA’s specific experience with a given country.
Similarly, ICRAS default rates are provided annually by OMB and also reflect government-wide
experience.




                                    2008 ANNUAL REPORT
                                            - 68 -
                                COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
The P.L. 480 program had a large downward reestimate for FY 2008. The upward reestimate totals $3.9
million and the downward reestimate totals $347.9 million, for a net downward reestimate of $344 million.
This is comprised of $163 million in technical reestimate and $181 million in interest on the reestimate.

The largest single factor in the reestimate was a $378 million prepayment by Russia, which resulted in a
$224 million downward reestimate for the 1999 cohort alone. The 1992 through 1998 cohorts had a
combined downward reestimate of $119.6 million. Projected defaults also declined. On a nominal basis,
projected defaults from FY 2009 through the remainder of the loan program totaled $581 million at the
end of FY 2007. Based on the FY 2008 default rates, projected defaults for the same period now total
$530 million, a reduction of $51 million. Across all cohorts, actual defaults that occurred in FY 2008 were
around $20 million less than anticipated at the end of FY 2007.

Components of the FY 2008 P.L. 480 reestimate are as follows:


                                                 FY 2008 Reestimate
                                                     (In Millions)
                     Cohort      Reestimate   Interest on Reestimate FAI adjustment Total Reestimate
                      1992 $            (5)   $                    (11)          - $            (16)
                      1993             (10)                        (19)          -              (29)
                      1994              (5)                        (10)          -              (15)
                      1995              (7)                        (10)          -              (17)
                      1996              (5)                         (7)          -              (12)
                      1997              (6)                         (6)          -              (12)
                      1998              (9)                         (8)          -              (17)
                      1999            (116)                        (95)        (14)            (225)
                      2000              (2)                         (1)          1               (2)
                      2001               1                           1           -                2
                      2002              (1)                         (1)         (1)              (3)
                      2003               1                           -           -                1
                      2005               1                           -           -                1
                      Total $         (163)   $                  (167) $       (14) $          (344)


Trend Analysis – General Sales Manager (GSM) Export Credit Guarantee Program

Revised recovery rates were developed for the GSM programs during FY 2007. OMB directed agencies
to produce program specific recovery rates to be used in conjunction with OMB’s gross default rates to
produce net default rates. Therefore, the revised rates utilize GSM program specific historical data. The
data demonstrates that, once an agreement is rescheduled under GSM 102, countries have consistently
met their commitments in full. Arrears on GSM 102 rescheduled agreements are insignificant.

Export Credit Guarantee Program (GSM 102)

For the Export Credit Guarantee programs (GSM 102, GSM 103 and Supplier Credit), the only significant
reestimate was for the GSM 102 program. There was a downward reestimate for GSM 102 at the end of
FY 2008 of $46.3 million. The downward reestimate of $58.8 million was offset by an upward reestimate
of $12.5 million. The total reestimate is comprised of a $43.4 million technical reestimate and $2.9 million
in interest on the reestimate.



                                     2008 ANNUAL REPORT
                                             - 69 -
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
The major contributor to the downward reestimate is in cohorts 2005 through 2007. These changes are
due in large part to projected defaults in FY 2008 which did not occur. On a nominal basis, projected
defaults for FY 2008 totaled $24.6 million at the end of FY 2007, none of which actually happened. In
addition, for the FY 2008 cohort, projected defaults decreased by 35 percent, contributing to the large
downward reestimate for the 2008 cohort.

Components of the FY 2008 Export Credit Guarantee Program reestimate are as follows:

                                               FY 2008 Reestimate
                                                    (In Millions)
                 Cohort    Reestimate   Interest on Reestimate FAI Adjustment Total Reestimate
                   1992 $         (1)    $                    (1)           - $             (2)
                   1993           (1)                         (1)           -               (2)
                   1996            1                           1            -                2
                   1997            2                           2            -                4
                   1998            1                           1            -                2
                   2001            4                           2            -                6
                   2004            -                           -           (1)              (1)
                   2005          (10)                         (2)           1              (11)
                   2006           (6)                         (1)          (2)              (9)
                   2007          (13)                         (1)          (1)             (15)
                   2008          (20)                         (1)           -              (21)
                   Total $       (43)    $                    (1) $        (3) $           (47)


GSM 103 and Supplier Credit Guarantee Programs

For GSM 103, the FY 2008 reestimate was negligible (approximately $0.5 million for all cohorts). For
Supplier Credit, the overall reestimate was $2.5 million, comprised of a $5.5 million technical reestimate
and a reduction of $3 million of interest on the reestimate. Changes are due to differences in both actual
and projected amounts. The major contributor to the upward reestimate was the 2004 cohort which had a
$7.5 million upward technical reestimate. The FY 2007 Supplier Credit reestimate projected a recovery of
$6.9 million in FY 2008, of which only $1.4 million was received. In addition, projected recoveries for
FY 2009 and beyond decreased by approximately $1 million.

Trend Analysis - Farm Storage Facility Loan Reestimate

For the Farm Storage program, there was a significant downward reestimate for cohorts 2000 through
2007. The downward reestimate of $61.2 million was offset by an upward reestimate for the 2008 cohort
of $1.8 million for a total reestimate of $59.4 million. The total reestimate is comprised of a $46.8 million
technical reestimate and $12.6 million in interest on the reestimate.

The reestimate for FY 2008 adjusts cashflows for differences between actual and projected amounts, as
well as changes in technical assumptions about future performance. The current reestimate brings
amounts in the financing account in line with future expectations of very low defaults in the Farm Storage
program, resulting in downward reestimates in all except the most recent cohort.




                                      2008 ANNUAL REPORT
                                              - 70 -
                            COMMODITY CREDIT CORPORATION
                                      Notes to the Financial Statements


Note 6 - Credit Program Receivables, Net, continued
Components of the Farm Storage FY 2008 reestimate are as follows:

                                             FY 2008 Reestimate
                                                  (In Millions)
               Cohort    Reestimate   Interest on Reestimate FAI Adjustment Total Reestimate
                 2000           (2)                         (1)          (3)              (6)
                 2001          (10)                         (4)           2              (12)
                 2002           (7)                         (2)           1               (8)
                 2003           (6)                         (1)           -               (7)
                 2004           (5)                         (1)           -               (6)
                 2005           (6)                         (1)          (1)              (8)
                 2006           (8)                         (1)           -               (9)
                 2007           (5)                          -            -               (5)
                 2008            2                          (1)           -                1
                 Total $       (47)    $                   (12) $        (1) $           (60)




                                  2008 ANNUAL REPORT
                                          - 71 -
                                    COMMODITY CREDIT CORPORATION
                                              Notes to the Financial Statements


Note 7 – Commodity Inventories and Related Property, Net
Inventory and related property activity as of September 30 are as follows:
                                                                                             (In Millions)

                                                                                  2008                       2007

Commodity Inventories - Beginning of Fiscal Year                           $                185        $               226
Acquisitions                                                                              1,126                      5,468
Cost of Sales                                                                              (126)                    (4,736)
Donations                                                                                (1,220)                      (773)
Other Dispositions, Additions and Deductions                                                 46                          -

Commodity Inventories - End of Fiscal Year                                 $                11         $              185

Barter Delivery Obligations (BDO)                                          $                  4                          -

Commodity Inventories and Related Property, Net                            $                15         $              185




Commodity loan forfeitures included in the acquisitions line item were $8 million and $77 million for the
fiscal years ended September 30, 2008 and 2007, respectively. As a result of high commodity market
prices for fiscal years ended 2008 and 2007, an inventory allowance was not recorded.

BDOs were received by CCC in exchange for CCC-owned commodities. The BDOs may only be
exchanged for food products to be utilized in domestic and export food programs. Refer to Note 1 for
additional information.

Restrictions on Commodity Inventory

In accordance with the Bill Emerson Humanitarian Trust (BEHT) Act of 1998, CCC maintains a reserve of
commodities and funds for use when domestic supplies are so limited that quantities cannot meet the
availability criteria under P.L. 480. The Secretary of Agriculture may authorize the release of commodities
from the BEHT. Commodities are to be used solely for emergency food assistance. BEHT stocks can be
exchanged for other U.S. agricultural commodities of equal value or for an equivalent amount of funds
from the market to meet emergency food needs. The 2008 Farm Bill extended the authorization to
replenish the trust through fiscal year 2012.

The reported value of the wheat inventory reserve at September 30, 2007 was $124 million. On April 15,
2008 and May 16, 2008, the Secretary of Agriculture authorized the release of the wheat reserves for use
under P.L. 480, Title II. On May 23, 2008 CCC made available for sale all remaining BEHT wheat owned
by the CCC, with proceeds available for use under P.L. 480, Title II. As of September 30, 2008, there
were no wheat reserves. Refer to Note 1, under Commodity Inventories, for additional information.




                                             2008 ANNUAL REPORT
                                                     - 72 -
                                  COMMODITY CREDIT CORPORATION
                                             Notes to the Financial Statements


Note 8 – General Property and Equipment, Net
General property and equipment as of September 30 is as follows:

                                                                                    (In Millions)

2008:                                                                              Accumulated
                                                       Acquisition Value           Depreciation                       Net Book Value

Equipment                                          $                  49       $                    (49)          $                   -
Capitalized Software Costs                                           118                            (67)                             51

Total General Property and Equipment               $                 167       $               (116)              $                  51


                                                                                    (In Millions)

2007:                                                                              Accumulated
                                                       Acquisition Value           Depreciation                       Net Book Value

Equipment                                          $                  55       $                    (55)          $                   -
Capitalized Software Costs                                           105                            (50)                             55

Total General Property and Equipment               $                 160       $               (105)              $                  55




Note 9 – Liabilities Not Covered by Budgetary Resources
                                                                                                    (In Millions)

                                                                                     2008                                2007

Accrued Liabilities (Note 14)
  Conservation Reserve Program                                             $                 1,775            $                  1,810
  Tobacco Transition Payment Program                                                         5,302                               5,380
Environmental and Disposal Liabilities (Note 13)                                                 8                                   8
Total Liabilities Not Covered by Budgetary Resources                       $                 7,085            $                  7,198

Total Liabilities Covered by Budgetary Resources                           $                16,198            $                 16,012

Total Liabilities                                                          $                23,283            $                 23,210

Liabilities not covered by budgetary resources are liabilities for which Congressional action is needed
before budgetary resources can be provided.




                                          2008 ANNUAL REPORT
                                                  - 73 -
                                   COMMODITY CREDIT CORPORATION
                                               Notes to the Financial Statements


Note 10 – Debt to the Treasury
Debt to the Treasury, categorized as interest bearing and non-interest bearing notes, as of
September 30 is as follows:

                                                                                              (In Millions)

                                                                                   2008                       2007
Debt - Beginning of Fiscal Year
  Principal: Interest Bearing                                                $             6,452        $            19,341
  Accrued Interest Payable                                                                    64                        427
Total Debt Outstanding - Beginning of Fiscal Year                            $             6,516        $            19,768

New Debt
  Principal: Interest Bearing                                                $            22,996        $            28,664
  Accrued Interest Payable                                                                   104                        796
Total New Debt                                                               $            23,100        $            29,460

Repayments
  Principal: Interest Bearing                                                $        (23,582)          $        (41,553)
  Accrued Interest Payable                                                               (157)                    (1,159)
Total Repayments                                                             $        (23,739)          $        (42,712)

Debt - End of Fiscal Year
  Principal: Interest Bearing                                                $             5,866        $             6,452
  Accrued Interest Payable                                                                    11                         64
Total Debt Outstanding - End of Fiscal Year                                  $             5,877        $             6,516


CCC may borrow interest-free up to the amount of its unreimbursed realized losses. Monthly interest
rates ranges from 1.625 percent to 4.250 percent during FY 2008 and from 4.750 percent to 5.125
percent during FY 2007.

There was no debt principal and interest refinanced for the fiscal year ended September 30, 2008. There
was no outstanding principal rolled over in fiscal years ended September 30, 2008 and 2007. There was
no accrued interest rolled into notes payable for fiscal years ended September 30, 2008 and 2007.
Interest expense incurred on Treasury borrowings was $263 million and $350 million for the fiscal years
ended September 30, 2008 and 2007, respectively.

The FY 2008 and 2007 interest rates on long-term borrowings under the permanent indefinite borrowing
authority for the Credit Reform programs are calculated using the OMB Credit Subsidy Calculator 2. For
FY 2001 and future cohorts, the single effective interest rate produced from the calculator, along with
budget assumptions, is used to calculate interest expense.




                                              2008 ANNUAL REPORT
                                                      - 74 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 10 – Debt to the Treasury, continued
The repayment terms for borrowings made for the Export Credit Guarantee programs range from under
3 years up to 10 years. Currently, maximum loan terms do not exceed 7 years, while the repayment term
for P.L. 480 direct credits program borrowing is 30 years. The repayment term is 7 years for direct loans
under the Farm Storage Facility Loans program, 3 years for direct loans under the Apple Loan Program,
and 10 years for the direct loan made under the Boll Weevil program. For all Credit Reform programs,
principal repayments are required only at maturity, but are permitted at any time during the term of the
loan.

CCC has a separate permanent indefinite borrowing authority for the Credit Reform programs to finance
disbursements on post-1991 Credit Reform direct credit and loan obligations and credit guarantees. On
October 1, CCC borrows from Treasury for the entire fiscal year, based on annual estimates of the
difference between the amount appropriated (subsidy) and the amount to be disbursed to the borrower.
CCC may repay the loan agreement, in whole or in part, prior to maturity by paying the principal amount
of the borrowings plus accrued interest up to the date of repayment. Interest is paid on these borrowings
based on weighted average interest rates for the cohort to which the borrowings are associated. Interest
expense incurred on borrowings associated with the Credit Reform programs was $164 million and $163
million for the fiscal years ended September 30, 2008 and 2007, respectively.

CCC has an authorized capital stock of $100 million held by the Treasury, with the authority to have
outstanding borrowings of up to $30 billion at any one time. Interest on borrowings from the Treasury
(and on capital stock) is paid at a rate based upon the average interest rate of all outstanding marketable
obligations (of comparable maturity date) of the U.S. government as of the preceding month. CCC
incurred $5 million in interest expense on capital stock for the fiscal years ended September 30, 2008 and
2007.




                                     2008 ANNUAL REPORT
                                             - 75 -
                               COMMODITY CREDIT CORPORATION
                                              Notes to the Financial Statements


Note 10 – Debt to the Treasury, continued
Total debt outstanding, by program and maturity date, as of September 30, 2008, is as follows:

                              Program                Debt (In Millions)     Maturity Date
                    CCC Borrowing Authority          $        2,955          January 1, 2009
                    Export Credit Guarantee                      16       September 30, 2009
                                                                 82       September 30, 2010
                                                                146       September 30, 2011
                                                                   2      September 30, 2012
                                                                   2      September 30, 2013
                                                                 69       September 30, 2015
                                                                457       September 30, 2016
                                                                   3      September 30, 2017
                                                                 56       September 30, 2018
                                                                100       September 30, 2019
                    Debt Reduction                               17       September 30, 2012
                                                                 17       September 30, 2018
                                                                   9      September 30, 2021
                                                                 56       September 30, 2022
                                                                 22       September 30, 2023
                                                                 91       September 30, 2024
                                                                 26       September 30, 2026
                                                                   3      September 30, 2028
                    P.L. 480 Direct Credits                     104       September 30, 2018
                                                                257       September 30, 2019
                                                                 48       September 30, 2020
                                                                 41       September 30, 2021
                                                                 62       September 30, 2022
                                                                 70       September 30, 2023
                                                                 64       September 30, 2024
                                                                332       September 30, 2025
                                                                 47       September 30, 2026
                                                                 43       September 30, 2027
                                                                 48       September 30, 2031
                                                                 33       September 30, 2032
                                                                 26       September 30, 2033
                                                                 21       September 30, 2034
                                                                 18       September 30, 2035
                    Farm Storage Facility Loans                    6      September 30, 2009
                                                                 10       September 30, 2010
                                                                 22       September 30, 2011
                                                                 29       September 30, 2012
                                                                 45       September 30, 2013
                                                                 81       September 30, 2014
                                                                175       September 30, 2015
                                                                155       September 30, 2016
                    Boll Weevil                                    0      September 30, 2008
                    Apple Loans                                    0      September 30, 2010
                    Total Debt Outstanding           $        5,866



                                        2008 ANNUAL REPORT
                                                - 76 -
                                     COMMODITY CREDIT CORPORATION
                                               Notes to the Financial Statements


Note 11 – Deposit and Trust Liabilities
Deposit and trust liabilities are amounts advanced to or deposited with CCC, on behalf of other entities.
The balances, categorized as intragovernmental and public, as of September 30 are as follows:

                                                                                           (In Millions)

                                                                                   2008                    2007
Intragovernmental (Note 18):
Agricultural Marketing Service                                               $            130        $            265
Food and Nutrition Service                                                                482                     303
Foreign Agricultural Service                                                              120                     150
Natural Resources Conservation Service                                                     88                     100

Total Intragovernmental Deposit and Trust Liabilities                        $            820        $            818

Public                                                                       $              6        $             14

Total Public Deposit and Trust Liabilities                                   $              6        $             14

Within USDA, Agricultural Marketing Service (AMS) and Food and Nutrition Service (FNS) coordinate with
FSA/CCC to purchase certain commodities for domestic feeding programs. AMS funds the purchase of
commodities for the purpose of facilitating additional sales in world markets at competitive prices. FNS
funds the purchase of commodities for the National School Lunch and many other domestic feeding
programs administrated by voluntary organizations, which help to fight hunger worldwide. The
commodities purchased are meats, poultry, fish, fruit, vegetables, egg products, dry beans, and tree nuts.
FNS coordinates the purchase through competitive bids or negotiated contracts to assure the quantity,
quality, and variety of commodities purchased meet the needs of schools and institutions participating in
the domestic nutrition programs. These purchases also assist farmers, commodity producers, and
processors by helping to maintain stable commodity prices.

The public liability was $6 million and $14 million as of September 30, 2008 and 2007, respectively.
The public liability consists of unapplied collections for warehouse user fees, claims for disaster
programs, and other miscellaneous collections that are temporarily held in suspense until appropriately
identified and applied.




                                             2008 ANNUAL REPORT
                                                     - 77 -
                                    COMMODITY CREDIT CORPORATION
                                             Notes to the Financial Statements


Note 12 – Other Liabilities
Other liabilities as of September 30 are as follows:

                                                                                         (In Millions)

                                                                                 2008                    2007
Intragovernmental:
   Excess Subsidy Payable to Treasury                                      $            614        $            504
   Other                                                                                 49                      36

Total Intragovernmental Other Liabilities                                  $            663        $            540

Public                                                                     $            110        $            12

Total Public Other Liabilities                                             $            110        $             12




Note 13 – Environmental and Disposal Liabilities
The Corporation formerly operated approximately 4,500 grain storage facilities in the U.S. To date, at
approximately 120 of these facilities, Carbon Tetrachloride (a fumigant commonly used at grain storage
facilities during that time) was discovered in groundwater. CCC recorded an estimate of the total liability
for investigation and remediation of affected sites of $8 million for the fiscal years ended September 30,
2008 and 2007 based on actual cleanup costs at similar sites. This liability is not covered by budgetary
resources.

Hazardous Waste Program
Since the first discovery of contaminated groundwater, CCC has been engaged in an active program to
identify affected sites, perform risk assessments, and conduct cleanup actions. As of September 30,
2008 and 2007, payments for these activities totaled $5 million. At September 30, 2008, CCC estimates
the range of potential future losses to be between $8 million and $42 million.




                                            2008 ANNUAL REPORT
                                                    - 78 -
                                 COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements


Note 14 – Accrued Liabilities
Accrued liabilities as of September 30 are as follows:

                                                                                         (In Millions)

                                                                              2008                       2007

Conservation Reserve Program                                            $             1,775        $             1,810
Export Programs                                                                         183                        100
Income Support Programs:
  Direct and Counter-Cyclical Payments                                                4,878                      4,246
  Other                                                                                  14                          5
Tobacco Transition Payment Program
  Liability to Tobacco Quota Holders                                                  3,708                      3,763
  Liability to Tobacco Producers                                                      1,594                      1,617
Other                                                                                     2                          2

Total Accrued Liabilities                                               $            12,154        $            11,543


The liabilities for Conservation Reserve Programs were considered current as of September 30, 2008 and
2007. The liability of $5.3 billion and $5.4 billion under the Tobacco Transition Payment Program (TTPP)
includes a current liability of $955 million and $903 million as of September 30, 2008 and 2007,
respectively. The remaining balance was a long term liability as of September 30, 2008 and 2007. Refer
to Note 1, under Liabilities, for additional information.




                                         2008 ANNUAL REPORT
                                                 - 79 -
                               COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 15 – Commitments and Contingencies
A loss contingency is an existing condition, situation, or set of circumstances involving uncertainty as to
possible loss to an entity. The uncertainty will ultimately be resolved when one or more future events
occur or fail to occur. A loss contingency is a liability when a past event or exchange transaction has
occurred; a future outflow or other sacrifice of resources is probable; and the future outflow or sacrifice of
resources is measurable.

In addition to loss contingencies, CCC also discloses (1) an estimate of obligations related to canceled
appropriations for which the reporting entity has a contractual commitment for payment, and (2) amounts
for contractual arrangements that may require future financial obligations.

Commitments

Wetland Reserve Program (WRP)
WRP provides technical and financial assistance to eligible landowners to restore, enhance, and protect
wetlands. This voluntary program offers landowners an opportunity to establish, at minimal cost, long-
term conservation and wildlife habitat enhancement practices and protection. WRP program expenses
for the fiscal years ended September 30, 2008 and 2007 were $12 million and $8 million, respectively. As
of September 30, 2008 and 2007, CCC’s undelivered orders on current contracts were $25 thousand and
$21 million, respectively.

Market Access Program (MAP)
The MAP was authorized by the Agriculture Trade Act of 1978, as amended, to encourage the
development, maintenance, and expansion of commercial export markets for agricultural commodities
through cost-share assistance to eligible trade organizations that implement a foreign market
development program. CCC makes funds available to reimburse program participants for authorized
promotional expenses. Program expenses for the fiscal years ended September 30, 2008 and 2007 were
$179 million and $184 million, respectively. At September 30, 2008 and 2007, CCC’s undelivered orders
on current contracts were $243 million and $221 million, respectively.

Noninsured Crop Disaster Assistance Program (NAP)
The NAP was authorized as a CCC program under the 1996 Act. The NAP provides financial assistance
to producers of non-insurable crops when a low yield crop, loss of inventory, or prevented planting occurs
due to natural disasters. The crops must be non-insurable commodities for which the catastrophic risk
protection level of crop insurance is not available. Program expenses for the fiscal years ended
September 30, 2008 and 2007 were $74 million and $127 million, respectively. At September 30, 2008
and 2007, CCC’s undelivered orders on current contracts were $6 million and $8 million, respectively.

Commodity Acquisition
Commitments to acquire commodities represent the contract value of commodities not yet delivered
under CCC purchase contracts. Such commitments amounted to $176 million and $88 million for Export
Program, $94 million and $28 million for Food for Progress, and $13 million and $0 for Food Security
Reserve at September 30, 2008 and 2007, respectively.

Conservation Reserve Program (CRP)
Through CRP, participants sign 10-15 year contracts to remove land from production in exchange for an
annual rental payment. The participants also receive a one-time payment equal to not more than
50 percent of the eligible costs of establishing conservation practices on the reserve acreage. CCC
estimates that the future liability for CRP rental payments through FY 2016 will be $1.9 billion annually.
This estimate is based on current program levels with the assumption that expiring lands are re-enrolled
or replaced with lands of equal value. For the fiscal years ended September 30, 2008 and 2007, accrued
liabilities for CRP totaled approximately $1.8 billion.

                                      2008 ANNUAL REPORT
                                              - 80 -
                              COMMODITY CREDIT CORPORATION
                                             Notes to the Financial Statements


Note 15 – Commitments and Contingencies, continued
Leases

As of September 30, 2008, future minimum rental payments required under FSA operating leases for
State office space, for which CCC is directly liable, consisted of the following:

                            (In Millions)
       Year                Rent Expense
       2009            $                     4
       2010                                  1
       Total           $                     5


Allocated rent expense, net of reimbursements, was $54 million for the fiscal years ended September 30,
2008 and 2007. This allocated rent expense is recognized as part of the CCC’s imputed financing
sources and imputed costs.

Contingencies
Legal Disputes and Claims
In the normal course of business, CCC becomes involved in various legal disputes and claims. CCC
vigorously defends its position in such actions through the Office of the General Counsel (OGC) and the
U.S. Department of Justice. CCC’s financial statements at September 30, 2008 included a contingent
liability of $100 million for a legal case for which a payment has been deemed probable. CCC’s potential
liability for the case ranged from $100 million to $4 billion as of September 30, 2008. No amounts have
been accrued in the financial statements for claims where the amount is uncertain or where the
probability of judgment against CCC is remote.




                                            2008 ANNUAL REPORT
                                                    - 81 -
                                 COMMODITY CREDIT CORPORATION
                                          Notes to the Financial Statements


Note 16 – Disclosures Related to the Statement of Net Cost
Earned Revenue
Revenue and expense are recognized based on SFFAS No. 7, Accounting for Revenue and Other
Financing Sources. CCC follows the implementation guide for classifying, recognizing, and measuring
inflows of resources. Earned revenues are exchange revenues, which arise when a Federal entity
provides goods and services to the public or to another government entity for a price.

Earned revenue for the fiscal years ended September 30 is as follows:

                                                                                        (In Millions)

                                                                              2008                      2007

Intragovernmental Earned Revenue:
   Commodity Inventory Sales                                            $              921        $             679
   Interest Income                                                                      91                       62
   Other                                                                                 -                      271
   Less: Intra-Agency Eliminations                                                    (925)                    (679)

Total Intragovernmental Earned Revenue                                  $              87         $             333

Earned Revenue from the Public
  Commodity Inventory Sales                                             $              244        $            3,714
  Interest Income                                                                      468                       444
  Other                                                                              1,030                       477

Total Earned Revenue from the Public                                    $            1,742        $            4,635

Total Earned Revenue                                                    $            1,829        $            4,968


Public commodity inventory sales decreased to $244 million in FY 2008 from $3.7 billion in FY 2007 due
to higher upland cotton market prices, which affected commodity certificate exchanges in FY 2008. Other
earned revenue from the public includes $891 million that was recognized in FY 2008 under the Tobacco
Trust Fund Program.




                                         2008 ANNUAL REPORT
                                                 - 82 -
                              COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 16 – Disclosures Related to the Statement of Net Cost, continued
CCC’s strategic goals are as follows:

           Supporting productive farms and ranches
           Supporting secure and affordable food and fiber
           Conserving natural resources and enhancing the environment
           Supporting international economic development and trade capacity building

Under supporting productive farms and ranches, program areas include Income Support and Disaster
Assistance. CCC provides financial assistance in the form of flexible payments and short term financing
to stabilize, support, and protect farm income and prices due to the fluctuation of commodity market
prices or income support due to damage caused by natural disaster. Commodity Loans, TTPP, Disaster
Assistance, and Direct and Counter-Cyclical programs comprise major program activity.

Under supporting secure and affordable food and fiber, program areas include Commodity Operations.
CCC’s Dairy Price Support and Food Security Reserve programs protect the nation’s agriculture and food
supply through a uniform regulatory system for the storage of agricultural products and ensure the timely
provision of food products procured for domestic and international food assistance programs and market
development programs.

Under conserving natural resources and enhancing the environment, the Conservation Reserve Program
safeguards natural resources by paying farmers to take environmentally sensitive crop land out of
production, and plant long-term resource-conserving covers (such as grasses and trees). These covers
improve the quality of water and air, control soil erosion, and enhance wildlife habitat.

Under supporting international economic development and trade capacity building, program areas include
Export Credit, Market Expansion and Trade Building. FAS and CCC form cooperative agreements with
other nonprofit agricultural trade commodity groups to encourage development, maintenance and
expansion of commercial export markets for agricultural commodities. Major programs include Food Aid,
Foreign Market Development and Export Credit Guarantee.

Refer to the Management Discussion and Analysis, Performance Section for additional information on the
CCC’s alignment of its strategic goals to the USDA Performance and Accountability Report Goals.




                                    2008 ANNUAL REPORT
                                            - 83 -
                                                             COMMODITY CREDIT CORPORATION
                                                                          Notes to the Financial Statements


Note 16 – Disclosures Related to the Statement of Net Cost, continued
Net cost of operations for the fiscal years ended September 30, 2008 (In Millions), is as follows:
Agency Strategic Goals:
                                                                                                     Income Support
                                                                                    Commodity          and Disaster       Conservation            Foreign            Intra-entity
                                                                                    Operations          Programs           Programs              Programs           Eliminations            Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                         $           167      $        1,101   $                  -   $              -   $                   -   $           1,268
   Public Cost                                                                              113               6,970                      -                  -                       -               7,083
   Total Cost                                                                   $           280      $        8,071                      -                  -                       -   $           8,351

   Intragovernment Earned Revenue                                               $                -   $            -   $                  -   $              -   $                   -   $               -
   Public Earned Revenue                                                                         1            1,139                      -                  -                       -               1,140
   Total Earned Revenue                                                         $                1   $        1,139   $                  -   $              -   $                   -   $           1,140

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                         $            48      $           23 $                    -   $              -   $                   -   $             71
   Public Cost                                                                              229                 (58)                     -                  -                       -                171
   Total Cost                                                                   $           277      $          (35) $                   -   $              -   $                   -   $            242

   Intragovernment Earned Revenue                                               $             9      $          11    $                  -   $              -   $               (4) $                 16
   Public Earned Revenue                                                                    243                 12                       -                  -                    - $                 255
   Total Earned Revenue                                                         $           252      $          23    $                  -   $              -   $               (4) $                271

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                         $                -   $            -   $             236      $              -   $                   -   $             236
   Public Cost                                                                                   -                -               1,889                     -                       -               1,889
   Total Cost                                                                   $                -   $            -   $           2,125      $              -   $                   -   $           2,125

   Intragovernment Earned Revenue                                               $                -   $            -   $              -       $              -   $                   -   $              -
   Public Earned Revenue                                                                         -                -                  2                      -                       -                  2
   Total Earned Revenue                                                         $                -   $            -   $              2       $              -   $                   -   $              2

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                         $                -   $            -   $                  -   $       1,101      $             (925) $                 176
   Public Cost                                                                                   -                -                      -           1,891                       -                  1,891
   Total Cost                                                                   $                -   $            -   $                  -   $       2,992      $             (925) $               2,067

   Intragovernment Earned Revenue                                               $                -   $            -   $                  -   $         992      $             (921) $                 71
   Public Earned Revenue                                                                         -                -                      -             345                       -                   345
   Total Earned Revenue                                                         $                -   $            -   $                  -   $       1,337      $             (921) $                416

Total Gross Cost                                                                $           557      $        8,036   $           2,125      $       2,992      $             (925) $          12,785
Less: Total Earned Revenue                                                                  253               1,162                   2              1,337                    (925)             1,829
Net Cost of Operations                                                          $           304      $        6,874   $           2,123      $       1,655      $                - $           10,956




                                                                    2008 ANNUAL REPORT
                                                                             -84 –
                                                             COMMODITY CREDIT CORPORATION
                                                                          Notes to the Financial Statements


Note 16 – Disclosures Related to the Statement of Net Cost, continued
Net cost of operations for the fiscal years ended September 30, 2007 (In Millions), is as follows:
Agency Strategic Goals:
                                                                                                      Income Support
                                                                                     Commodity          and Disaster       Conservation            Foreign            Intra-entity
                                                                                     Operations          Programs           Programs              Programs           Eliminations            Total

Supporting Productive Farms and Ranches
   Intragovernment Cost                                                          $           374      $        1,042   $                  -   $              -   $                   -   $       1,416
   Public Cost                                                                                12              11,477                      -                  -                       -          11,489
   Total Cost                                                                    $           386      $       12,519                      -                  -                       -   $      12,905

   Intragovernment Earned Revenue                                                $                -   $            -   $                  -   $              -   $                   -   $               -
   Public Earned Revenue                                                                          5            4,388                      -                  -                       -               4,393
   Total Earned Revenue                                                          $                5   $        4,388   $                  -   $              -   $                   -   $           4,393

Supporting Secure and Affordable Food and Fiber
   Intragovernment Cost                                                          $            45                 22    $                  -   $              -   $                   -   $             67
   Public Cost                                                                              (190)                13                       -                  -                       -               (177)
   Total Cost                                                                    $          (145) $              35    $                  -   $              -   $                   -   $           (110)

   Intragovernment Earned Revenue                                                $                -              12    $                  -   $              -   $                   -   $             12
   Public Earned Revenue                                                                          -              10                       -                  -                       -                 10
   Total Earned Revenue                                                          $                -   $          22    $                  -   $              -   $                   -   $             22

Conserving Natural Resources and Enhancing the Environment
   Intragovernment Cost                                                          $                -   $            -   $             245      $              -   $                   -   $             245
   Public Cost                                                                                    -                -               1,913                     -                       -               1,913
   Total Cost                                                                    $                -   $            -   $           2,158      $              -   $                   -   $           2,158

   Intragovernment Earned Revenue                                                $                -   $            -   $              -       $              -   $                   -   $              -
   Public Earned Revenue                                                                          -                -                  1                      -                       -                  1
   Total Earned Revenue                                                          $                -   $            -   $              1       $              -   $                   -   $              1

Support International Economic Development and Trade Capacity Buildings
   Intragovernment Cost                                                          $                -   $            -   $                  -   $         854      $             (679) $                 175
   Public Cost                                                                                    -                -                      -           1,537                                          1,537
   Total Cost                                                                    $                -   $            -   $                  -   $       2,391      $             (679) $               1,712

   Intragovernment Earned Revenue                                                $                -   $            -   $                  -   $       1,000      $             (679) $                321
   Public Earned Revenue                                                                          -                -                      -             231                       - $                 231
   Total Earned Revenue                                                          $                -   $            -   $                  -   $       1,231      $             (679) $                552

Total Gross Cost                                                                 $           241      $       12,554   $           2,158      $       2,391      $             (679) $          16,665
Less: Total Earned Revenue                                                                     5               4,410                   1              1,231                    (679)             4,968
Net Cost of Operations                                                           $           236      $        8,144   $           2,157      $       1,160      $                - $           11,697




                                                                    2008 ANNUAL REPORT
                                                                             -85 –
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 17 – Disclosures Related to the Statement of Budgetary Resources
The SBR is a combined statement and, as such, intra-agency transactions have not been eliminated.

For the fiscal years ended September 30, 2008, there were no obligations incurred under apportionment
category A, which is funded on a quarterly basis, while obligations incurred under apportionment category
B, which are funded annually, consist of $3.7 billion direct obligations and $23.1 billion reimbursable
obligations.

For the fiscal year ended September 30, 2007, there were no obligations incurred under apportionment
category A, which is funded on a quarterly basis, while obligations incurred under apportionment category
B, which are funded annually, consist of $3.8 billion direct obligations and $27.4 billion reimbursable
obligations.

The majority of the amounts reported as permanently not available represent redemption of debt or the
amount of principal repayments paid to the Treasury on CCC's outstanding borrowings. The remaining
balance represents rescissions of budgetary authority. The amounts were $33.7 billion and $52.0 billion
for the fiscal years ended September 30, 2008 and 2007, respectively.

CCC has a permanent indefinite borrowing authority, as defined by OMB Circular A-11, Preparation and
Submission of Budget Estimates, of $30 billion. CCC’s notes payable under its permanent indefinite
borrowing authority have a term of one year. On January 1 of each year, CCC refinances its outstanding
borrowings, including accrued interest, at the January borrowing rate. The amount of available borrowing
authority for the fiscal year ended September 30, 2008, is $9.2 billion. Refer to Note 10, Debt to the
Treasury, for additional information.

CCC receives an annual appropriation to fund subsidy costs incurred. In addition, CCC has permanent
indefinite appropriation authority to finance disbursements made under the liquidating accounts related to
the pre-Credit Reform program activities, which are not covered by available working capital.

Undelivered orders, either unpaid or prepaid, are obligations, purchase orders, or contracts awarded for
which goods or services have not yet been received. The amounts for undelivered orders are $2.6 billion
and $3.4 billion for the fiscal years ended September 30, 2008 and 2007, respectively.

Unobligated budget authority is the difference between the total unexpended appropriation balance and
the obligated balance. An appropriation expires on the last day of its period of availability and is no
longer available for new obligations. Unobligated balances retain their fiscal year identity in an “expired
account” for that appropriation for an additional 5 fiscal years. The unobligated balance remains available
to make legitimate obligation adjustments (i.e., to record previously unrecorded obligations and to make
upward adjustments in previously under-recorded obligations).

No contributed capital was received during the reporting periods.

The SF-133, Report on Budget Execution, which is used by CCC to report and certify obligation balances,
is also used to populate some portions of the Program and Financing Schedules (P&F Schedules) within
the Budget of the United States Government.

Since the P&F Schedules within the Budget of the United States Government, Fiscal Year 2010, are not
available for FY 2008, the reconciliation between the President’s Budget and the SBR for FY 2008 cannot
be performed. The Budget of the United States Government, Fiscal Year 2010, is expected to be
published in February 2009 and will be available on the website of the Office of Management and Budget
(www.whitehouse.gov/omb) at that time. The SF-133 and the SBR for FY 2008 will be reconciled to the
FY 2008 actuals on the P&F Schedules reported in the Budget of the United States Government, Fiscal


                                     2008 ANNUAL REPORT
                                              -86 -
                            COMMODITY CREDIT CORPORATION
                                    Notes to the Financial Statements


Note 17 – Disclosures Related to the Statement of Budgetary Resources,
continued
Year 2010, once released. The SF-133 and the SBR for FY 2007 have been reconciled to the FY 2007
actuals on the P&F Schedules presented in the Budget of the United States Government, Fiscal Year
2009. A table presenting this comparison appears on the following page.




                                  2008 ANNUAL REPORT
                                           -87 -
                                                                                      COMMODITY CREDIT CORPORATION
                                                                                                  Notes to the Financial Statements


Note 17 – Disclosures Related to the Statement of Budgetary Resources, continued
The comparison of selected line items of the FY 2007 SBR to the actuals on the FY 2007 P&F Schedules presented in the Budget of the United
States Government, Fiscal Year 2009 is as follows:
In Millions                                                                                                                                                                                Portion of
                                                                                                                                                                                           Difference
                                                                                                                                       SBR                P&F                            Resulting from
SBR             P&F                                                                                                                   Amount             Amount                            Reporting
Line Ref        Line No.                                                          SBR Line Description                               (Ref. Tab B)   (Ref. Tab A, pg 2/2)   Difference    Requirements         Note
1               21.40                                       Unobligated Balance - Beginning of Year                              $         2,793    $           2,808      $      (15)   $                -    a
2               22.10/73.40                                 Recoveries of Prior Year Obligations                                             731                  731               -
3A              40.00/60.00                                 Appropriations Received                                                       25,873               25,873               -
3B              67.10                                       Authority to Borrow                                                           41,466               31,504           9,962              9,962       b
3D1a/3D2a/3D5   58.00/68.00/69.00                           Offsetting Collections - Collected                                            18,826               18,811              15                  -       a
3D1b/3D2b       69.10/74.00                                 Offsetting Collections - Receivable                                             (959)                (959)              -
4               41.00/42.00/22.21/22.22/61.00/62.00         Budgetary Resources/Unobligated Balance - Net Transfers                       (1,831)              (1,831)              -
6               22.40/22.60/40.35/40.36/69.27/69.47         Permanently not Available                                                    (52,002)             (42,040)         (9,962)            (9,962)      b
7 or 11         23.90                                       Total Budgetary Resources/Status of Budgetary Resources                       34,897               34,897               -
8               10.00                                       Total New Obligations                                                         31,153               31,154              (1)                    -
9/10            24.40                                       Unobligated Balance - End of Year                                              3,744                3,743               1                     -
12              72.40                                       Obligated Balance - Beginning of Year                                          7,907                7,905               2                     -   c, d
13              73.10                                       Obligations Incurred                                                          31,153               31,154              (1)                    -
14              73.20                                       Gross Outlays                                                                (31,606)             (31,607)              1                     -    c
16              73.45                                       Recoveries of Prior Year Obligations                                            (731)                (731)              -
17              74.00/74.10                                 Change in Uncollected Customer Payments from Federal Sources                     959                  959               -
18              74.40                                       Obligated Balance - End of Year                                                7,682                7,682               -
19A/19B         90.00                                       Outlays                                                                       12,781               12,796             (15)                    -   a, c
    NOTES:
    General     Any difference that is not otherwise specified is a result of rounding.

       a.       The variance in CCC's Revolving Fund 12X4336 on Line 1 Unobligated Balance - Beginning of Year, Line 3D1a/3D2a/3D5 Offsetting Collections, and Line 19A/19B Outlays is due to an offsetting entry directed by OMB to
                increase NRCS Net Outlays in Fund 1004 from what was reported to Treasury on FACTS II and to offset the decrease in CCC's Net Outlays in MAX, so that total USDA Outlays would remain the same.

       b.       The variance in CCC's Farm Storage Facility and Sugar Storage Facility Loans Financing Fund 12X4158 and CCC's Revolving Fund 12X4336 is due to the differences in reporting on the P&F crosswalk against the
                Statement of Budgetary Resources. The P&F crosswalk records SGL 4143, Decreases to Indefinite Borrowing Authority, in Line 3B Borrowing Authority on the SBR. However, the SBR crosswalk reports SGL 4143 to
                Line 6, Permanently not Available.

       c.       A portion of the difference includes activity for the Hazardous Waste Fund, 12X0500, that is reported on the SBR. This fund is reported at the Department level, in the Budget of the U.S. Government and therefore is not
                presented by the Agency.

       d.       The variance reflects an entry into the MAX A-11 system for reconciling purposes in P.L. 480 Direct Credit Liquidating Fund 12X2274.




                                                                                              2008 ANNUAL REPORT
                                                                                                       -88 -
                              COMMODITY CREDIT CORPORATION
                                       Notes to the Financial Statements


Note 18 – Disclosures Not Related to a Specific Statement

Transactions with Related Organizations
CCC maintains deposit and trust liabilities for Agricultural Marketing Service (AMS), Foreign Agricultural
Service (FAS), Food and Nutrition Service (FNS), and the National Resources Conservation Service
(NRCS). Refer to Note 11, Deposit and Trust Liabilities, for additional information. In addition, CCC has
the following transactions with USDA agencies:

For the fiscal years ended September 30, 2008 and 2007, outlays under reimbursable agreements with
other USDA agencies amounted to $54 million and $11 million, respectively.

For the fiscal years ended September 30, 2008 and 2007, CCC received $13 million and $18 million
respectively from FSA for the allocation of internal software development costs, which were capitalized.
Currently, CCC reimburses FSA for the costs incurred in the development of software used to administer
agriculture programs. Refer to Note 1, under General Property and Equipment, for additional information.

CCC donates commodities for use under domestic feeding programs administered by FNS. The value of
commodities donated for these domestic purposes, including related transportation and storage costs, for
the fiscal years ended September 30, 2008 and 2007 were $120 million and $109 million, respectively.

For the fiscal years ended September 30, 2008 and 2007, CCC transferred $21 million and $15 million,
respectively, to FNS for the Senior's Farmers Market Nutrition Program. CCC transferred $96 million in
FY 2008 to the Animal and Plant Health Inspection Service for bovine tuberculosis, light brown apple
moth outbreak, and potato cyst nematode eradication programs. In addition, CCC transferred $2 million
to the Office of the CFO for bio-diesel fuel education and bio-based products, $42 million to AMS for
commodity assistant program and marketing service and $2 million to the Rural Business and
Cooperative Development Service for biomass research and development as of September 30, 2008.

During FY 2008 and 2007, CCC disbursed a total of $1.9 billion and $1.7 billion, respectively, on behalf of
NRCS for various conservation programs and technical assistance. In addition, during FY 2008, CCC
disbursed $60 million to NRCS for CRP technical assistance. These programs included Wetland Reserve
Program, Environmental Quality Incentive Program (EQIP), Farm and Ranch Lands Protection Program
(FRPP), Wildlife Habitat Incentives Program, Klamath Basin (NRCS did not receive funding for Klamath
Basin for FY 2008), Ground and Surface Water Conservation Program, Grassland Reserve Program
(GRP), and the Conservation Security Program. NRCS is responsible for the administration of these
programs. For GRP, NRCS has entered into a memorandum of understanding with CCC to disburse
funds using the services and facilities of CCC. It should be noted that, although NRCS has been
receiving funding for the EQIP since FY 2003, CCC continues to receive separate funding for the
FY 2002 and earlier program years.

CCC also transfers funds to USAID to fund P.L. 480 Title II transportation and other administrative costs
in connection with foreign donations. Refer to Note 1, under Allocation Transfers and Shared
Appropriations, for further information.




                                     2008 ANNUAL REPORT
                                              -89 -
                                     COMMODITY CREDIT CORPORATION
                                                 Notes to the Financial Statements


Note 18 – Disclosures Not Related to a Specific Statement, continued
Custodial Activity
CCC’s custodial activities involve the collection and transfer of funds received from the public on behalf of
U.S. Treasury, FSA, and other USDA agencies. These collections include amounts related to FSA’s
Farm Loan Program, as well as other interest, fees, and penalties due to Treasury and other USDA
agencies.


Custodial activities for the fiscal years ended September 30 are as follows:

                                                                                          (In Millions)

                                                                                2008                      2007

Revenue Activity:
  Sources of Cash Collections:
    Repayment of Farm Credit Loans                                       $             1,325        $            1,317
    Administrative and Other Service Fees                                                 82                        28

Total Cash Collections                                                   $             1,407        $            1,345

Total Custodial Revenue                                                  $             1,407        $            1,345

Disposition of Collections:
  Transfers to Others:
    USDA Farm Service Agency                                             $             1,336        $            1,326
    Other USDA Agencies                                                                   40                         -
    Department of Treasury                                                                19                         2

Total Disposition of Collections                                         $             1,395        $            1,328

Increase/Decrease in Amounts Yet to be Transferred (+/-)                 $               12         $              17

Net Custodial Activity                                                   $                 -        $                -




                                             2008 ANNUAL REPORT
                                                      -90 -
                                        COMMODITY CREDIT CORPORATION
                                                     Notes to the Financial Statements


Note 19 – Reconciliation of Net Cost of Operations (proprietary) to Budget
(formerly the Statement of Financing)
The Reconciliation of Net Cost of Operations (Proprietary) to Budget (formerly the Statement of
Financing) for the fiscal years ended September 30 is as follows:
                                                                                                                      (In Millions)

                                                                                                               2008                    2007
Resources Used to Finance Activities:
Budgetary Resources Obligated
  Obligations Incurred                                                                                     $   26,832             $ 31,153
  Less: Spending Authority from Offsetting Collections and Recoveries                                          17,322               18,599
  Obligations Net of Offsetting Collections and Recoveries                                                 $    9,510             $ 12,554
  Less: Offsetting Receipts                                                                                       353                  464
  Net Obligations                                                                                          $    9,157             $ 12,090
Other Resources:
  Transfers In/Out without Reimbursement, Net                                                              $     (379)            $  (442)
  Imputed Financing from Costs Absorbed by Others                                                               1,334               1,271
  Net Other Resources Used to Finance Activities                                                           $      955             $   829
Total Resources Used to Finance Activities                                                                 $   10,112             $ 12,919
Resources Used to Finance Items not Part of the Net Cost of Operations:
  Change in Budgetary Resources Obligated for Goods, Services and Benefits Ordered but not Yet Provided    $      822             $ (1,459)
  Resources that Fund Expenses Recognized in Prior Periods                                                        111                 (382)
  Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations
     Credit Program Collections which Increase Liabilities for Loan Guarantees or Allowances for Subsidy         1,546                  1,583
     Change in Unfilled Customer Orders                                                                             (2)                   826
     Decrease in Exchange Receivables from the Public                                                            9,061                  7,600
     Other                                                                                                         507                   (361)
  Resources that Finance the Acquisition of Assets                                                             (10,788)               (12,300)
  Other Resources or Adjustments to Net Obligated Resources that Do Not Affect Net Cost of Operations             (231)                (1,662)
Total Resources Used to Finance Items Not Part of the Net Cost of Operations                               $    1,026             $ (6,155)
Total Resources Used to Finance the Net Cost of Operations                                                 $   11,138             $ 6,764
Components of the Net Cost of Operations that will not Require or Generate Resources in the
  Current Period:
Components Requiring or Generating Resources in Future Periods:
  Upward/(Downward) Reestimates of Credit Subsidy Expense                                                  $      166             $       39
  (Increase) in Exchange Revenue Receivable from the Public                                                      (122)                    (9)
  Other                                                                                                          (867)                  (189)
Total Components of Net Cost of Operations that will Require or Generate Resources in Future Periods       $     (823)            $     (159)
Components not Requiring or Generating Resources:
  Depreciation and Amortization                                                                                    74                     51
  Revaluation of Assets or Liabilities                                                                           (140)                  (177)
  Other Components not Requiring or Generating Resources:
     Bad Debt Expense                                                                                            (375)               (301)
     Cost of Goods Sold                                                                                         1,047               5,413
     Other                                                                                                         35                 106
Total Components of Net Cost of Operations that will not Require or Generate Resources                     $      641             $ 5,092
Total Components of Net Cost of Operations that will not Require or Generate Resources
      in the Current Period                                                                                $     (182)            $ 4,933

Net Cost of Operations                                                                                     $   10,956             $ 11,697




                                                 2008 ANNUAL REPORT
                                                          -91 -
                                  COMMODITY CREDIT CORPORATION
                                        Notes to the Financial Statements


Note 19 – Reconciliation of Net Cost of Operations (proprietary) to Budget
(formerly the Statement of Financing), continued
The current year transactions which include current year accruals, as well as the reversal of prior year
accruals are reported on the Resources That Fund Expenses Recognized in Prior Periods line of the
reconciliation.

Gross offsetting collections and receipts are offset against obligations incurred to determine net
obligations in the Resources Used to Finance Activities section of this note. Since not all of the offsetting
collections and receipts are exchange revenue, adjustments are reported under the Budgetary Offsetting
Collections and Receipts That Do Not Affect Net Cost of Operations section. The adjustments reflect the
portion of offsetting collections and receipts that are not reported on the Statement of Net Cost (SNC).

Budgetary Offsetting Collections and Receipts That Do Not Affect Net Cost of Operations: Other, for the
fiscal years ended September 30 is as follows:

                                                                                    (In Millions)

                                                                            2008                    2007

Refund                                                                $            423        $            (261)
Price Support                                                                       55                      (31)
Direct and Counter-cyclical Payment                                                 15                        1
Miscellaneous                                                                       14                      (70)

Total                                                                 $            507        $            (361)


The increase in Refunds reflects the collection of refunds receivable for expenses incurred in the current
year that do not create budgetary resources when collected..




                                      2008 ANNUAL REPORT
                                               -92 -
                                   COMMODITY CREDIT CORPORATION
                                                 Notes to the Financial Statements


Note 19 – Reconciliation of Net Cost of Operations (proprietary) to Budget
(formerly the Statement of Financing), continued
Resources or Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations: Other,
includes non-cash recoveries of prior year obligations. Recoveries are budgetary resources that offset
obligations on the Statement of Budgetary Resources (SBR), but are not a proprietary financing source
used to offset costs on the Statement of Net Cost.

Resources or Adjustments to Net Obligated Resources That Do Not Affect Net Cost of Operations: Other,
for the fiscal years ended September 30 is as follows:

                                                                                                (In Millions)

                                                                                     2008                       2007

Budgetary Adjustments                                                          $             1,617         $              439
Deposit/Suspense Liability Collections (Other)                                              (1,462)                    (2,416)
Miscellaneous                                                                                 (386)                       315

Total                                                                          $             (231)         $           (1,662)


The costs of the Federal Government are not always funded in the period the costs are incurred.
Components Requiring or Generating Resources In Future Periods identifies items that are recognized as
a component of the net cost of operations for the period; but, the budgetary resources (and related
obligation) will not be provided (or incurred) until a subsequent period.

Components Requiring or Generating Resources In Future Periods: Other, for the fiscal years ended
September 30 is as follows:

                                                                                                (In Millions)

                                                                                     2008                       2007

Price Support                                                                  $               93         $              308
Tobacco Trust Program                                                                        (891)                      (465)
Miscellaneous                                                                                 (69)                       (32)

Total                                                                          $             (867)        $             (189)




For the fiscal year ended September 30, 2008, $891 million for the Tobacco Transition Payment Program
reflects the estimated receivable due from the tobacco industry, and is recognized as revenue by the
Tobacco Trust Program fund.




                                            2008 ANNUAL REPORT
                                                     -93 -
                                COMMODITY CREDIT CORPORATION
                                           Notes to the Financial Statements


Note 19 – Reconciliation of Net Cost of Operations (proprietary) to Budget
(formerly the Statement of Financing), continued

Components Not Requiring or Generating Resources includes items recognized as part of the net cost of
operations for the period but will not generate or require the use of resources.

Components Not Requiring or Generating Resources: Other for the fiscal years ended September 30 is
as follows:

                                                                                        (In Millions)

                                                                               2008                     2007

Operating/Program Expenses - Non-Federal                                 $             313        $            154
Revenue from Goods Sold                                                               (243)                      -
Operating Expenses/Program Costs                                                       (36)                    (60)
Miscellaneous                                                                            1                      12

Total                                                                    $             35         $            106


For the fiscal year ended September 30, 2008, Operating/Program Expenses – Non-Federal consists
primarily of $122 million for the Price Support and $60 million for the Food for Progress program.




                                       2008 ANNUAL REPORT
                                                -94 -
REQUIRED SUPPLEMENTARY INFORMATION (UNAUDITED)




              2008 ANNUAL REPORT
                       -95 -
                                                        COMMODITY CREDIT CORPORATION
                                                              Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2008
(Dollars in Millions)

                                                                                                   Treasury Fund Symbols
                                                           12X4336         12X2278       (72)12X2278            12X8161     12X1336      Other        Total Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:    $         943 $           240 $              30 $                 - $      183 $      209 $                1,605
Recoveries of prior year unpaid obligations                  1,014               -               31                   -        141         60                  1,246
Budget authority
  Appropriation                                               100            2,070                 -              1,139        105     12,740                 16,154
  Borrowing Authority (Note 17)                             30,267               -                 -                  -          -           -                30,267
  Contract Authority (Note)
  Spending authority from offsetting collections:
   Earned:
    Collected                                               12,442            693                  -                  -          -        676                 13,811
    Change in receivables from Federal sources                 (54)            64                  -                  -          -           -                   10
  Change in unfilled customer orders:
   Advance received                                              3               -                 -                  -          -           -                     3
  Expenditure transfers from trust funds                      959                -                 -                  -          -           -                  959
  Subtotal                                          $       43,717 $         2,827 $               - $            1,139 $      105 $   13,416 $               61,204
Nonexpenditure transfers, net actual                         9,832          (1,360)           1,360                   -          -     (12,452)               (2,620)
Permanently not available                                  (32,785)             (9)                -                  -          -       (580)               (33,374)
Total Budgetary Resources                           $       22,721 $         1,698 $          1,421 $             1,139 $      429 $      653 $               28,061


Status of Budgetary Resources
Obligations incurred:
  Direct                                            $            - $         1,557 $               - $             960 $       151 $      201 $                2,869
  Reimbursable                                              21,547               -            1,389                   -          -        158                 23,094
  Subtotal                                          $       21,547 $         1,557 $          1,389 $              960 $       151 $      359 $               25,963
Unobligated balance:
  Apportioned                                       $          27 $              1 $             32 $                 - $        7 $      209     $              276
  Exempt from apportionment                         $         811 $              - $               - $                - $        - $         -                   811
  Subtotal                                          $         838 $              1 $             32 $                 - $        7 $      209     $             1,087
Unobligated balance not available                             336             140                  -               179         271         85                  1,011
Total status of budgetary resources                 $       22,721 $         1,698 $          1,421 $             1,139 $      429 $      653     $           28,061




                                                            2008 ANNUAL REPORT
                                                                     -96 –
                                                                                  COMMODITY CREDIT CORPORATION
                                                                                       Required Supplementary Information


Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Budgetary Accounts

For the Fiscal Year Ended September 30, 2008
(Dollars in Millions)
                                                                                                                              Treasury Fund Symbols
                                                                                      12X4336        12X2278        (72)12X2278              12X8161    12X1336    Other     Total Budgetary
Change in Obligated Balance
Obligated Balance, net, beg. of period
 Unpaid obligations, brought forward, October 1                               $         6,745 $         162 $                 - $                 - $      166 $    974 $             8,047
 Less: Uncollected customer payments from Federal sources, brought forward,
 October 1                                                                               (312)             -                 -                    -          -        - $             (312)
 Total unpaid obligated balance, net                                          $         6,433 $          162 $               - $                  - $      166 $    974 $            7,735
Obligations incurred, net                                                              21,547          1,557             1,389                  960        151      359              25,963
Less: Gross outlays                                                                   (21,520)          (853)           (1,100)                (960)      (113)    (251)            (24,797)
Actual transfers,unpaid obligations                                                      519            (519)               336                   -          -     (336)                      -
Less: Recoveries of prior year unpaid obligations, actual                              (1,014)            -                 (31)                  -       (141)     (60)             (1,246)
Change in uncollected customer payments from Federal sources                               54           (64)                  -                   -          -        -                  (10)
Total Change in Obligated Balance                                             $         6,019 $         283 $               594 $                 - $       63 $    686 $             7,645
Obligated balance, net,end of period:
 Unpaid obligations                                                           $         6,277 $         347 $               594 $                 - $       63 $    686                7,967
  Less: Uncollected customer payments from Federal sources                               (258)          (64)                  -                   -          -        -                (322)
 Total, unpaid obligated balance, net, end of period                          $         6,019 $         283 $               594 $                 - $       63 $    686 $              7,645
Net Outlays
 Gross outlays                                                                $        21,520 $          853 $           1,100 $                960 $      113 $    251 $             24,797
 Less: Offsetting collections                                                         (13,403)          (693)                -                    -          -     (677)            (14,773)
 Net Outlays                                                                  $         8,117 $          160 $           1,100 $                960 $      113 $   (426) $           10,024




                                                                                      2008 ANNUAL REPORT
                                                                                               -97 –
                                                    COMMODITY CREDIT CORPORATION
                                                              Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Finance Accounts

For the Fiscal Year Ended September 30, 2008
(Dollars in Millions)

                                                                                                       Treasury Fund Symbols
                                                                        12X4049            12X4337                  12X4158    Other    Total Non-Budgetary
Budgetary Resources:
Unobligated balance, brought forward, October 1:          $                773 $             1,215 $                    44 $    108 $                2,140
Recoveries of prior year unpaid obligations                                  2                     -                    25        -                     27
Budget authority
  Borrowing Authority (Note 17)                                              5                 130                     164        3                   302
  Spending authority from offsetting collections:
    Collected                                                              724                 211                     162      152                  1,249
    Change in receivables from Federal sources                             (47)               (130)                       -       -                   (177)
  Change in unfilled customer orders:
   Without Advance from Federal sources                                     43                 151                        -       -                   194
  Subtotal                                                $                725 $               362 $                   326 $    155 $                1,568
Permanently not available                                                    -                (238)                    (108)     (4)                  (350)
Total Budgetary Resources                                 $               1,500 $            1,339 $                   287 $    259 $                3,385


Status of Budgetary Resources
Obligations incurred:
  Direct                                                  $                128 $               465 $                   172 $    104 $                 869
  Subtotal                                                $                128 $               465 $                   172 $    104 $                 869
Unobligated balance:


  Apportioned                                             $               1,341 $              202 $                    75 $     44 $                1,662
  Exempt from apportionment                                                  -                     5                      -       -                      5
  Subtotal                                                $               1,341 $              207 $                    75 $     44 $                1,667
Unobligated balance not available                                           31                 667                      40      111                   849
Total status of budgetary resources                       $               1,500 $            1,339 $                   287 $    259 $                3,385



                                                           2008 ANNUAL REPORT
                                                                    -98 –
                                                                              COMMODITY CREDIT CORPORATION
                                                                                  Required Supplementary Information

Schedule 1
Required Supplementary Information (Unaudited)

Supporting Schedule to the Combined Statements of Budgetary Resources
Non-Budgetary Credit Program Finance Accounts

For the Fiscal Year Ended September 30, 2008
(Dollars in Millions)
                                                                                                                       Treasury Fund Symbols
                                                                                        12X4049            12X4337                 12X4158     Other       Total Non-Budgetary
Change in Obligated Balance
Obligated Balance, net, beg. of period
 Unpaid obligations, brought forward, October 1                               $               2 $                1 $                   120 $      2    $                  125
 Less: Uncollected customer payments from Federal sources, brought forward,
 October 1                                                                                  (47)              (130)                     (1)       -                      (178)
 Total unpaid obligated balance, net                                                        (45)              (129)                    119        2                       (53)
Obligations incurred, net                                                                  128                465                      173      103                       869
Less: Gross outlays                                                                        (128)              (465)                   (159)     (14)                     (766)
Less: Recoveries of prior year unpaid obligations, actual                                    (2)                 -                     (25)       -                       (27)
Change in uncollected customer payments from Federal sources                                  4                (21)                      -        -                       (17)
Total Change in Obligated Balance                                                           (43)              (150)                    108       91                         6
Obligated balance, net,end of period:
 Unpaid obligations                                                           $               - $                1 $                   109 $     91    $                  201
  Less: Uncollected customer payments from Federal sources                                  (43)              (151)                     (1)       -                      (195)
 Total, unpaid obligated balance, net, end of period                                        (43)              (150)                    108 $     91                         6
Net Outlays
 Gross outlays                                                                $            128 $              465 $                    159 $     14    $                  766
 Less: Offsetting collections                                                              (724)              (211)                   (162)    (152)                   (1,249)
 Less: Distributed Offsetting receipts                                                      (32)              (320)                     (1)       -                      (353)
 Net Outlays                                                                               (628)               (66)                     (4)    (138)                     (836)




                                                                                  2008 ANNUAL REPORT
                                                                                           -99 –
OTHER ACCOMPANYING INFORMATION (UNAUDITED)




            2008 ANNUAL REPORT
                     -100 -
                                                                                            COMMODITY CREDIT CORPORATION
                                                                                                            Other Accompanying Information


Schedule 2
Other Accompanying Information (Unaudited)
Change in Inventory by Commodity

For the Fiscal Year Ended September 30, 2008
(Dollars in Thousands)
                                            Beginning Inventory                                                                                                                                                                       Ending Inventory
                                              October 1, 2007                  Acquisitions                 Cost of Sales a/                Donations                 Other Dispositions b/             Deductions, Net c/           September 30, 2008
                                  Unit of
                                 Measure    Quantity           Value       Quantity         Value        Quantity        Value         Quantity           Value       Quantity           Value         Quantity        Value        Quantity            Value
Feed Grains:
 Barley                          Bushels           5       $        10              -   $         -              (5) $       (10)              - $               -            -      $             -           - $            -              -      $         -
 Corn                            Bushels         951             1,947         3,329         25,142           (182)         (593)         (3,177)          (24,611)          30                  62         (951)        (1,947)             -                -
 Corn Meal                       Pounds            -                 -       252,812         41,584       (204,457)      (32,098)        (25,914)           (5,078)           -                    -           -              -        22,441             4,407
 Oats                            Bushels           -                 -              -             -               -            -               -                 -            -                    -           -              -              -                -
 Sorghum                         Bushels           -                 -        33,092        197,998        (30,018)    (176,289)          (3,046)          (21,518)           -                    -           -              -            28               190
 Sorghum Grits                   Pounds            -                 -         2,136            349         (2,136)         (349)              -                  -           -                    -           -              -              -                -
 Total Feed Grains                               xxx       $     1,957           xxx    $   265,072            xxx $ (209,339)               xxx $         (51,208)         xxx      $           62          xxx $       (1,947)          xxx       $     4,598

Wheat                            Bushels       39,256      $   143,818        28,653    $   295,216        (56,171) $ (357,700)           (6,125) $        (61,509)              -   $             -      (5,612) $     (19,825)             -      $            -
Wheat Flour                      Pounds             -                -       101,442         26,228        (97,175)     (25,269)          (4,429)           (1,130)              -                 -         551            259           389                   89
Wheat Products, Other            Pounds         3,180              318       320,851         65,900       (240,677)     (49,047)         (83,354)          (17,171)              -                 -           -              -              -                   -

Rice Products:
Rice Products                    Cwt.               2      $        42         1,340    $    34,363           (931) $     (25,450)          (410) $         (8,883)           - $               -              - $             -               2    $           72
Rice, Rough                      Cwt.              49              288              -             -              -              -              -                 -          (47)            (276)             (2)            (12)               -                -
Rice, Brown                      Pounds             -                -              -             -              -              -              -                 -            -                 -              -               -                -                -

Cotton, Extra Long Staple        Bales              -      $        47              -   $        11              - $              -               -   $           -              -   $             -          (0) $         (58)               -    $            -
Cotton, Upland                   Bales             51           14,345            37          9,790             (3)            (829)              -               -              -                 -         (84)       (23,306)               -                 -

Dairy Products
 Nonfat Dry Milk              Pounds           14,481      $    13,864             -    $            -      (1,000) $          (926)     (10,596) $        (11,228)      (1,320) $         (1,439)        (1,564) $        (271)               -    $            -
 Cheese Regular Price Support Pounds                -                -             -                 -           -                -            -                 -            -                 -              -              -                -                 -
 Infant Formula               Pounds                -                -             -                 -           -                -            -                  -
 Total Dairy Products                             xxx      $    13,864           xxx    $            -         xxx $           (926)         xxx $         (11,228)         xxx      $     (1,439)           xxx   $       (271)          xxx       $            -

Oils & Oilseeds:
 Flaxseed                        Cwt.               -      $           -           -    $            -           -   $            -            -      $           -           -      $             -           -   $           -            -       $            -
 Sunflower Seed                  Cwt.               -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Sunflower Seed Oil, Processed   Pounds             -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Canola Seed                     Cwt.               -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Safflower Seed                  Cwt.               -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Crambe Oilseed                  Cwt.               -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Mustard Seed                    Cwt.               -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Sunflower Seed Non-Oil          Cwt.               -                  -           -                 -           -                -            -                  -           -                    -           -               -            -                    -
 Total Oils and Oilseeds                          xxx      $           -         xxx    $            -         xxx   $            -          xxx      $           -         xxx      $             -         xxx   $           -          xxx       $            -

Peanut Butter                    Pounds                -   $           -            -   $         -              - $              -     (120,672) $        (18,388)              -   $             -     120,672 $      18,388                 -    $            -
Peanuts                          Pounds                -               -       1,100            189           (164)             (29)           -                 -               -                 -        (937)         (160)                -                 -

Soybean Products                 Bushels         646       $     3,316             1    $           63         (20) $          (105)           - $             (57)              -   $             -        (626) $      (3,217)               -    $            -
Soybean Products                 Pounds            -                 -           154                53           -                -         (154)              (53)              -                 -           -              -                -                 -

Dry Edible Beans                 Cwt.              68      $     2,139           581    $    26,022           (613) $     (26,827)            (34) $        (1,266)              -   $             -           -   $         -              2       $        68
Blended Foods                    Pounds             -                -       219,452         53,407       (185,001)       (44,502)       (42,170)           (9,910)              -                 -      15,548         3,092          7,829             2,086
Honey                            Pounds             -                -              -             -              -              -               -                -               -                 -           -             -               -                -
Meat                             Pounds             -                -              -             -              -              -        (10,876)          (13,673)              -                 -      10,876        13,673               -                -
Pork Bellies                     Pounds             -                -              -             -               -             -               -                 -              -                 -           -             -               -                -
Dry Whole Peas                   Cwt.              88            1,777         2,315         60,219         (1,858)       (47,453)          (450)          (12,261)              -                 -           -             -             95             2,281
Lentils Dry                      Cwt.               5               85         1,254         45,244         (1,257)       (45,287)             (2)             (42)              -                 -           -             -               -                -
Corn Seed                        Pounds             -                -              -             -               -             -               -                 -              -                 -           -             -               -                -



                                                                                                         2008 ANNUAL REPORT
                                                                                                                  -101 -
                                                                                                  COMMODITY CREDIT CORPORATION
                                                                                                                 Other Accompanying Information

Schedule 2
Other Accompanying Information (Unaudited)
Change in Inventory by Commodity

For the Fiscal Year Ended September 30, 2008
(Dollars in Thousands)

                                                 Beginning Inventory                                                                                                                                                                  Ending Inventory
                                                   October 1, 2007                 Acquisitions                  Cost of Sales a/              Donations              Other Dispositions b/           Deductions, Net c/             September 30, 2008
                                     Unit of
                                    Measure     Quantity           Value       Quantity           Value       Quantity      Value         Quantity      Value         Quantity           Value       Quantity           Value       Quantity           Value
Plants & Seeds                     Pounds                -               -              -               -              -             -            -               -              -               -              -               -              -               -
Potatoes Dehydrated                Pounds                -               -           154               96          (154)           (96)           -               -              -               -              -               -              -               -
Veg Fresh Potatoes                 Pounds                -               -              -               -              -             -            -               -
In Process Beet Sugar              Pounds                -               -              -               -              -             -            -               -              -               -           -                -              -               -
Sugar, Raw Cane                    Pounds                -               -              -               -              -             -            -               -              -               -           -                -              -               -
Sugar, Refined Beet                Pounds                -               -              -               -              -             -            -               -              -               -           -                -              -               -
Sugar, Refined Cane                Pounds                -               -              -               -              -             -            -               -              -               -           -                -              -               -
Corn Oil                           Pounds                -               -              -               -              -             -            -               -              -               -           -                -              -               -
Soybean Salad Oil                  Pounds                -               -        27,929           15,529       (25,725)       (14,608)      (2,205)          (921)              -               -           -                -              -               -
Vegetable Oil                      Pounds            5,732           2,990       313,157          228,873      (279,956)     (199,925)      (56,152)       (44,064)              -               -      19,048           13,690         1,830            1,564
Fish Cnd Tuna                      Pounds                -               -              -               -              -             -      (14,760)        (6,088)              -               -      14,760            6,088              -               -
Fish Salmon                        Pounds                -               -              -               -              -             -         (779)        (1,420)              -               -         779            1,420              -               -
Fish, Canned Salmon                Pounds                -               -              -               -              -             -      (21,440)        (7,984)              -               -      21,440            7,984              -               -
Poultry Cnd Chicken                Pounds                -               -              -               -              -             -      (10,897)       (14,549)              -               -      10,897           14,549              -               -
Poultry Frzn Chicken               Pounds                -               -              -               -              -             -       (3,881)        (3,134)              -               -       3,881            3,134              -               -
Veg Cnd Carrots                    Pounds                -               -              -               -              -             -      (15,714)        (1,469)              -               -      15,714            1,469              -               -
Veg Cnd Peas                       Pounds                -               -              -               -              -             -      (17,496)        (1,611)              -               -      17,496            1,611              -               -
Poultry Frzn Turkey                Pounds                -               -              -               -              -             -       (3,360)        (6,267)              -               -       3,360            6,267              -               -
Veg Cnd Green Beans                Pounds                -               -              -               -              -             -      (25,110)        (2,131)              -               -      25,110            2,131              -               -
Veg Cnd Spinach                    Pounds                -               -              -               -              -             -       (9,101)          (917)              -               -       9,101              917              -               -
Veg Cnd Tomatoes                   Pounds                -               -              -               -              -             -      (17,280)        (1,411)              -               -      17,280            1,411              -               -

Tobacco:
 Burley                            Pounds                -     $           -           -      $           -           - $            -            - $            -            - $                -           -      $           -           -      $           -
 Cigar                             Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
 Dark Air Cured                    Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
 Fire Cured                        Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
 Flue Cured                        Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
 Virginia Fire Cured               Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
 Subtotal                                              xxx     $           -         xxx      $           -         xxx $            -          xxx $            -          xxx $                -         xxx      $           -         xxx      $           -

Emergency Food Ration Bars         Pounds                -     $           -           -      $           -           - $            -            - $            -            - $                -           -      $           -           -      $           -
Mohair                             Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
Tallow                             Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
Wool                               Pounds                -                 -           -                  -           -              -            -              -            -                  -           -                  -           -                  -
 Subtotal                                              xxx     $           -         xxx      $           -         xxx $            -          xxx $            -          xxx $                -         xxx      $           -         xxx      $           -

Elimination of Sales to P.L. 480                           -   $           -              -   $           -   (1,074,556) $ (921,316)     (1,074,556) $ (921,316)                -   $           -              -   $           -              -   $           -

Total Inventory Operations                             xxx     $   184,986           xxx      $ 1,126,276           xxx $ (126,076)             xxx $ (1,220,061)           xxx      $     (1,654)         xxx      $    47,286           xxx      $    10,757

Note: Inventories of commodities as shown in this report include commodities committed to sale or otherwise obligated. Due to distinct units of measure, Quantity totals are not tabulated, and are denoted as xxx.
a/ Includes commodities subsequently exported and financed under P.L. 480.
b/ Includes inventory quantity gains under the Export Program, and the losses incurred for conversion, incurred casualties and transit, and shrinkage and spoilage of
   commodities.
c/ Includes the net of over-deliveries, premiums, under-deliveries and discounts resulting from warehouse operations; the net change in value and quantity of inventory
   exchanged or in process of exchange; and processing end packaging costs and related quantitative gains and losses in processing operations and items which are footnoted
   individually.




                                                                                                              2008 ANNUAL REPORT
                                                                                                                       -102 -
                                   COMMODITY CREDIT CORPORATION
                                              Other Accompanying Information



Summary of Financial Statement Audit
Audit Opinion                                              Unqualified
Restatement                                                   No

Material Weaknesses            Beginning Balance   New    Resolved   Consolidated   Ending Balance
Improvement Needed in
Information Security
Controls                              1                      (1)                          0
Improvement Needed in
Financial System
Functionality and Funds
Control                               1                                                   1
Improvement Needed in
Management’s Review of
Cash Flow Models                      1                                                   1
Improvements Needed to
Ensure Obligations and
Liabilities Related to Prior
Program Years are
Accurately Reflected in
the Financial Statements                            1                                     1
Total Material
Weaknesses                            3             1        (1)                          3




                                          2008 ANNUAL REPORT
                                                   -103 –
                                    COMMODITY CREDIT CORPORATION
                                               Other Accompanying Information


Summary of Management Assurances
                                Effectiveness of Internal Control over Operations (FMFIA § 2)
Statement of Assurance                    Reasonable assurance

                                             Beginning                                                       Ending
Material Weaknesses                           Balance       New    Resolved     Consolidated    Reassessed   Balance
Information Security Controls                    1                   (1)                                        0
Review of Cash Flow Models                       1                                                             1
Recording Accruals and Obligations                            1                                                1
Total Material Weaknesses                        2            1       (1)                                      2

                    Conformance with Financial Management Systems Requirements (FMFIA § 4)
Statement of Assurance              Systems do not conform to financial management system requirements

                                             Beginning                                                       Ending
Non-conformances                              Balance       New    Resolved     Consolidated    Reassessed   Balance
Financial System Functionality                   1                                                              1
Total Non-conformances                           1                                                              1

                       Compliance with Federal Financial Management Improvement Act (FFMIA)
                                                            Agency                      Auditor
             Overall Substantial Compliance                   No                          No
                1. System Requirements                                           No
                2. Accounting Standards                                          Yes
             3. USSGL at Transaction Level                                       Yes




                                            2008 ANNUAL REPORT
                                                     -104 –
                                         COMMODITY CREDIT CORPORATION
                                                      Other Accompanying Information


          IMPROPER PAYMENTS INFORMATION ACT (IPIA) COMPLIANCE
The President’s Management Agenda identified the reduction of improper payments as a key goal for
Government Agencies. The IPIA legislation requires that FSA, under the direction of the Department of
Agriculture Chief Financial Officer, annually review programs and activities to identify if any are
susceptible to significant improper payments. OMB is responsible for implementing IPIA. OMB defines
programs as high risk if they have more than 2.5 percent and $10 million in improper payments annually.
Annually FSA completes risk assessments of the programs identified by the Office of the Chief Financial
Officer (OCFO). The risk assessment determines whether each program is at low or high risk for making
improper payments. Also, OMB, during its review of the risk assessment documentation, may conclude
that a program should be high risk. If a program is identified as high risk, FSA must complete a review of
payments in accordance with the requirements outlined in Appendix C of OMB Circular A-123. FSA then
develops a statistically valid estimate to determine the projected annual amount of improper payments for
the program or activity. Based on the kinds of errors found during the review, FSA must develop a
corrective action plan for reducing improper payments and establish performance goals.

The results of FSA/CCC’s improper payment risk assessments are included in the USDA’s Management
Discussion and Analysis section of its annual Performance and Accountability Report (PAR). The PAR is
released annually on November 15.

FSA completed the risk assessment of all CCC programs identified for review as part of the FY 2008
Review Cycle. The results of those reviews identified no new programs that were at high risk for making
improper payments. Statistical samples were completed for the seven high risk programs identified in
previous years where improper payments had exceeded the 2.5 percent maximum improper payment
rate established by the legislation. The seven high risk programs are Marketing Assistance Loan
Program, Loan Deficiency Payments, Milk Income Loss Contracts, Direct and Counter-Cyclical Payments,
Conservation Reserve Program, Miscellaneous Disaster Programs, and Noninsured Assistance Program.
In addition, a 100 percent testing of transactions assessment was also performed on three Miscellaneous
Disaster Programs managed by the National Office in Washington, D.C. The FY 2008 statistical sample
results are compared to the results from FY 2007 in the table shown below.

 IMPROPER PAYMENTS INFORMATION ACT (IPIA) COMPLIANCE
                                 A                       B                       C                          D
                          Value of Outlay         Total Value of              Value of              Value of Incorrect               E
                         Sample Universe        Improper Payments       Administrative Errors        Disbursements          Percent of Incorrect
      Program              (in million $)          (in million $)          (in million $)1            (in million $)1         Disbursements

     FY Testing Done    FY 2007    FY 2008      FY 2007      FY 2008    FY 2007      FY 2008       FY 2007      FY 2008    FY 2007         FY 2008
      Marketing
  Assistance Loans       $6,306      $4,981       $457.60     $91.70    $433.90         $82.00        $23.70       $9.80    0.39 %           0.19 %
   Loan Deficiency
      Payments           $4,071       $134         $18.30      $0.84        *            $0.93        $18.30       $0.72    0.45 %           0.51 %
     Noninsured
 Assistance Program         $64       $126          $8.40     $17.70       $0.40        $16.30         $8.00       $3.90   12.41 %           3.29 %
 Direct and Counter-
  Cyclical Program       $9,550      $7,144        $37.00     $47.20        *           $32.30        $37.00     $14.90     0.37 %           0.22 %

  Disaster Payments        $368       $154         $25.30      $4.80       $2.80         $2.90        $22.50       $3.80    6.02 %           3.13 %
    Conservation
  Reserve Program        $1,851      $1,888         $8.70     $23.90       $4.30         $6.70         $4.40     $19.50     0.23 %           1.02 %
  Milk Income Loss
      Contracts            $351       $155          $7.70      $0.33       $0.10         $0.06         $7.60       $0.34    2.13 %           0.22 %
    All High Risk
      Programs          $22,561     $14,582       $563.00    $186.47    $441.50        $141.19       $121.50     $52.96     0.54 %           0.36 %

Source of FY 2007 data was the FY 2007 USDA PAR and FY 2008 Data was the Memo dated August 8, 2008 from Director, ORAS to Director, OBF.
* Level of activity was less than .005 percent.


                                                  2008 ANNUAL REPORT
                                                           -105 –
                                 COMMODITY CREDIT CORPORATION
                                           Other Accompanying Information


1
 Estimates are individually calculated statistical projections and are not intended to conform to nor validate another
estimate using an arithmetical expression. Each point estimate is calculated with respect to its own expansion factors
and lies within its own confidence bounds. Because of the sample design complexity, additional calculations are
generally necessary to add or combine two distinct statistical estimates




                                        2008 ANNUAL REPORT
                                                 -106 –
GLOSSARY OF ACRONYMS




 2008 ANNUAL REPORT
          -107 –
                           COMMODITY CREDIT CORPORATION
                                       Glossary of Acronyms

ADA – Antideficiency Act
ADP – Automatic Data Processing
AMS – Agricultural Marketing Service
BEHT – Bill Emerson Humanitarian Trust
BDO – Barter Delivery Obligations
BPMS – Budget and Performance Management System
CAP – Corrective Action Plan
CCC – Commodity Credit Corporation
CFO – Chief Financial Officer
COR – County Office Review
COTS – Commercial-off-the-Shelf
CRP – Conservation Reserve Program
CSC 2 – Credit Subsidy Calculator 2
DAFP – Deputy Administrator for Farm Programs
DCP – Direct and Counter-Cyclical Payment Program
DPSP – Daily Product Price Support Program
eDCP – Electronic Direct and Counter-Cyclical Payment Program
EQIP – Environmental Quality Incentive Program
EPAS – Economics, Policy, and Analysis
FACTS II – Federal Agencies Centralized Trial Balance System II
FAI – Finance Account Interest
FAPRI – Food and Agricultural Policy Research Institute
FASAB – Federal Accounting Standards Advisory Board
FAS – Foreign Agricultural Service
FATER – Food Aid Targeting Effectiveness Ratio
FCRA - Federal Credit Reform Act of 1990
FDIIP – Financial Data Integration Improvement Plan
FFAS – Farm and Foreign Agricultural Services
FFMIA – Federal Financial Management Improvement Act
FGP- Facilities Guarantee Program
FISMA – Federal Information Security Management Act
FMFIA – Federal Managers’ Financial Integrity Act
FMMI – Financial Management Modernization Initiative
FNCS – Food, Nutrition, and Consumer Services
FNS – Food and Nutrition Service
FRBs – Federal Reserve Banks
FRPP – Farm and Ranch Lands Protection Program
FSA – Farm Service Agency
FSFL – Farm Storage Facility Loan Program
FSIO – Financial System Integration Office
FSIS - Food Safety and Inspection Service
FY – Fiscal Year
GAAP – Generally Accepted Accounting Principles
GMLoB – Grants Management Line of Business

                                 2008 ANNUAL REPORT
                                          -108 –
                          COMMODITY CREDIT CORPORATION
                                       Glossary of Acronyms

GPEA – Government Paperwork Elimination Act
GPRA - Government Performance and Results Act
GRP – Grassland Reserve Program
GSM – General Sales Manager
HIPC - Heavily Indebted Poor Countries
ICRAS – Inter-Agency Credit Risk Assessment System
IPIA – Improper Payments Information Act of 2002
IT – Information Technology
ITS – Information Technology Services
JFMIP – Joint Financial Management Improvement Program
MAL – Marketing Assistant Loans
MAP – Market Access Program
MIDAS – Modernize and Innovate the Delivery of Agricultural Systems
MILC – Milk Income Loss Contract Program
MRP – Marketing and Regulatory Programs
NAP – Noninsured Crop Disaster Assistance Program
NIST – National Institute of Standards and Technology
NPS – National Payment Service
NRE – Natural Resources and Development
NRCS – National Resources Conservation Service
OCFO – Office of the Chief Financial Officer
OGC – Office of the General Counsel
OIG – Office of the Inspector General
OMB – Office of Management and Budget
PAR – Performance and Accountability Report
PART – Program Assessment Rating Tool
PECD – Production, Emergencies, and Compliance Division
P&F Schedule – Program and Financing Schedule
PL – Public Law
PP&E – Property, Plant and Equipment
PSD – Price Support Division
PV – Present Value
RD – Rural Development
REX - Re-enroll or Extend
RFI – Request for Information
RSI – Required Supplementary Information
RSSI – Required Supplementary Stewardship Information
SCGP – Supplier Credit Guarantee Program
S&E – Salaries and Expenses
SBR – Statement of Budgetary Resources
SFFAC – Statement of Federal Financial Accounting Concepts
SFFAS – Statement of Federal Financial Accounting Standards
SNC – Statement of Net Cost
SPPA – Strategic Partnership Program Agroterrorism

                                2008 ANNUAL REPORT
                                         -109 –
                          COMMODITY CREDIT CORPORATION
                                      Glossary of Acronyms

TTPP – Tobacco Transition Payment Program
USAID – United States Agency for International Development
USDA – United States Department of Agriculture
USFWS – U.S. Fish and Wildlife Service
USGS – Geological Survey
USWA – United States Warehouse Act
WRP – Wetlands Reserve Program
WTO – World Trade Organization




                                2008 ANNUAL REPORT
                                         -110 –
